<html>
<title> - THE ACCURACY OF THE FTC TAR AND NICOTINE CIGARETTE RATING SYSTEM</title>
<body><pre>[Senate Hearing 110-1118]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1118
 
                      THE ACCURACY OF THE FTC TAR 

                  AND NICOTINE CIGARETTE RATING SYSTEM

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 13, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
73-848                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 13, 2007................................     1
Statement of Senator Lautenberg..................................     1
Statement of Senator Stevens.....................................     3

                               Witnesses

Ashley, Ph.D., David L., Chief, Emergency Response and Air 
  Toxicants Branch; Chief, Tobacco Laboratory, National Center 
  for Environmental Health, Centers for Disease Control and 
  Prevention (CDC), Department of Health and Human Services; and 
  Chair, Tobacco Laboratory Network, World Health Organization...    15
    Prepared statement...........................................    17
Backinger, Ph.D., Cathy L., Acting Chief, Tobacco Control 
  Research Branch, National Cancer Institute, National Institutes 
  of Health, U.S. Department of Health and Human Services........    10
    Prepared statement...........................................    11
Goldberg, Ph.D., Marvin E., Irving & Irene Bard Professor of 
  Marketing, Smeal College of Business, Penn State University....    39
    Prepared statement...........................................    40
Henningfield, Ph.D., Jack E., Vice President, Research and Health 
  Policy, Pinney Associates; Professor of Behavioral Biology, 
  Adjunct, and Director, Innovators Awards Program, Department of 
  Psychiatry and Behavioral Sciences, The Johns Hopkins 
  University School of Medicine..................................    33
    Prepared statement...........................................    35
Kovacic, Hon. William E., Commissioner, Federal Trade Commission.     3
    Prepared statement...........................................     5
Samet, M.D., M.S., Jonathan M., Professor and Chairman, 
  Department of Epidemiology, Johns Hopkins Bloomberg School of 
  Public Health..................................................    25
    Prepared statement...........................................    26
Sheller, Esq., Stephen A., Founder and Managing Partner, Sheller, 
  P.C............................................................    50
    Prepared statement...........................................    51

                                Appendix

Article from Pediatrics--Official Journal of the American 
  Academy, dated October 2004, entitled ``Adolescents' Beliefs 
  About the Risks Involved in Smoking ``Light'' Cigarettes''.....    75
Article from the American Journal of Public Health, dated 
  December 2006, entitled ``Effect of Televised, Tobacco Company-
  Funded Smoking Prevention Advertising on Youth Smoking-Related 
  Beliefs, Intentions, and Behavior''............................    58
Harbour, Hon. Pamela Jones, Commissioner, Federal Trade 
  Commission, prepared statement.................................    57
Letter, dated May 10, 2007, to Hon. Frank R. Lautenberg from Hon. 
  Pamela Jones Harbour, Commissioner, Federal Trade Commission...    57
R.J. Reynolds Tobacco Co., prepared statement....................    84
Response to written questions submitted by Hon. Daniel K. Inouye 
  to:
    Hon. William E. Kovacic......................................    68
Response to written questions submitted by Hon. Frank R. 
  Lautenberg to:
    Marvin E. Goldberg, Ph.D.....................................    73
Supplemental information submitted by Cathy L. Backinger, Ph.D...    69


    THE ACCURACY OF THE FTC TAR AND NICOTINE CIGARETTE RATING SYSTEM

                              ----------                              


                       TUESDAY, NOVEMBER 13, 2007

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:35 p.m. in room 
SR-253, Russell Senate Office Building, Hon. Frank R. 
Lautenberg, presiding.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Now, we shall call the meeting to 
order. OK.
    Today's hearing is part of our oversight of the Federal 
Trade Commission's activities. We're going to look closely at 
the FTC's role in the regulation of cigarette marketing. We're 
going to focus on the tests that the FTC has permitted tobacco 
companies to use for decades to measure the tar and nicotine 
levels of its cigarettes. Smokers have long relied on these tar 
and nicotine ratings to determine which cigarettes to smoke. 
For example, cigarettes with a low tar FTC rating are marketed 
as ``light'' cigarettes, and, as we're going to learn from 
today's hearing, smokers believe that when they switch to a 
light cigarette they're turning to a safer alternative than a 
regular cigarette. But the National Cancer Institute and other 
studies show that switching to a light cigarette may not only 
be as bad as a regular cigarette, but often its worse for your 
health. I want to repeat that, that a light cigarette can often 
be more deadly than a regular cigarette. And addicted smokers 
are the victims of this deception.
    Now, I, too, was a smoker. But, fortunately, my 10-year-old 
daughter convinced me to stop. One day when I lit a cigarette 
at home, she said, and I'll quote her, ``Daddy, they told me at 
school that, if you smoke, that you get a black box in your 
throat, and I love you, and I don't want you to get a black box 
in your throat.'' And it took me a couple of days, and that was 
the end of smoking. And I know it's not easy to give it up. As 
I smoked in those years, I kept thinking about giving it up, 
and never quite made it.
    The reality is that most smokers are addicted to a drug, a 
drug called nicotine. And that's what we're going to learn in 
this hearing, it's the effect of nicotine on the brain that 
renders the FTC rating method inaccurate. The FTC employs the 
use of what some have called the ``smoking robot machine.'' And 
thanks to the Centers for Disease Control, we have a short 
video which I'd like to show you now.
    Now, can the people sitting in the audience see this? It 
demonstrates the FTC Method and the smoking robot.
    Now, when you look at these nonaddicted machines, you don't 
get an accurate picture as to what really is happening. The 
machine's smoking, and the machine's life cycle is not 
affected. But the smokers' are. The reality is that smokers 
don't smoke cigarettes like a machine; rather, our brains 
manipulate puffing patterns to make sure that a smoker takes in 
enough nicotine from every cigarette to soothe the addiction. 
And that's why many who switch from Marlboros to Marlboro 
Lights wind up getting more tar, because they're taking longer 
and deeper puffs to bring in the same amount of nicotine that 
they got from a standard Marlboro cigarette. And even the FTC 
has the knowledge that, in its testing method, that it doesn't 
work.
    In fact, in May 2000, the FTC put out a consumer alert 
about their tar and nicotine ratings which said--I quote here--
``Don't count on the numbers,'' and ``cigarette tar and 
nicotine ratings can't predict the amount of tar and nicotine 
that you get.'' So, the FTC was saying, essentially, ``Don't 
pay attention to our own system.'' The FTC should not allow, 
therefore, this rating system to continue if it cannot stand 
behind it. And big tobacco should not be able to hide behind 
the FTC Method to justify the claim that light and low-tar 
cigarettes are healthier.
    In 2005, in this committee, I tried to fix this problem, 
and I brought an amendment to prohibit the tobacco companies 
from continuing to use the FTC Method to justify health claims 
about their cigarettes. My amendment lost on a party-line vote. 
And I'm hopeful that, in the wake of this hearing, that we can 
build momentum to finally tackle this problem seriously.
    The issue of tobacco control is a critical issue for our 
country. Tobacco-related illnesses rob more than 400,000 
Americans of their lives each and every year. And tobacco 
creates $89 billion in annual healthcare costs.
    Now, just last week, the Centers for Disease Control 
reported that recent declines in smoking have stopped. Now, 
this is a disturbing development for America's public health. 
And, as many know, I have a long history of trying to write 
sensible laws to help control the damage caused by tobacco use.
    Now, I wrote the law banning smoking on airplanes in 1987. 
That law changed our Nation's culture about secondhand smoke 
and helped usher in the smoke-free revolution that we're now 
seeing across the country. And I'm proud that my home state of 
New Jersey recently passed a statewide law banning smoking in 
restaurants, bars, and workplaces.
    I also wrote the law, in 1994, that requires that all 
buildings that house federally funded programs for children 
maintain a smoke-free environment. And now, we have another 
urgent tobacco problem to fix.
    So, I look forward to hearing the testimony from our 
witnesses today.
    And I'm pleased to be sitting here with a colleague and an 
ally in this, the Vice Chairman of the Commerce Committee, 
Senator Stevens.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Thank you very much.
    I was trying to remember who was the author of that bill on 
Federal buildings, you or me, but it's all right.
    I do thank you for holding the hearing, and I think there 
is a lot that remains to be done in this area. The FTC has used 
the same rating system to measure tar, nicotine, and carbon 
monoxide yields for 40 years yet cigarette design has not 
remained the same during this period. Concerns have been 
expressed to us that consumers are being misled by the 
cigarette rating system that's currently in use as it relates 
to light and low-tar cigarettes. The test machine was not 
intended to imitate human smokers, yet that is how consumers 
are interpreting the test results. I look forward to hearing 
the witnesses today.
    And, unfortunately, I have another meeting at 3:30, but I'm 
pleased you have held this hearing, Mr. Chairman.
    Senator Lautenberg. Thanks very much.
    Now, I want to welcome our witnesses, but I also want to 
point out that both Altria, formerly known as Philip Morris, 
and R.J. Reynolds were asked if they would testify today, and 
they both refused. The Committee's going to explore, 
nevertheless, what steps will be taken to gather information 
from these companies after this hearing.
    And, with that, I welcome our first panel. We have Mr. 
William Kovacic, a Commissioner of the Federal Trade 
Commission; Dr. Cathy Backinger, the Acting Chief of the 
Tobacco Control Research Branch of the National Cancer 
Institute; and Dr. David Ashley, the Chief of the Division of 
Laboratory Sciences at the Centers for Disease Control and 
Prevention. And I thank you for joining us.
    Mr. Kovacic, you may begin, please. And we ask you to hold 
your testimony to 5 minutes, if you will.

  STATEMENT OF HON. WILLIAM E. KOVACIC, COMMISSIONER, FEDERAL 
                        TRADE COMMISSION

    Mr. Kovacic. Thank you, Vice Chairman Stevens and Senator 
Lautenberg, for the opportunity to testify about the Federal 
Trade Commission's work concerning tar and nicotine ratings for 
cigarettes.
    The written statement that I submitted presents the views 
of the Commission itself, and my spoken remarks today present 
my own views, and not necessarily those of my colleagues.
    The question of how to give consumers useful information 
about the health risks of smoking has commanded the FTC's 
attention for nearly a half century. It was the FTC's cigarette 
rule in 1964, which required cigarette companies to place 
health warnings on packages and advertisements, that helped 
spur the adoption of the Federal Cigarette Labeling and 
Advertising Act. In 1967, the FTC began a program to provide 
cigarette ratings for tar and nicotine. Testing was done under 
the Cambridge Filter Test Method which is known in the United 
States as the FTC Method. The program sought to provide smokers 
seeking to switch to lower-tar cigarettes information based on 
a single-standard measurement.
    For some time, the Commission has been concerned that the 
current test method may mislead individual consumers who rely 
on the ratings it produces to indicate the amount of tar and 
nicotine that they actually will get from their cigarettes. The 
current ratings tend to be relatively poor indicators of tar 
and nicotine exposure. Among other reasons, smokers of lower-
rated cigarettes tend to take bigger, deeper, more frequent 
puffs, or otherwise alter their smoking behavior to obtain the 
dosage of nicotine they need.
    Although the limits of the test methodology were recognized 
when the program began in 1967, they became a substantially 
greater concern since the 1990s, due to changes in modern 
cigarette design and a better understanding of the nature and 
effects of smoking behavior. These concerns led the Commission, 
in 1994, along with Congressman Waxman, to ask the National 
Cancer Institute to convene a conference to address cigarette 
testing issues.
    The NCI convened the conference, and, in 1996, recommended 
that the cigarette testing system measure and publish 
information on the range of tar, nicotine, and carbon monoxide 
that most smokers would expect from the cigarettes they smoke.
    In September 1997, the Commission requested public comments 
and proposed revisions to the test method that would add a 
second tier of testing to better approximate the range of tar 
and nicotine yields and make it more apparent to consumers that 
the amounts of tar and nicotine they get from any specific 
cigarette depends on how they smoke.
    Around the same time, some public health officials warned 
that recently released studies raised serious questions about 
the basic assumption then underlying cigarette testing; namely, 
that cigarettes with lower machine-measured tar and nicotine 
ratings are less harmful than ones with higher ratings. An NCI 
report in 1997 suggested that the reduced tar levels of modern 
cigarettes might have less benefits than previously believed. 
Other studies reported that changes in smoking behavior and 
cigarette design appear to have resulted in an increase in a 
specific type of cancer that occurs deeper in the lung.
    Citing these studies, public health agencies asked the FTC 
to postpone its proposed changes to the test method until a 
broader review of unresolved scientific issues surrounding the 
system could be addressed.
    In November 2001, the NCI reported the results of a review 
of the epidemiological and other scientific evidence on the 
public health effects of low-tar cigarettes. The panel of 
scientific experts assembled for that inquiry concluded that 
the existing scientific evidence did not demonstrate a public 
health benefit to smokers who switched to low-tar or light 
cigarettes.
    The 2001 NCI report also concluded that measurements of tar 
and nicotine, as measured by the FTC Method, did not offer 
meaningful information to consumers, and that there was an 
urgent need to develop new testing approaches. The Commission 
understands that this report represented, at least in part, the 
first step in an HHS response to a 1998 FTC request for 
assistance. When it announced the release of this report, the 
NCI noted the FTC's previous request and indicated that it 
would work with other science-based agencies at HHS to 
determine how to change the testing method.
    The FTC understands that representatives from agencies 
within HHS are continuing to explore these issues. In addition, 
the World Health Organization has assembled a panel of experts 
to address tobacco testing issues.
    The FTC believes it is vital that there be an effective 
mechanism for implementing any recommended changes to the test 
method once these evaluations are completed. The Commission 
brings strong market-based expertise to its scrutiny of 
consumer protection matters, yet we lack the specialized 
scientific expertise needed to design and evaluate scientific 
test methods.
    When we evaluate medical or other scientific issues, the 
Commission often relies on other government agencies and 
outside experts with more knowledge in relevant areas. In its 
1999 July report to the Congress, pursuant to the Cigarette 
Labeling and Advertising Act, the Commission recommended that 
Congress consider giving authority over cigarette testing to 
one of the Federal Government's science-based public health 
agencies. The Commission renewed that recommendation in 2003 in 
testimony before Congress, and the Commission reiterates that 
recommendation again today.
    I thank the Committee for the opportunity to address these 
issues, and I await your questions.
    [The prepared statement of Mr. Kovacic follows:]

     Prepared Statement of Hon. William E. Kovacic, Commissioner, 
                        Federal Trade Commission
    Chairman Inouye, Vice Chairman Stevens, Senator Lautenberg, and 
Members of the Committee, I am William E. Kovacic, a Commissioner at 
the Federal Trade Commission (``FTC'' or ``Commission'').\1\ The 
Commission is pleased to have this opportunity to provide testimony at 
today's hearing. Today, I would like to discuss the FTC's 
responsibilities and activities in the area of tobacco advertising 
generally, and then turn more specifically to a discussion of cigarette 
testing and the promotion of cigarettes based on machine-measured tar 
and nicotine yields. The testimony discusses concerns the FTC has with 
the test method, and renews the Commission's previous recommendation 
that Congress consider giving authority over cigarette testing to one 
of the Federal Government's science-based public health agencies.
---------------------------------------------------------------------------
    \1\ The written statement presents the views of the Federal Trade 
Commission. My oral testimony and responses to questions reflect my 
views, and do not necessarily reflect the views of the Commission or 
any other Commissioner.
---------------------------------------------------------------------------
    As the Nation's consumer protection agency, the FTC has a broad 
mandate, with diverse responsibilities such as the prosecution and 
prevention of fraud in the marketing of healthcare products, deceptive 
financial practices in the subprime mortgage and credit repair 
industries, identity theft, and technology risks to consumers such as 
spam and spyware. The FTC also has responsibility over the marketing 
and promotion of tobacco products, including cigarettes, smokeless 
tobacco, cigars, and new tobacco products. One of the most challenging 
issues concerning cigarette advertising and promotion is the topic of 
today's hearing: the advertising and promotion of cigarettes based on 
their tar and nicotine yields as measured by the test methodology 
commonly referred to in the United States as ``the FTC Method,'' 
although, as discussed below, the FTC stopped testing according to this 
method in 1987.\2\
---------------------------------------------------------------------------
    \2\ See infra n. 15.
---------------------------------------------------------------------------
    Cigarette testing under this test methodology began 40 years ago, 
in 1967, when the Commission approved use of the FTC Method for 
measuring the tar and nicotine yields of cigarettes.\3\ From the 
outset, cigarette testing under the FTC Method was intended to produce 
uniform, standardized data about the tar and nicotine yields of 
mainstream cigarette smoke, not to replicate actual human smoking. 
Because no known test could accurately replicate human smoking, the FTC 
believed that the most important objective was to ensure that cigarette 
companies presented tar and nicotine information to the public based on 
a standardized method. In 1967, most public health officials believed 
that reducing the amount of ``tar'' in a cigarette could reduce a 
smoker's risk of lung cancer; therefore, it was thought that giving 
consumers uniform and standardized information about the tar and 
nicotine yields of cigarettes would help smokers make informed 
decisions about the cigarettes they smoked.\4\ In the intervening 40 
years, cigarettes have changed markedly and scientific understanding of 
smoking behavior has improved. These changes have important 
implications for cigarette measurement.
---------------------------------------------------------------------------
    \3\ When the Commission approved the test methodology, it was 
called the Cambridge Filter Method. The Cambridge Filter Method is now 
commonly referred in the United States as ``the FTC Method.''
    \4\ When the test method was adopted, the public health community 
believed that ``[t]he preponderance of scientific information strongly 
suggests that the lower the tar and nicotine content of cigarette 
smoke, the less harmful would be the effect.'' U.S. Dept. of Health and 
Human Services, The Health Consequences of Smoking: The Changing 
Cigarette 1 (1981) (quoting a 1966 Public Health Service statement).
---------------------------------------------------------------------------
The Commission's Responsibilities Over Tobacco Advertising and 
        Promotion
    The Commission's core responsibility over the advertising and 
promotion of cigarettes and other tobacco products arises from its law 
enforcement authority under Section 5 of the FTC Act, which prohibits 
``unfair or deceptive acts or practices in or affecting commerce.'' \5\ 
The FTC's law enforcement activities involving cigarette advertising 
and promotion date back to the 1930s.\6\ In 1962, the FTC's request for 
technical assistance from the U.S. Public Health Service was among the 
factors that led the then-Surgeon General to establish an advisory 
panel to undertake a comprehensive analysis of the data on smoking and 
health. The work of the advisory panel, in turn, led to the now-
historic 1964 Report of the Surgeon General finding that cigarette 
smoking presented significant health risks. In that same year, the 
Commission issued a regulation requiring tobacco companies to include 
health warnings in cigarette advertisements and on packages.\7\ The 
FTC's regulation was superseded in 1965, before it went into effect, by 
the Federal Cigarette Labeling and Advertising Act (``Cigarette 
Act''),\8\ which required health warnings on cigarette packages.
---------------------------------------------------------------------------
    \5\ 15 U.S.C.  45(a).
    \6\ See, e.g., Julep Tobacco Co., 27 F.T.C. 1637 (1938) 
(stipulation prohibiting claims that Julep cigarettes helped counteract 
irritations due to heavy smoking and never made the throat dry or 
parched).
    \7\ See Trade Regulation Rule for the Prevention of Unfair or 
Deceptive Advertising and Labeling of Cigarettes in Relation to the 
Health Hazards of Smoking, 29 Fed. Reg. 8324, 8354 (1964).
    \8\ 15 U.S.C.  1331 et seq. Although the Commission administers 
the Cigarette Act, the Department of Justice enforces it.
---------------------------------------------------------------------------
    The Commission also has used its Section 5 authority to prosecute a 
variety of unfair and deceptive cigarette advertising practices--
including claims about tar and nicotine ratings for cigarettes. For 
example, in the early 1980s, the FTC filed a Federal district court 
lawsuit challenging claims made by Brown & Williamson Tobacco 
Corporation that its Barclay cigarettes had only 1 mg. of tar. The FTC 
had previously revoked the ``1 mg. tar'' rating after concluding that 
the FTC Method did not accurately measure Barclay's tar, nicotine, and 
carbon monoxide due to the cigarette's unique channel ventilation 
system. The court agreed with the FTC, and found that the ``1 mg. tar'' 
claim was deceptive.\9\ Likewise, in 1995, the Commission approved a 
consent agreement with American Tobacco Company, settling charges over 
advertisements that allegedly misused the tar and nicotine ratings by 
representing that smokers would get less tar by smoking 10 packs of 
Carlton brand cigarettes (which were rated at 1 mg. tar per cigarette) 
than by smoking a single pack of certain other brands of cigarettes 
(which were rated at 10 mg. of tar).\10\
---------------------------------------------------------------------------
    \9\ FTC v. Brown & Williamson Tobacco Corp., 580 F. Supp. 981 
(D.D.C. 1983), aff'd. in part, remanded in part, 778 F.2d 35 (D.C. Cir. 
1985).
    \10\ The American Tobacco Co., 119 F.T.C. 3 (1995). In another 
example of a Commission action involving unfair and deceptive cigarette 
advertising practices, in 1997, the Commission issued a complaint 
against the R.J. Reynolds Tobacco Co. alleging that the company's Joe 
Camel advertising campaign caused or was likely to cause many young 
people to begin or continue to smoke, thereby exposing them to 
significant health risks. R.J. Reynolds Tobacco Co., 127 F.T.C. 49 
(1999). The Commission's complaint was issued on May 28, 1997. On 
January 26, 1999, the Commission dismissed the complaint without 
prejudice because the relief sought had been achieved through, inter 
alia, the master settlement between the major tobacco companies and the 
Attorneys General for 46 states.
---------------------------------------------------------------------------
    In addition to law enforcement actions, the Commission administers 
the Cigarette Act and administers and enforces the Comprehensive 
Smokeless Tobacco Health Education Act (``Smokeless Tobacco Act'').\11\ 
The Cigarette Act instructs the FTC to take certain steps to implement 
the mandated Surgeon General's health warnings. The Smokeless Tobacco 
Act directs the FTC to promulgate regulations governing the health 
warnings on packaging and advertising for smokeless tobacco products. 
The Commission's regulations specify the format, placement, and 
rotation of the warnings, and require companies to submit plans setting 
forth their rotation schedules to the FTC for approval.\12\ In 
addition, the FTC enforces the ban in the Smokeless Tobacco Act on 
broadcasting smokeless tobacco advertisements on radio and television.
---------------------------------------------------------------------------
    \11\ 15 U.S.C.  4401 et seq.
    \12\ 16 C.F.R. Part 307.
---------------------------------------------------------------------------
    The Commission also publishes periodic reports on the advertising 
and promotion activities in the cigarette and smokeless tobacco 
industries.\13\ Those reports provide information on sales and on 
various categories of advertising and marketing expenditures. The 
Commission issued its first report for cigarettes in 1967, and on the 
smokeless tobacco industry in 1987. The Commission also published 
periodic reports showing the tar, nicotine, and carbon monoxide yields 
of various cigarette brands from 1967 through 2000.\14\ In light of 
concerns over the test method used to measure these yields, which are 
discussed later in this statement, these reports have not been 
published since 2000 (reporting on 1998 data). But the FTC continues to 
collect this information, and it is available to researchers on the 
FTC's website.
---------------------------------------------------------------------------
    \13\ In addition, the Commission issued a report on the advertising 
and promotion activities in the cigar industry in 1999. Federal Trade 
Commission Report to Congress, Report on Cigar Sales, Advertising, and 
Promotion (1999).
    \14\ Until 1981, the Reports only provided information about the 
tar and nicotine yields. In 1981, the test methodology was changed to 
include testing for carbon monoxide yields, and the Commission 
subsequently began reporting those yields in addition to tar and 
nicotine.
---------------------------------------------------------------------------
    Finally, testing for the tar, nicotine, and carbon monoxide yields 
of cigarettes is conducted by the cigarette industry under the test 
methodology approved by the FTC in 1967.\15\ Cigarette companies have 
promoted their cigarettes based on ratings generated by this test 
methodology, and have adopted descriptors, such as ``light'' and 
``low,'' to characterize cigarettes that have tar ratings of 15 mg. or 
less.\16\
---------------------------------------------------------------------------
    \15\ In 1967, the Commission opened its own testing laboratory to 
analyze the tar and nicotine yields of cigarettes. In 1981, the 
Commission laboratory began to analyze the carbon monoxide yields as 
well. The Commission operated this laboratory until April 1987, when it 
decided to close it because, inter alia, significant expenditures were 
needed to update and continue the laboratory, and the same information 
was available from the industry. See Prepared Statement of the Federal 
Trade Commission on Cigarette Tar and Nicotine Testing Before the 
Subcommittee on Transportation, Tourism, and Hazardous Materials, U.S. 
House of Representatives (May 7, 1987). Since the FTC laboratory 
closed, the Tobacco Industry Testing Laboratory conducts the testing 
and provides the data to the individual cigarette companies; the 
Commission obtains the data from the cigarette companies pursuant to 
compulsory process.
    \16\ These terms are not defined by the FTC or any other government 
agency. The industry, however, has generally adopted them. The term 
``low'' tar generally refers to cigarettes currently rated as 15 mg. 
tar or less and ``ultra low'' to those rated 6 mg. or less. The 
industry uses the term ``full flavor'' to describe cigarettes with tar 
ratings above 15 mg. The terms ``light'' and ``ultra-light'' are used 
interchangeably with ``low'' tar and ``ultra low'' tar, respectively.
---------------------------------------------------------------------------
The ``FTC Test Method'' and Its Limitations
    Cigarette ratings for tar, nicotine, and carbon monoxide are 
determined by machine testing conducted in accordance with the 
Cambridge Filter test method, commonly known in the U.S. as ``the FTC 
Method.'' \17\ The FTC Method determines the relative yield of 
individual cigarettes by ``smoking'' them in a standardized fashion, 
according to a pre-determined protocol, on a machine. The machine is 
calibrated to take one puff of 2-second duration and 35 ml volume every 
minute. Cigarettes are smoked to a specified length, and the ratings 
are then calculated. In 1967, when it began, the intent of the tar and 
nicotine testing program was to provide smokers seeking to switch to 
lower tar cigarettes information based on a single, standardized 
measurement with which to choose among then-existing brands.
---------------------------------------------------------------------------
    \17\ Europe and many other countries have adopted a similar 
machine-based test method established by the International Organization 
for Standardization. In those countries, the test method is referred to 
as the ``ISO Method.''
---------------------------------------------------------------------------
    Over the past 40 years that the current system has been in place, 
there have been dramatic decreases in the machine-measured tar and 
nicotine yields of cigarettes. In 1968, for example, only 2 percent of 
all cigarettes had machine-measured yields of 15 mg. or less. Today, 
over 83.5 percent of all cigarettes sold have machine-measured yields 
of 15 mg. or less.
    Despite these dramatic decreases in machine-measured yields, the 
Commission has been concerned for some time that the current test 
method may be misleading to individual consumers who rely on the 
ratings it produces as indicators of the amount of tar and nicotine 
they actually will get from their cigarettes. In fact, the current 
ratings tend to be relatively poor predictors of tar and nicotine 
exposure. This appears to be primarily due to compensation--or the 
tendency of smokers of lower rated cigarettes to take bigger, deeper, 
or more frequent puffs, or otherwise alter their smoking behavior in 
order to obtain the dosage of nicotine they need. Such variations in 
the way people smoke can have significant effects on the amount of tar, 
nicotine, and carbon monoxide they get from any particular cigarette. 
Smokers may incorrectly believe, for example, that they will get three 
times as much tar from a 15 mg. tar cigarette as from a 5 mg. tar 
cigarette. In fact, if compensation is sufficiently great, it is 
possible for smokers to get as much tar and nicotine from relatively 
low rated cigarettes as from higher rated cigarettes. Although the 
limitations in the test methodology were recognized when the testing 
program began in 1967, they became a substantially greater concern by 
the 1990s as a result of changes in modern cigarette design and a 
better understanding of the nature and effects of compensatory smoking 
behavior.
    In light of these concerns, in 1994, the Commission, along with 
Congressman Henry Waxman, asked the National Cancer Institute (``NCI'') 
to convene a consensus conference to address cigarette testing issues. 
That conference took place in December 1994, and the NCI issued its 
Report of the conference in October 1996.\18\ The NCI Report 
recommended, among other things, that the cigarette testing system 
measure and publish information on the range of tar, nicotine, and 
carbon monoxide that most smokers should expect from the cigarettes 
they smoke. Accordingly, in September 1997, the Commission requested 
public comments on proposed revisions to the test method that would add 
a second tier of testing--using more rigorous smoking conditions--to 
better approximate a range of tar and nicotine yields and make it more 
apparent to consumers that the amount of tar and nicotine they get from 
any specific cigarette depends on how they smoke it.
---------------------------------------------------------------------------
    \18\ Smoking and Tobacco Control Monograph 7: The FTC Cigarette 
Test Method for Determining Tar, Nicotine, and Carbon Monoxide Yields 
of U.S. Cigarettes: Report of the NCI Expert Committee, National 
Institutes of Health, National Cancer Institute (1996).
---------------------------------------------------------------------------
    Around this same time, some public health officials expressed 
concerns that recently released studies raised serious questions about 
the basic assumption then underlying cigarette testing: that cigarettes 
with lower machine-measured tar and nicotine ratings are less harmful 
than ones with higher ratings. For example, in 1997, the NCI issued a 
Report noting that the apparent mortality risk among current smokers 
had risen in the last forty to fifty years, even though machine-
measured tar and nicotine yields had fallen dramatically during the 
same period.\19\ In attempting to understand this phenomenon, the 
authors of the NCI Report suggested that the increased mortality risk 
might be due to increases in current smokers' lifetime exposure to 
cigarette smoke, or that the reduced tar levels of modern cigarettes 
might have less benefits than previously believed. In addition to the 
NCI Report, a number of other studies reported that changes in smoking 
behavior and cigarette design appeared to have resulted in an increase 
in a specific type of cancer that occurs deeper in the lung than the 
type of lung cancer that was previously associated with smoking.\20\
---------------------------------------------------------------------------
    \19\ Smoking and Tobacco Control Monograph 8: Changes in Cigarette-
Related Disease Risk and Their Implications for Prevention and Control, 
National Institutes of Health, National Cancer Institute (1997).
    \20\ See Thun, M.J., et al., ``Cigarette Smoking and Changes in the 
Histopathology of Lung Cancer,'' 89 J. of the Nat'l Cancer Inst. 1580 
(1997); Ernster, V.I., ``The Epidemiology of Lung Cancer in Women,'' 4 
Annals of Epidemiology 102 (1994); Levi, F.S., et al., ``Lung Carcinoma 
Trends by Histologic Type in Vaud and Neuchatel, Switzerland, 1974-
1994,'' 79 Cancer 906 (1997).
---------------------------------------------------------------------------
    Citing these studies, public health agencies asked the Commission 
to postpone its proposed modifications to the test method until a 
broader review of unresolved scientific issues surrounding the system 
could be addressed. The Commission responded to these comments, in 
1998, by formally requesting that the Department of Health and Human 
Services (``HHS'') conduct a review of the FTC's cigarette test 
method.\21\ In particular, the Commission asked HHS to provide 
recommendations as to whether the testing system should be continued, 
and if it should be continued, what specific changes should be made in 
order to correct the limitations previously identified by the NCI, an 
agency within HHS, and other public health officials.
---------------------------------------------------------------------------
    \21\ Letter from Donald S. Clark, Secretary, Federal Trade 
Commission to the Honorable Donna E. Shalala, Secretary, Department of 
Health and Human Services (Nov. 19, 1998).
---------------------------------------------------------------------------
    In November 2001, the NCI published a Report presenting the results 
of a review of the epidemiological and other scientific evidence on the 
public health effects of low-tar cigarettes.\22\ As noted in Dr. 
Backinger's testimony prepared for today's hearing, this NCI Report 
concluded that ``there is no convincing evidence that changes in 
cigarette design . . . have resulted in an important decrease in the 
disease burden caused by cigarette use.'' \23\ The NCI Report also 
concluded that ``[v]ariations in the tar and nicotine delivery that 
result from the known compensatory alterations in smoking behaviors 
make the current U.S. cigarette tar and nicotine yields as measured by 
the FTC Method not useful to the smoker either for understanding how 
much tar and nicotine he or she is likely to inhale from smoking a 
given cigarette or for comparing the tar and nicotine intake that is 
likely to result from smoking different brands of cigarettes.'' \24\
---------------------------------------------------------------------------
    \22\ Smoking and Tobacco Control Monograph 13: Risks Associated 
with Smoking Cigarettes with Low Machine-Measured Yields of Tar and 
Nicotine, National Institutes of Health, National Cancer Institute 
(2001).
    \23\ Statement of Cathy Backinger, M.D., ``Research Findings 
Concerning So-Called Low-Tar or `Light' Cigarettes,'' Testimony Before 
the Committee on Science, Commerce, and Transportation, U.S. Senate 
(Nov. 13, 2007). See also Smoking and Tobacco Control Monograph 13: 
Risks Associated with Smoking Cigarettes with Low Machine-Measured 
Yields of Tar and Nicotine, National Institutes of Health, National 
Cancer Institute, at 146.
    \24\ Smoking and Tobacco Control Monograph 13: Risks Associated 
with Smoking Cigarettes with Low Machine-Measured Yields of Tar and 
Nicotine, National Institutes of Health, National Cancer Institute, at 
34.
---------------------------------------------------------------------------
    The Commission understands that this Report represented, at least 
in part, the first step in the HHS response to the FTC's 1998 request 
for assistance. When it announced the release of this Report, the NCI 
noted the FTC's previous request, and indicated that it would work with 
its sister science-based agencies at HHS to determine what changes 
needed to be made to the testing method.\25\
---------------------------------------------------------------------------
    \25\ National Cancer Institute, ``Low-Tar Cigarette: Evidence Does 
Not Indicate a Benefit to Public Health,'' News from the NCI (Nov. 27, 
2001).
---------------------------------------------------------------------------
    The FTC understands that representatives from agencies within HHS 
are continuing to explore these issues. In addition, the Commission 
understands that an expert panel has been assembled by the World Health 
Organization to address tobacco testing issues and to make 
recommendations concerning such testing.
    The Commission believes that it is vital that there be an effective 
mechanism for implementing any recommended changes to the test method 
once the evaluations are completed. Although the Commission brings a 
strong, market-based expertise to its scrutiny of consumer protection 
matters, it does not have the specialized scientific expertise needed 
to design and evaluate scientific test methodologies. Indeed, when 
evaluating medical or other scientific issues, the Commission often 
relies on other government agencies and outside experts with more 
knowledge in the relevant areas. Therefore, in its July 1999 ``Report 
to Congress for 1997, Pursuant to the Cigarette Labeling and 
Advertising Act,'' the Commission recommended that Congress consider 
giving authority over cigarette testing to one of the Federal 
Government's science-based public health agencies. The Commission 
renewed that recommendation in 2003 in testimony before Congress,\26\ 
and the Commission reiterates that recommendation again today.
---------------------------------------------------------------------------
    \26\ Prepared Statement of the Federal Trade Commission Before the 
Committee on Energy and Commerce, Subcommittee on Commerce, Trade, and 
Consumer Protection, U.S. House of Representatives (June 3, 2003); 
Prepared Statement of the Federal Trade Commission Before the Committee 
on Government Reform, U.S. House of Representatives (June 3, 2003).
---------------------------------------------------------------------------
    In conclusion, the FTC thanks the Committee for the opportunity to 
present testimony on this important topic.

    Senator Lautenberg. Thank you very much.
    Ms. Backinger?
    Dr. Backinger. Yes.
    Senator Lautenberg. We invite you to give your testimony, 
please.

     STATEMENT OF CATHY L. BACKINGER, Ph.D., ACTING CHIEF,

           TOBACCO CONTROL RESEARCH BRANCH, NATIONAL

        CANCER INSTITUTE, NATIONAL INSTITUTES OF HEALTH,

          U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Dr. Backinger. Senator Stevens and Senator Lautenberg, 
thank you for the opportunity today to testify on the National 
Cancer Institute's research findings regarding the disease risk 
of so-called low-tar or ``light'' cigarettes.
    I am Dr. Cathy Backinger, Acting Chief of the National 
Cancer Institute's Tobacco Control Research Branch.
    As is described more fully in my written testimony, there 
is a substantial long-standing body of evidence demonstrating 
that ``light'' or low-tar cigarettes do not reduce smokers' 
exposure to hazardous compounds or their risk of disease. 
Moreover, descriptions such as ``light,'' low tar, ``ultra 
light,'' and others, are aimed at conveying to consumers what 
NCI Monograph 13 termed ``the illusion of risk reduction.''
    Additionally, the Federal Trade Commission test method does 
not offer smokers meaningful information on the amount of tar 
and nicotine they will receive from a cigarette or on the 
relative amounts of tar and nicotine exposure they are likely 
to receive from smoking different brands of cigarettes.
    Cigarette manufacturers have made changes to cigarettes 
over the last 50 years in response to concerns that the growing 
body of evidence that smoking causes disease would motivate 
smokers to quit. In the 1950s, manufacturers began the 
widespread promotion of filtered cigarettes. And in early 
1970s, manufacturers introduced and heavily marketed new low-
tar cigarette brands. Many of the advertisements made implicit 
health claims so as to reassure smokers who were concerned 
about their health risks.
    Over time, the market share for low-tar brands increased 
dramatically. In 1967, these products had only 2 percent of the 
market share. In 2005, these products held 83.5 percent of the 
market share.
    By the early 1980s, however, scientific studies had begun 
to show that when smokers switched to low-tar cigarettes, they 
changed the way they smoked by smoking greater numbers of 
cigarettes, increasing their depth of inhalation, taking more 
frequent and/or larger puffs, as well as holding smoke in their 
lungs longer. Additionally, cigarette design features allowed 
smokers to vary the amount of smoke they inhaled. Reflecting 
this knowledge, the 1981 Surgeon General's Report concluded 
that ``the benefits [of smoking low-tar cigarettes] are minimal 
in comparison with giving up cigarettes entirely.'' In short, 
more than 25 years ago, the Surgeon General warned that smoking 
low-tar cigarettes is not a substitute for quitting.
    NCI's Monograph 7, published in 1996, considered the 
relationship between the FTC test method and actual human 
smoking behavior, as well as consumer perceptions of tar and 
nicotine ratings. Among the major conclusions of the monograph 
were:
    One, smokers who switched to lower-tar and nicotine 
cigarettes frequently changed their smoking behavior, which may 
negate potential health benefits;
    Two, brand names and brand classifications, such as 
``light'' and ``ultra light,'' represent health claims and 
should be regulated and accompanied in fair balance with an 
appropriate disclaimer; and
    Three, the available data suggest that smokers 
misunderstand the FTC test data.
    NCI's Monograph 13, published in 2001, reviewed and 
synthesized a vast amount of data, ranging from laboratory to 
population studies. Its most important finding is that ``there 
is no convincing evidence that changes in cigarette design . . 
. have resulted in an important decrease in the disease burden 
caused by cigarette use.'' The monograph also found that 
``advertisements of filtered and low-tar cigarettes were 
intended to reassure smokers [who were worried about the health 
risks of smoking] and were meant to prevent smokers from 
quitting based on those concerns;'' additionally, that 
``internal tobacco company documents demonstrate that cigarette 
manufacturers recognize the inherent deception of advertising 
that offer cigarettes as light or ultra light or as having the 
lowest tar and nicotine yields.''
    In summary, while cigarettes have changed over the last 50 
years, the disease risks have not. Cigarette manufacturers have 
long understood that consumers would respond to the widespread 
dissemination of the grave health risks of smoking by quitting. 
Manufacturers work to reassure health conscious smokers by 
marketing filtered and low-tar cigarettes and heavily 
advertising these products as ways to reduce the risk of 
smoking. Smokers erroneously saw these products as viable 
alternatives to quitting, and, as a result, many more smokers 
continue to smoke who might otherwise have quit.
    Thank you for the opportunity to appear before the 
Committee. I'm happy to answer any questions.
    Thank you.
    [The prepared statement of Dr. Backinger follows:]

Prepared Statement of Cathy L. Backinger, Ph.D., Acting Chief, Tobacco 
Control Research Branch, National Cancer Institute, National Institutes 
        of Health, U.S. Department of Health and Human Services
    Mr. Chairman, and members of the Subcommittee, thank you for the 
opportunity to testify today on the research findings of the National 
Cancer Institute (NCI), part of the National Institutes of Health 
(NIH), an agency of the Department of Health and Human Services (HHS), 
regarding the disease risk of so called low-tar or ``light'' 
cigarettes, and the challenges of conveying accurate information to 
smokers about the levels of tar, nicotine, and other hazardous 
chemicals in cigarette smoke. I am Dr. Cathy Backinger, Acting Chief of 
the National Cancer Institute's Tobacco Control Research Branch. The 
Branch's mission is to lead and collaborate on tobacco control and 
prevention research, and to disseminate evidence-based findings to 
prevent, treat, and control tobacco use. We envision a world free of 
tobacco use and tobacco-related cancers.
    I would like to begin by stating the NCI's goals regarding 
cigarette smoking, the cause of an estimated 438,000 U.S. deaths 
annually and about one-third of all deaths from cancer. NCI supports, 
conducts, and disseminates research to prevent youth from ever starting 
to use tobacco products, to assist youth and adults who smoke in 
quitting, and to protect nonsmokers from exposure to secondhand smoke, 
a serious cause of disease and death in its own right.
    As I will describe, there is a substantial, longstanding body of 
evidence demonstrating that ``light'' and low-tar cigarettes do not 
reduce smokers' exposure to hazardous compounds or their risk for 
disease. Moreover, descriptors such as ``light,'' low-tar, ``ultra 
light,'' and others, are aimed at conveying to consumers what NCI 
Monograph 13 termed ``the illusion of risk reduction.'' \1\ Not 
surprisingly, research has demonstrated that these terms are 
interpreted by many smokers to mean reduced risk. Finally, measurements 
of tar and nicotine yields using the Federal Trade Commission (FTC) 
test method do not offer smokers meaningful information on the amount 
of tar and nicotine they will receive from a cigarette, or on the 
relative amounts of tar and nicotine exposure they are likely to 
receive from smoking different brands of cigarettes.\2\
---------------------------------------------------------------------------
    \1\ National Cancer Institute, Smoking and Tobacco Control 
Monograph 13, Risks Associated with Smoking Cigarettes with Low 
Machine-Measured Yields of Tar and Nicotine, October 2001, page 5.
    \2\ Monograph 13, page 10.
---------------------------------------------------------------------------
    Cigarette manufacturers have made changes to cigarettes over the 
last 50 years, largely in response to concerns that the growing body of 
evidence that smoking causes disease would motivate smokers to quit. In 
the 1950s, the major manufacturers began widespread promotion of 
filtered cigarettes; advertisements for these cigarettes depicted 
filters as a technology to remove the harmful elements of smoke.\3\ By 
1960, filtered cigarettes had become the dominant product on the 
market. In the early 1970s, manufacturers introduced new low-tar 
cigarette brands; by 1997, half of all cigarette advertising dollars 
were dedicated to low-tar products. Many of the advertisements made 
health claims, most implicitly, so as to reassure smokers who were 
concerned about their health risks. Over time, the market share for 
these brands increased dramatically. In 1967, low-tar cigarettes \4\ 
constituted 2.0 percent of the market. By 2005, these products held 
83.5 percent of market share.\5\
---------------------------------------------------------------------------
    \3\ U.S. Department of Health and Human Services, Reducing the 
Health Consequences of Smoking: 25 Years of Progress. A Report of the 
Surgeon General, 1989, page 664.
    \4\ Low-tar cigarettes contain less than or equal to 15 mg of tar 
per cigarette.
    \5\ Federal Trade Commission Cigarette Report for 2004 and 2005, 
issued 2007 (http://www.ftc.gov/reports/tobacco/2007cigarette2004-
2005.pdf).
---------------------------------------------------------------------------
    By the early 1980s, however, scientific studies had begun to show 
that when smokers switched to low-tar cigarettes, they changed the way 
they smoked, by smoking greater numbers of cigarettes, increasing their 
depth of inhalation, taking more frequent and/or larger puffs, as well 
as holding smoke in their lungs longer. Additionally, cigarette design 
features allowed smokers to vary the amount of smoke they inhaled, such 
as by covering ventilation holes on the filter with their fingers or 
lips. Based on this emerging evidence, the 1981 Surgeon General's 
report, The Changing Cigarette, concluded that, ``the benefits [of 
smoking low-tar cigarettes] are minimal in comparison with giving up 
cigarettes entirely,'' and, ``the tar and nicotine yields obtained by 
present testing methods do not correspond to the dosages that the 
individual smokers receive: in some cases they may seriously 
underestimate these dosages.'' \6\ In short, more than 25 years ago, 
the Surgeon General warned that smoking low-tar cigarettes was no 
substitute for quitting, and raised serious questions about the FTC 
test method.
---------------------------------------------------------------------------
    \6\ U.S. Department of Health and Human Services, The Health 
Consequences of Smoking: The Changing Cigarette. A Report of the 
Surgeon General, 1981, page vi.
---------------------------------------------------------------------------
    Our understanding of why smokers compensate when smoking ``light'' 
cigarettes was enhanced significantly by the 1988 Surgeon General's 
report, The Health Consequences of Smoking: Nicotine Addiction. The 
major conclusions of this volume were that: (1) cigarettes and other 
forms of tobacco are addicting; (2) nicotine is the drug in tobacco 
that causes addiction; and (3) the pharmacologic and behavioral 
processes that determine tobacco addiction are similar to those that 
determine addiction to drugs such as heroin and cocaine. In retrospect, 
public health authorities did not fully understand that when smokers 
switched to a cigarette with lower machine measured tar and nicotine 
content they would change the way they smoked in order to preserve 
their daily intake of nicotine. This was understood much earlier 
however, by some cigarette manufacturers, as demonstrated by their 
internal documents.
    Tar and nicotine yields have historically been measured by a 
standardized machine testing regimen--the FTC test method--also known 
internationally as the ISO (for International Organization for 
Standardisation) machine-smoking method. This method, adopted in 1967, 
determines the yield of a cigarette by smoking it on a machine, in a 
standardized fashion, according to a predetermined protocol. The 
smoking machine is calibrated to take one puff of 2-second duration and 
35 ml volume every minute; cigarettes are smoked to a butt length of 23 
mm or to the length of the overwrap plus 3 mm, whichever is longer. 
These parameters were determined by a U.S. Department of Agriculture 
tobacco chemist so as to constitute an average of his observations of 
human smoking behavior. The FTC test method provided a uniform 
analytical procedure that could be replicated in different laboratories 
simultaneously and in the same laboratory over time.
    The FTC long recognized that the machine testing did not replicate 
human smoking because, ``No two human smokers smoke in the same way,'' 
and ``No individual smoker always smokes in the same fashion.'' \7\ 
Instead, the test was seen as a way for consumers to make valid 
comparisons between different brands of cigarettes. ``Thus, if the 
consumer smoked each different cigarette [brand] the same way, he would 
inhale `tar' and nicotine in amounts proportional to the relative 
values of the FTC figures.'' \8\ However, the standardized machine 
measurements assumed that smokers would not engage in ``compensatory 
behaviors'' to control their intake of nicotine.
---------------------------------------------------------------------------
    \7\ National Cancer Institute, Smoking and Tobacco Control 
Monograph 7, The FTC Cigarette Test Method for Determining Tar, 
Nicotine, and Carbon Monoxide Yields of U.S. Cigarettes: Report of the 
NCI Expert Committee, August 1996, page 2.
    \8\ Monograph 7, page 4, quoting 1978 Federal Register, p. 11856.
---------------------------------------------------------------------------
    In 1996, NCI's Smoking and Tobacco Control Monograph Number 7, The 
FTC Cigarette Test Method for Determining Tar, Nicotine, and Carbon 
Monoxide Yields of U.S. Cigarettes: Report of the NCI Expert Committee, 
compiled evidence available at the time on the FTC test method, its 
relation to actual human smoking behavior, and consumer perceptions of 
tar and nicotine ratings. Among the major conclusions of the monograph 
were: (1) Actual human smoking behavior is characterized by wide 
variations in smoking patterns, which result in wide variations in tar 
and nicotine exposure. Smokers who switch to lower tar and nicotine 
cigarettes frequently change their smoking behavior, which may negate 
potential health benefits; (2) Brand names and brand classifications 
such as ``light'' and ``ultra light'' represent health claims and 
should be regulated and accompanied, in fair balance, with an 
appropriate disclaimer; and (3) The available data suggest that smokers 
misunderstand the FTC test data. This underscores the need for ongoing 
and extensive public education efforts.
    Lastly, in 2001, NCI's Smoking and Tobacco Control Monograph Number 
13, Risks Associated with Smoking Cigarettes with Low Tar Machine-
Measured Yields of Tar and Nicotine, reviewed and synthesized what was 
by that time a vast amount of data from epidemiology, chemistry, 
toxicology, laboratory studies of smoking behavior, studies of risk 
perception and advertising, studies of product design, as well as 
previously confidential tobacco industry documents. The Monograph's 
most important finding is that ``there is no convincing evidence that 
changes in cigarette design . . . have resulted in an important 
decrease in the disease burden caused by cigarette use.'' \9\ That is, 
smokers who switch to low-tar cigarettes do not reduce their risk of 
disease; the only proven way to reduce the disease risks of smoking is 
to quit. The report also found that cigarette marketing and advertising 
for ``filtered and low tar cigarettes were intended to reassure smokers 
(who were worried about the health risks of smoking) and were meant to 
prevent smokers from quitting based on those concerns,'' and that, 
``internal tobacco company documents demonstrate that the cigarette 
manufacturers recognized the inherent deception of advertising that 
offered cigarettes as ``light'' or ``ultra light,'' or as having the 
lowest tar and nicotine yields.'' \10\ The major conclusions of 
Monograph 13 are the following:
---------------------------------------------------------------------------
    \9\ Monograph 13, page 146.
    \10\ Monograph 13, page 233.

        1. Epidemiological and other scientific evidence, including 
        patterns of mortality from smoking-caused diseases, does not 
        indicate a benefit to public health from changes in cigarette 
---------------------------------------------------------------------------
        design and manufacturing over the last fifty years.

        2. Widespread adoption of lower yield cigarettes in the United 
        States has not prevented the sustained increase in lung cancer 
        among older smokers.

        3. Many smokers switch to lower yield cigarettes out of concern 
        for their health, believing these cigarettes to be less risky 
        or to be a step toward quitting. Advertising and marketing of 
        lower yield cigarettes may promote initiation and impede 
        cessation, more important determinants of smoking-related 
        diseases.

        4. Measurements of tar and nicotine yields using the FTC Method 
        do not offer smokers meaningful information on the amount of 
        tar and nicotine they will receive from a cigarette. The 
        measurements also do not offer meaningful information on the 
        relative amounts of tar and nicotine exposure likely to be 
        received from smoking different brands of cigarettes.

    The conclusion of Monograph 13 with regard to low tar cigarettes 
was reiterated by the 2004 Surgeon General's report, The Health 
Consequences of Smoking, the most comprehensive review of the evidence 
on smoking and health since the 1964 Surgeon General's report. This 
report stated as one of its four major conclusions that, ``Smoking 
cigarettes with lower machine-measured yields of tar and nicotine 
provides no clear benefit to health.'' \11\
---------------------------------------------------------------------------
    \11\ U.S. Department of Health and Human Services, The Health 
Consequences of Smoking: A Report of the Surgeon General, 2004, page 
25.
---------------------------------------------------------------------------
    In summary, while cigarettes have changed over the last 50 years, 
the disease risks have not. Cigarette manufacturers have long 
understood that consumers would respond to the widespread dissemination 
of the grave health risks of smoking by quitting. Manufacturers worked 
to reassure ``health conscious'' smokers by marketing filtered and low-
tar cigarettes, and heavily advertising these products as ways to 
reduce the risk of smoking. Smokers erroneously saw these products as 
viable alternatives to quitting, and as a result, many more smokers 
continued to smoke who might otherwise have quit. The marketing and 
advertising of low-tar cigarettes and manufacturers' use of the FTC 
test method data continues today.
    A new generation of products is now being marketed by the tobacco 
industry with advertisements suggesting that they deliver lower amounts 
of toxic or addictive agents. For example, one such advertisement says, 
``all of the taste . . . less of the toxins.'' These products--
sometimes referred to as potential reduced-exposure tobacco products, 
or ``PREPs''--are highly engineered products which utilize new 
technologies to try to reduce certain harmful constituents, such as 
carcinogens (cancer causing agents) from tobacco smoke. To date, 
however, the scientific evidence is insufficient to evaluate whether 
these new products actually reduce the users' exposure or risk for 
tobacco-related diseases. The 2001 Institute of Medicine report 
Clearing the Smoke concluded that currently-available data does not 
allow for drawing meaningful differences in toxicity or harm between 
tobacco products and that a structure for regulatory oversight would be 
essential to any scientific assessment of claims for reduced harm.
    There is a need for independent, objective, scientific research to 
provide guidance to the public about the health effects of different 
tobacco products. In order to address this research gap, NCI has 
introduced several new initiatives, including:

  <bullet> A Program Announcement titled, ``Testing Tobacco Products 
        Promoted to Reduce Harm,'' which aims to stimulate 
        multidisciplinary research on the characteristics of different 
        tobacco products, methods for measuring users' exposure to 
        toxic constituents, and the impact of manufacturers' claims on 
        smokers' perceptions of risk. Currently funded grants under 
        this Program Announcement include projects studying:

   <ctr-circle> The impact of low ignition propensity (``fire-safe'') 
            cigarettes (Roswell Park Cancer Institute).

   <ctr-circle> Mutagenicity of tobacco smoke in human cell co-cultures 
            (New York University).

   <ctr-circle> Clinical models for evaluating PREPs for tobacco users 
            (Virginia Commonwealth University).

   <ctr-circle> Laboratory based evaluation of potential reduced 
            exposure products (Georgetown University).

   <ctr-circle> Smoking topography and harm exposure in a new PREP 
            (University of Pennsylvania).

  <bullet> A 5-year Research and Development contract with the Lombardi 
        Cancer Center at Georgetown University to support the 
        advancement of laboratory methods for tobacco product testing, 
        taking into account human behavior. Once developed, these 
        methods could be utilized to assess the potential for new 
        products to reduce exposure in the laboratory and in human 
        clinical trials and to assist in evaluating the potential 
        impact of product design changes on individuals and the 
        population as a whole.

  <bullet> Support of the University of Minnesota Transdisciplinary 
        Tobacco Use Research Center (TTURC), which is conducting 
        research on ways to reduce smokers' exposure to tobacco smoke 
        and its constituents.

  <bullet> Support of the Roswell Park Cancer Institute TTURC, which is 
        studying how changes in cigarette design alter smokers' actual 
        exposures and their perceptions of the health risks of smoking. 
        Their ongoing multi-country survey also collects information on 
        smokers' perceptions of ``light'' and ``ultra light'' 
        cigarettes.

  <bullet> NCI is utilizing two of its ongoing national surveys--the 
        Health Information National Trends Survey and the Tobacco Use 
        Supplement to the Current Population Survey--to collect data on 
        tobacco use and health risk perceptions related to new PREPs 
        and other tobacco products.

  <bullet> Collaboration with research partners, including other NIH 
        Institutes and Centers, HHS's Centers for Disease Control and 
        Prevention (CDC), and the World Health Organization (WHO), to 
        identify research priorities and develop expertise related to 
        tobacco products. NCI scientists are currently active members 
        of the WHO Study Group on Tobacco Product Regulation and the 
        Tobacco Laboratory Network, which aim to develop guidance on 
        tobacco product testing.

    Research also suggests that there is substantial risk that smokers 
over-interpret reduced risk claims made for modified tobacco products. 
Exposure reduction messages associated with these products appeal to 
smokers who are contemplating quitting.\12\ Therefore, marketing of 
these products with messages that imply reduced exposure or harm may 
undermine youth prevention and adult cessation, which could result in 
an overall increase in harm to the population.
---------------------------------------------------------------------------
    \12\ Shiffman, S., Pillitteri, J.L., Burton, S.L., and Di Marino, 
M.E. Smoker and ex-smoker reactions to cigarettes claiming reduced 
risk. Tobacco Control 2004; 13:78-84.
---------------------------------------------------------------------------
    There is an ongoing need to ensure that consumers receive accurate 
information about the health risks of smoking. The use of misleading 
descriptors like ``light'' and ``mild'' and similar terms have been 
banned in 43 countries, including Canada, Brazil, and the 27 countries 
of the European Union.
    Tobacco smoke is extremely complex, containing thousands (over 
4,800) of constituents including at least 69 known carcinogens. Because 
of the complexity of tobacco smoke and variations in smoking patterns, 
it is unlikely that any single machine test will be able to provide 
meaningful estimates of actual human exposure to harmful constituents. 
Instead, it is likely that a battery of tests will be needed to make 
meaningful comparisons across products. Currently, standardized machine 
measurements of tobacco smoke emissions continue to be useful in 
laboratory settings to understand the properties of different 
cigarettes. However, these measurements do not provide meaningful 
information about the actual exposure or risk for the individual 
smoker. A WHO expert advisory group has stated that numerical ratings 
for tar, nicotine, and carbon monoxide from the FTC/ISO test method are 
misleading and recommended that they should not be displayed in 
advertising or on the cigarette packaging.\13\
---------------------------------------------------------------------------
    \13\ World Health Organization, ``SACTob Recommendation on Health 
Claims Derived form ISO/FTC Method to Measure Cigarette Yield'' 
(January 1, 2003). Tobacco Control. WHO Tobacco Control Papers. Paper 
ISO200. http://repositories.cdlib.org/tc/whotcp/ISO200.
---------------------------------------------------------------------------
    Since the 1964 publication of the landmark Surgeon General's Report 
on Smoking and Health provided conclusive evidence of the health risks 
of smoking to the nation, education to better inform the public on 
smoking and health issues has been a crucial component of tobacco 
control and prevention efforts. For decades, the public has been misled 
by advertising implying, directly or indirectly, that low-tar 
cigarettes are less hazardous than other cigarettes. It is vital that 
the public understand that the only proven way to reduce the enormous 
burden of disease and death due to tobacco use is to prevent youth from 
beginning to smoke, and to help smokers, both youth and adults, to 
quit.
    Thank you for this opportunity to present this information to you. 
I would be happy to answer any questions you may have.

    Senator Lautenberg. Thank you very much.
    Dr. Ashley?

          STATEMENT OF DAVID L. ASHLEY, Ph.D., CHIEF,

          EMERGENCY RESPONSE AND AIR TOXICANTS BRANCH;

         CHIEF, TOBACCO LABORATORY, NATIONAL CENTER FOR

       ENVIRONMENTAL HEALTH, CENTERS FOR DISEASE CONTROL

         AND PREVENTION (CDC), DEPARTMENT OF HEALTH AND

         HUMAN SERVICES; AND CHAIR, TOBACCO LABORATORY

               NETWORK, WORLD HEALTH ORGANIZATION

    Dr. Ashley. Mr. Stevens, Mr. Lautenberg, I'm Dr. David 
Ashley, Chief of the Emergency Response and Air Toxicants 
Branch, and Chief of the Tobacco Laboratory in the National 
Center for Environmental Health of the Centers for Disease 
Control and Prevention. I am also Chair of the World Health 
Organization's Tobacco Laboratory Network. I am pleased to be 
here today to discuss research findings from the CDC Tobacco 
Laboratory and provide a better understanding of the Federal 
Trade Commission Method and how results from the FTC Method 
should be interpreted.
    Our laboratory evaluates how design and contents of tobacco 
products influence emissions of toxic and addictive substances, 
how people use these products, and how these factors impact 
people's exposure to the substances that cause disease.
    We work closely with CDC's Office on Smoking and Health. We 
use multiple machine-smoking regimens, including the FTC 
smoking regimen, in our research.
    For the past 12 years, CDC has developed and applied 
measurements to better understand the amount of addictive and 
toxic substances in cigarettes, and factors that affect the 
delivery of those substances to smokers and persons exposed to 
secondhand smoke. Our smoking machines enable us to assess the 
influence of various smoking conditions on the delivery of 
addictive and toxic substances to smokers. In tobacco and 
tobacco smoke, we currently measure nicotine, tar, tobacco-
specific nitrosamines, bio-organics, aldehydes, polycyclic 
aromatic hydrocarbons, heavy metals, and other chemicals. Our 
lab has performed studies that assess the smoke intake of 
individual smokers. In addition, for the past 20 years we have 
measured components of cigarette smoke in the urine and blood 
of smokers and people exposed to secondhand smoke.
    The FTC Method originated in observations made in 1936 on 
how people smoked. The smoking parameters proposed, which were 
35 milliliter puffs of 2 seconds' duration, with a puff each 60 
seconds, were based on how the cigarettes which were sold at 
that time were smoked. Since then, cigarette designs have 
changed through modification of the tobacco-blend composition, 
ventilated filters, porous paper, reconstituted tobacco, and 
expanded tobacco.
    In carrying out a measurement using the FTC regimen, the 
tips of up to 20 cigarettes at a time are placed into holders 
that are attached to the smoking machine, which contains 
syringes or other devices for drawing air through the 
cigarettes. Holders included glass filter, commonly known as a 
Cambridge Filter pad, for collecting particulate matter, and 
special bags for collecting the gas phase.
    Cigarette manufacturers have added ventilation holes to the 
modern cigarette in the paper surrounding the filter. These 
holes are far enough from the tip of the cigarette that they're 
exposed to room air when the cigarette is placed in the smoking 
machine to be tested using the FTC Method. As a result, room 
air is pulled into the cigarette and dilutes the smoke that is 
collected on the filter pad and in the collection bag, lowering 
the measured levels of nicotine, tar, and carbon monoxide.
    Other factors can also influence the delivery, including 
the length of the filter, the design of the filter, the 
porosity of the paper; but, of these, filter ventilation is the 
major factor.
    The way that people smoke cigarettes varies between people, 
and there are also variations in the way an individual smokes 
at different times. One of the more important factors in 
determining how people smoke is their need for nicotine. Unlike 
the machine, smokers are able to adjust the way they smoke by 
taking larger puffs, more frequent puffs, or blocking 
ventilation holes so that they can increase their nicotine 
intake when smoking cigarettes with lower machine-measured tar 
and nicotine. When individual smokers smoke cigarettes of 
different designs, they can compensate, resulting in exposure 
to levels of smoke that vary much less than would be expected 
based on the results from the machine smoking using the FTC 
Method.
    Studies of biomarkers in smokers have also shown that 
exposure to the toxic and addictive components to tobacco smoke 
are fairly consistent whether a smoker smokes a light, medium, 
or full-flavored cigarette.
    Machine smoking regimens that are more intense than the FTC 
Method are currently in use. Health Canada requires tobacco 
companies to report levels of chemicals in tobacco smoke using 
a modified method with 55-milliliter puffs taken every 30 
seconds and all ventilation holes blocked. The State of 
Massachusetts has required reports of tobacco emissions using a 
regimen of 45-milliliter puffs taken every 30 seconds with half 
of the ventilation holes blocked. These more intense smoking 
regimens are aimed at better approximating how the average 
smoker actually smokes the cigarette.
    In summary, our laboratory has developed a broad set of 
capabilities to measure addictive and toxic substances in the 
tobacco product, in cigarette smoke, and in people. We've 
investigated different machine-smoking regimes, including the 
FTC Method, and how cigarette design factors can influence the 
delivery of toxic and addictive substances. We've found that 
using multiple smoking regimens improves our understanding of 
the variation in actual delivery of nicotine, tar, and carbon 
monoxide to the smoker, compared to using the FTC Method alone.
    Thank you for this opportunity to present this information 
to you. I would be happy to answer any questions you may have.
    [The prepared statement of Dr. Ashley follows:]

Prepared Statement of David L. Ashley, Ph.D., Chief, Emergency Response 
 and Air Toxicants Branch; Chief, Tobacco Laboratory, National Center 
 for Environmental Health, Centers for Disease Control and Prevention; 
    and Chair, Tobacco Laboratory Network, World Health Organization
    Mr. Chairman and Members of the Committee, I am Dr. David Ashley, 
Chief of the Emergency Response and Air Toxicants Branch and Chief of 
the Tobacco Laboratory in the National Center for Environmental Health 
of the Centers for Disease Control and Prevention (CDC), an agency of 
the Department of Health and Human Services. I am also the Chair of the 
World Health Organization's Tobacco Laboratory Network. I am pleased to 
be here today to discuss research findings from the CDC Tobacco 
Laboratory that provide a better understanding of the Federal Trade 
Commission (FTC) method and how results from the FTC Method should be 
interpreted.
    Our laboratory has five research priorities: (1) to characterize 
the chemical constituents and chemical additives of tobacco products; 
(2) to characterize the chemical and physical properties of tobacco 
products that influence delivery of nicotine and other harmful 
substances; (3) to identify the causative agents of disease in tobacco 
and tobacco smoke; (4) to assess the exposure of the U.S. population 
(including children, women of childbearing age, and other susceptible 
groups) to the harmful chemical constituents of tobacco smoke; and (5) 
to collaborate in health studies examining the relationship of 
secondhand smoke exposure to health outcomes, such as cancer. We work 
closely with CDC's Office on Smoking and Health.
    Smoking causes diseases of the lungs and coronary arteries of the 
heart, the latter being the leading cause of death in the United 
States. Cigarette smokers are 2 to 4 times more likely to develop 
coronary heart disease than nonsmokers. While attempting to decrease 
the risk of cancer associated with smoking by reducing exposures to 
suspected or known carcinogens is worthwhile, it is equally important 
to recognize that the amount of small particles, called particulate 
matter, is inhaled from cigarettes by smokers at many times the levels 
found to be associated with significant risk for diseases of the lung 
and heart among persons breathing air containing these particles from 
other sources such as industrial pollution or fires.
    Our laboratory has developed a broad set of capabilities to measure 
addictive and toxic substances in the tobacco product, in cigarette 
smoke, and in people who smoke and are exposed to the smoke of others. 
We use multiple machine smoking regimens (i.e., specified puff volumes, 
puff rates, total smoking time), including the FTC smoking regimen, in 
our research.
    For the past 20 years, our lab at CDC has conducted research on 
assessing exposure to cigarette smoke. We developed new methods to 
measure cotinine, a metabolite of nicotine, in serum and saliva as a 
marker of tobacco smoke exposure. We have applied this measurement to 
national surveys to track over time the exposure of the U.S. population 
to tobacco smoke, both for smokers and persons exposed to secondhand 
smoke. We have documented substantial decreases in exposure to 
secondhand smoke in the U.S. population and identified differences in 
exposure between age, sex, and race/ethnic groups.
    CDC has also developed and applied measurements to better 
understand the amount of addictive and toxic substances in cigarettes 
and factors that affect the delivery of these substances to smokers and 
persons exposed to secondhand smoke. Our smoking machines enable us to 
assess the influence of various smoking conditions on the delivery of 
addictive and toxic substances to smokers. In tobacco and tobacco 
smoke, we currently measure nicotine, ``tar'' (i.e., nicotine-free dry 
total particulate matter), tobacco-specific nitrosamines, volatile 
organics, aldehydes, polycyclic aromatic hydrocarbons, and heavy 
metals. Our lab has performed studies that assess the smoke intake of 
individual smokers. In addition, we have measured components of 
cigarette smoke in the urine and blood of smokers and people exposed to 
secondhand smoke.
    The FTC Method originated in observations made by J.A. Bradford and 
Colleagues \1\ in 1936 on how people smoked and was described again by 
C.L. Ogg in 1964.\2\ The smoking parameters they proposed (i.e., 35 
milliliter puffs of 2 seconds duration with a puff each 60 seconds to a 
butt length of 23 millimeters or to the length of the overwrap plus 3 
millimeters, whichever is longer) were based on how the cigarettes 
which were sold at that time were smoked. Since then, cigarette designs 
have changed, through, for example, changes in the tobacco blend 
composition, ventilated filters, porous paper, reconstituted tobacco, 
and expanded tobacco.\3\
    In carrying out a measurement using the FTC regimen, the tips of up 
to 20 cigarettes at a time are placed into holders that are attached to 
the smoking machine, which contains syringes or other devices for 
drawing air through the cigarettes. The holders include a glass filter 
commonly known as a Cambridge filter pad for collecting particulate 
matter. Special bags collect the gas phase which is drawn through the 
Cambridge filter pads. To measure nicotine and ``tar'', the particulate 
matter collected on the pad is extracted and analyzed by a separate 
analytical instrument known as a gas chromatograph. The carbon monoxide 
generated during smoking is measured by an infrared spectrometer that 
samples from the collection bags.
    Cigarette manufacturers have added ventilation holes to the modern 
cigarette, punched in the paper surrounding the filter. These holes are 
far enough from the tip of the cigarette that they are exposed to room 
air when the cigarette is placed in the smoking machine to be tested 
using the FTC Method. As a result, room air is pulled into the 
cigarette and dilutes the smoke that is collected on the filter pad and 
in the collection bag. This dilution using ventilation holes results in 
lower measured levels of nicotine, ``tar'', and carbon monoxide.\3\ 
Other factors can also influence the delivery of nicotine, ``tar'', and 
carbon monoxide including the length of the filter, the design of the 
filter, and the porosity of the paper; but, of these, filter 
ventilation is the major factor.
    The way that people smoke cigarettes varies between people and 
there are also variations in the way an individual smokes at different 
times. Factors that influence smoking patterns include nicotine level 
of the cigarette, the smoker's level of stress, mood and the time since 
they smoked their last cigarette. One of the more important factors in 
determining how people smoke is their need for nicotine. Persons 
smoking cigarettes with a range of nicotine levels adjust the way they 
smoke to obtain a relatively steady amount of nicotine per 
cigarette.\4\ Unlike the machine, smokers are able to adjust the way 
they smoke by taking larger puffs, more frequent puffs, or blocking 
ventilation holes so that they can increase their nicotine uptake, when 
smoking cigarettes with lower machine-measured ``tar'' and nicotine.\5\
    When a larger puff is taken, puffs are taken more frequently, or 
ventilation holes are blocked, cigarettes deliver much higher levels of 
the toxic and addictive components of tobacco smoke than is 
characterized using the FTC Method. When individual smokers smoke 
cigarettes of different designs, compensation techniques result in 
exposure of smokers to levels of smoke that vary much less than would 
be expected based upon results from machine smoking using the FTC 
Method.\4\
    Studies of biomarkers in smokers (chemical measurements in blood 
and urine) have also shown that exposure to the toxic and addictive 
components of tobacco smoke are fairly consistent, whether a smoker 
uses a light, medium, or full-flavored cigarette.\4\ \6\ These findings 
are largely explained by compensation techniques used by the smokers.
    Machine smoking regimens that are more intense than the FTC Method 
are currently in use. Health Canada requires tobacco companies to 
report levels of chemicals in tobacco smoke using a modified method 
with 55 milliliter puffs taken every 30 seconds and all ventilation 
holes blocked. The State of Massachusetts has required reports of 
tobacco emissions using a regimen of 45 milliliter puffs taken every 30 
seconds with half of the ventilation holes blocked. These more intense 
smoking regimens are aimed at better approximating how the average 
smoker actually smokes the cigarette.
    In summary, our laboratory has developed a broad set of 
capabilities to measure addictive and toxic substances in the tobacco 
product, in cigarette smoke and in people. We have investigated 
different machine smoking regimens, including the FTC Method and how 
cigarette design factors can influence the delivery of toxic and 
addictive substances. We have found that using multiple smoking 
regimens improves our understanding of the variation in actual delivery 
of nicotine, ``tar'', and carbon monoxide to the smoker compared to 
using the FTC Method alone.
    Thank you for this opportunity to present this information to you. 
I would be happy to answer any questions you may have.
References
    \1\ Bradford, J.A., Harlan, W.R., Hanmer, H.R. Nature of cigarette 
smoke: technique of experimental smoking. Industrial and Engineering 
Chemistry 1936; 28(7):836-839.
    \2\ Ogg, C.L. Determination of particulate matter and alkaloids (as 
nicotine) in cigarette smoke. Journal of the Association of Official 
Analytical Chemists 1964; 47(2):356-362.
    \3\ Hoffmann, D., Hoffmann, I. The changing cigarette, 1950-1995. 
Journal of Toxicology and Environmental Health 1997; 50(4):307-64.
    \4\ Jarvis, M.J., Boreham, R., Primatesta, P., Feyerabend, C., 
Bryant, A., Nicotine yield from machine-smoked cigarettes and nicotine 
intakes in smokers: evidence from a representative population survey. 
Journal of the National Cancer Institute 2001; 93(2):134-138.
    \5\ Melikian, A.A., Djordjevic, M.V., Chen, S., Richie, Jr., J., 
Stellman, S.D. Effcet of delivered dosage of cigarette smoke toxins on 
the levels of urinary biomarkers of exposure. Cancer Epidemiology 
Biomarkers and Prevention 2007b; 16(7):1408-15.
    \6\ Hecht, S.S., Murphy, S.E., Carmella, S.G., Li S., Jensen, J., 
Le, C., Joseph, A.M., Hatsukami, D.K. Similar uptake of lung 
carcinogens by smokers of regular, light, and ultra light cigarettes. 
Cancer Epidemiology Biomarkers and Prevention 2005; 14(3):693-8.

    Senator Lautenberg. Thank you very much.
    The--thank you all--each for your testimony. And not only 
did I marvel at the detail with which you reported your 
findings, but the fact that you were all able to come very 
close to the time mark that we had set out for you, that 
deserves congratulations. I wish we could say the same for this 
side of the table.
    Commissioner Kovacic, I think it was fairly clear what you 
said--but just--let me verify it--that the FTC cigarette 
testing method is inaccurate at predicting the amount of tar 
and nicotine that a smoker will receive from a cigarette.
    Mr. Kovacic. That's correct, Senator.
    Senator Lautenberg. Given that the FTC is not a scientific 
agency, should your agency continue to oversee these health 
ratings?
    Mr. Kovacic. We think it would be much better, Senator, 
that that task be dedicated to one of our public institutions 
that has the deeper scientific expertise.
    Senator Lautenberg. Do you think that the ratings based on 
the FTC cigarette testing method are designed to deceive 
smokers into believing that their health is less harmed when 
they use tar or light cigarette designations?
    Mr. Kovacic. The rating system, as it was designed, was not 
designed to deceive. The assumption was that it would assist 
smokers, who wanted to choose lower-tar cigarettes, in 
particular, to select cigarettes that would give them a lower 
dosage of tar when they smoked. What is impressive from the 
testimony of my colleagues and others, and the work that their 
institutions have done, is that those early assumptions did not 
take into account what's called the ``compensation effect.'' 
And I think the key question for all of us whether there is any 
significant subset of users who do derive useful information 
from these standards and change their behavior in beneficial 
ways, or whether, as I believe I interpret Dr. Backinger's 
findings, in particular, that those instances of benefit are 
negligible.
    Senator Lautenberg. Would the FTC object if Congress 
prohibited tobacco companies from continuing to make claims 
based on the FTC Method?
    Mr. Kovacic. I would strongly prefer that there be a 
process that asks whether, first, there is an alternative 
measure or measurement that would be an improvement. But, I 
think, at a minimum, the guidance that Congress might give is 
first, to pursue alternatives that would be more informative. 
But, if, indeed, there is a general conclusion, assembling the 
science that has been done in this area, that the FTC Method, 
as it's called, provides no benefits to consumers, and, indeed, 
has net harms, then that's a basis for prohibition.
    Senator Lautenberg. I go back to a time, Senator Stevens, 
when we were taught to smoke by the military, our emergency 
rations had a sleeve of four cigarettes, essentially saying 
that tobacco is good for you, it calms the nerves, et cetera. 
It--didn't say that we were creating addicts. And, at the time, 
I served in the European theater--and I know that you served in 
the Pacific CBI, right?--that all of the temporary camps that 
were used to receive soldiers in the European theater, and the 
same ones used to send them back home, were named after 
cigarettes. There was Lucky Strike and other camps there--Old 
Gold, et cetera. So, we learned the easy way. And though I'm 
sure it wasn't the design of the U.S. Government to create this 
addiction, the fact is that that was the result.
    Dr. Backinger, does the National Cancer Institute believe 
that the FTC Method deceives smokers? You talk about the number 
of people who started originally smoking light cigarettes, and 
how much that market share has grown. Do you think that the 
program's designed to deceive people into becoming smokers?
    Dr. Backinger. As outlined in the--in Monograph 13, the 
research has shown that the FTC numbers and the test method do 
not provide meaningful information to consumers. The monograph 
also found, through research analyzing tobacco industry 
documents, that the tobacco manufacturers knew this.
    Senator Lautenberg. Is it appropriate to say that the 
continuation of the FTC Method as a basis for light and low-tar 
claims could lead more Americans to getting lung cancer?
    Dr. Backinger. I--the data do show, from research, that 
smokers who were health conscious and may have quit--otherwise 
have quit--decided to smoke what was called ``light'' or ``low-
tar'' cigarettes, and, therefore, thinking they were going to 
have--be at reduced risk for lung cancer, as well as other 
diseases; however, that was not the case.
    Senator Lautenberg. In 2001, NCI found that problems with 
the FTC cigarette testing method was an urgent health issue. 
Has any government agency that you're aware of acted upon those 
findings?
    Dr. Backinger. Since 2001, when the monograph was issued, 
NCI and other institutes at NIH have funded research to look 
into different test methods and look at laboratory methods to 
look at how smokers smoke under actual conditions. So, the 
answer is yes.
    Senator Lautenberg. Dr. Ashley, just--this is slightly 
repetitive, but I ask the question, nevertheless, to clarify it 
for the record. Are light or low-tar cigarettes as addictive as 
regular cigarettes, in your judgment?
    Dr. Ashley. Using the FTC Method for measuring and 
reporting nicotine, tar, carbon monoxide numbers--using that 
method did not reflect the way people actually smoke. Our 
research has shown that by using multiple methods, you get more 
information, you can get more data that tells you much more 
what the actual exposure of people is when they actually use 
cigarettes. And so, it's important to be able to do that 
research and find out exactly what the levels are that people 
are actually exposed to, and not the way the machine makes that 
measurement.
    Senator Lautenberg. Have tobacco companies manipulated 
cigarette design to affect the FTC results? Have they moved 
things around within the cigarette itself to try and affect a 
less ominous result than we really believe is there?
    Dr. Ashley. I can't really speak to the motivations of the 
tobacco industry, but I--we do know that the design of the 
cigarette does greatly influence the measurements and the 
results that come from when you use the FTC Method.
    Senator Lautenberg. Senator Stevens?
    Senator Stevens. Thank you, Mr. Chairman.
    Mr. Kovacic, do you have authority to change those 
machines?
    Mr. Kovacic. I think we don't specify the test methodology 
itself, Senator. I think what we would have authority to do is 
to withdraw any indication that, in some sense, our agency 
stands behind the methodology, and we would certainly have the 
authority to convene proceedings, to work with our colleagues, 
to draw attention to the limitations of the existing 
methodology and suggest others.
    Senator Stevens. But, Doctor, they're paid for with 
taxpayers' money, right?
    Mr. Kovacic. I believe they're not, Senator. The--and this 
is something I could clarify for you afterwards, but the----
    Senator Stevens. Who possesses them?
    Mr. Kovacic. The testing is done by a trade association 
that does the tests. We subpoena, on a regular basis, the data, 
and post it on our website.
    Senator Stevens. Are you prohibited from testing?
    Mr. Kovacic. We are not, Senator. We abandoned our own 
testing. We used to have variants of these elegant machines on 
the top floor of our building, until the mid-1980s, where the 
cost of maintaining them became relatively high, and we came to 
realize the limitations of our own expertise to do this work.
    Senator Stevens. Dr. Backinger, does NCI have any testing 
machines?
    Dr. Backinger. No, we do not.
    Senator Stevens. Dr. Ashley, do you have any testing 
machines?
    Dr. Ashley. Yes, sir, we do.
    Senator Stevens. Where did you get them?
    Dr. Ashley. We purchased them as part of our program, 
looking at the impact of design of cigarettes on emissions, how 
people smoke----
    Senator Stevens. That's not the question. Where did you get 
them?
    Dr. Ashley. We purchased them from manufacturers who make 
the machines.
    Senator Stevens. They make them for the same testing 
organization that's not Federal?
    Dr. Ashley. They make them for whatever consumer would 
purchase them. They are purchased largely by the tobacco 
industry. We got our tobacco smoking machines from the same 
companies that make them for the industry.
    Senator Stevens. They are the same ones that Mr. Kovacic is 
talking about, right?
    Dr. Ashley. Yes, sir.
    Senator Stevens. Have any of you ever asked Congress for 
money to produce your own machines?
    Dr. Ashley. If I can try to clarify something, the machine 
itself----
    Senator Stevens. I've really got a shortage of time, 
Doctor, just would you please answer my question. Have any of 
your agencies ever asked the Congress to give you money to 
replicate those machines, to build better machines?
    Dr. Ashley. No, sir.
    Senator Stevens. How long have these machines been in 
existence? Dr. Kovacic, when were they made?
    Mr. Kovacic. I believe, in the 1960s, the original design.
    Senator Stevens. That even predates my presence in the 
Congress. That's pretty old. You know, I just don't understand 
that.
    Tell me this, have you done any studies on increasing taxes 
on cigarettes and how it affects consumers? Any of you?
    Dr. Backinger. The NCI has supported research, through 
extramural funding, to look at the increase of price on--price 
of cigarettes on consumption and prevalence. And we actually--
one of our monographs addresses that. I don't have that 
information with me specifically today. But research does show 
that as you increase the price of cigarettes, it affects both 
youth smoking and adult smoking.
    Senator Stevens. Did that cover the question of bootlegging 
cigarettes as a result of increased taxes?
    Dr. Backinger. I am not--I don't know that off the top of 
my head. I would need to check back with that and get back to 
you for the--on the record.
    Senator Stevens. Do any of your agencies have jurisdiction 
over pursuing those who bootleg cigarettes, who sell them, 
notwithstanding Federal laws?
    Mr. Kovacic. We generally wouldn't, Senator, no. We could 
prosecute people who misrepresent the source of the cigarettes, 
who advertise cigarettes as coming from one source, but receive 
them from another. But the actual policing of bootlegging, 
counterfeiting, that's beyond our authority.
    Senator Stevens. It's up to the state, is that right?
    Mr. Kovacic. Or, I would assume, Senator, Customs and 
Border Protection, those that deal with cross-border movements.
    Senator Stevens. Did you start to say something, Dr. 
Ashley?
    Dr. Ashley. There is a Federal agency that deals with that. 
It's not CDC.
    Senator Stevens. Well, I've just one last question. As part 
of our Congressional involvement, we did require that the 
cigarette manufacturers do a certain amount of advertising. 
I've seen some recently, as a matter of fact, on television and 
over the radio, and, I think, even in the printed media, 
directed toward young people and trying to prevent them from 
smoking. Have any of you studied the results of those 
advertisements that we've required?
    Dr. Backinger. The National Cancer Institute did fund one 
study in that arena, which was published in the December 2006 
American Journal of Public Health. And I could provide that 
article for you and for the record.
    [The information referred to is contained in the Appendix.]
    Dr. Backinger. Just off the top of my head, the research 
found that youth that saw those ads on TV were not--did not 
help prevent smoking initiation.
    Senator Stevens. Since that basic settlement that we were 
all part of, has there been an increase or a decrease in 
cigarette smoking by younger people?
    Dr. Backinger. The--for the latest years that are 
available--and I would have to look at that again--but youth 
smoking has increased slightly in the last 2 years for which we 
have data. Slightly.
    Senator Stevens. Last irrelevant question, but my colleague 
has mentioned the fact we were all given so many free 
cigarettes. My friends and I were never seduced by those 
cigarettes. We didn't smoke cigarettes, we smoked pipes. Have 
you ever made any studies of pipes and its connection to 
cancer, Doctor?
    Dr. Ashley. We have not studied pipes.
    Senator Stevens. Dr. Backinger?
    Dr. Backinger. I am not aware of any NCI-funded research on 
pipes, specifically, but I could check.
    Senator Stevens. Yes. Well, I'd be interested.
    I quit a long time ago, anyway, but I just wondered whether 
there is any connection between pipe smoking as well as the 
cigarette smoking. What about cigars, have you done studies of 
cigars?
    Dr. Backinger. We--NCI did look at cigars, and, during the 
1990s--when there was an increase in prevalence of smoking of 
cigars--and we do have an NCI monograph on that subject.
    Just--the other comment, however, is, all tobacco, 
regardless of its form, is hazardous and causes a variety of 
cancers, as well as other diseases.
    Senator Stevens. Did your monographs compare the basic 
results of smoking different types of substances, like pipe or 
tobacco or cigarettes?
    Dr. Backinger. The cigar monograph was focused solely on 
the various types of cigars that were available at the time.
    Senator Stevens. Well, I thank you very much.
    Thank you for your testimony. I'm a little disturbed about 
the--this is the first time I've heard about those machines 
being--not--that our government testing was not done by other 
than machines that the industry developed.
    Thank you.
    Senator Lautenberg. I have a couple of questions I'd like 
to ask you.
    Dr. Ashley, last Thursday the CDC found the number of 
smokers has remained the same over the last 2 years. We know 
that the tobacco companies spent $13 billion in 2005 on 
advertising and marketing, almost double that which they spent 
in 1998. Do you believe that the increases in tobacco 
advertising is the reason that we're seeing no decline in the 
population that is smoking?
    Dr. Ashley. I believe the CDC report says--concluded that 
fact that it is bottoming out and no longer decreasing is 
because of the decrease in money spent on tobacco control.
    Senator Lautenberg. We're looking at testing machines, and 
seeing how reliable they might be. I think the most reliable 
testing machines are humans. And is there sufficient 
confirmation of the relationship of cancer, heart problems, and 
other conditions, that we can attribute directly to smoking? 
Dr. Backinger?
    Dr. Backinger. Yes.
    Senator Lautenberg. Have we seen any tests related to the 
difference in the incidence of cancer, et cetera, from the 
light, or however else they're described, cigarettes and the 
regular cigarettes? Is there more frequent occurrence, can you 
say, of using either the regular cigarette or the light 
cigarettes, in terms of the people who use these?
    Dr. Backinger. The studies that were conducted are 
epidemiological studies, population-based. So, it's--we don't 
have data on individuals, per se. But, overall, people that 
smoke ``light'' or low-tar cigarettes did not have a decrease 
in any of the disease risks and cancers from smoking as people 
that smoked regular cigarettes, conventional cigarettes.
    Senator Lautenberg. Thank you all for your excellent 
testimony, and given in very clear, unequivocating fashion. I 
appreciate that. Thank you.
    And we'll call the next panel, please, to the table.
    Senator Stevens. I would appreciate a copy of those two 
monographs, Doctor.
    Dr. Backinger. Yes, I will follow up with that. Thank you.
    Senator Lautenberg. I'm not really a button-pusher, as you 
can see.
    I thank the members of this panel: Dr. John Samet, the 
Chairman of the Department of Epidemiology at Johns Hopkins 
University; Jack Henningfield, Adjunct Professor at Johns 
Hopkins University School of Medicine; Mr. Marvin Goldberg, a 
Professor of Marketing at Penn State University; and Mr. 
Stephen Sheller, the Founder and a Managing Partner from the 
law firm of Sheller, P.C. And I thank all of you for joining us 
and sharing your views and expertise.
    And, Dr. Samet, may I ask you, please, to start.

   STATEMENT OF JONATHAN M. SAMET, M.D., M.S., PROFESSOR AND 
 CHAIRMAN, DEPARTMENT OF EPIDEMIOLOGY, JOHNS HOPKINS BLOOMBERG 
                    SCHOOL OF PUBLIC HEALTH

    Dr. Samet. Thank you, Senator Lautenberg, Senator Stevens. 
I appreciate the opportunity to address the Committee today on 
the matter of the accuracy of the FTC tar and nicotine rating 
system. This is an important public health issue, not only for 
the United States, but for the approximately 1.3 billion 
smokers in other countries.
    Let me begin with the bottom line; that is, that there is a 
consensus among the scientific and public health communities 
that a lower machine yield of tar and nicotine, as measured by 
the FTC protocol, has no health implications. I base this 
statement on the findings of a number of recent reviews by 
expert groups, including not only Monograph 13 of the National 
Cancer Institute, but a review by the Institute of Medicine 
published in 2001, the 2004 report of the Surgeon General, and 
a review of the same topic, carried out in 2002, published in 
2004, by the World Health Organization's International Agency 
for Research on Cancer. In my written testimony, I've 
summarized the key statements from these reports.
    As a major finding, the 2004 report of the Surgeon General 
states, ``Smoking cigarettes with lower machine-measured yields 
of tar and nicotine provides no clear benefit to health.'' What 
is the basis for this bottom line? Part of the basis lies in 
the epidemiological studies already referred to in the last 
panel, those studies that have looked at risks to smokers as 
they have been using these products and smoking them. This is a 
somewhat difficult area for epidemiologists, but we now have 
many studies on the question.
    To quickly summarize evidence that is included in these 
different reports, the epidemiological studies that have been 
carried out largely show no indication of lower risks 
associated with using lower-yield products. Perhaps one 
exception are studies that compared, early on, users of filter 
to the nonfilter cigarettes of the past.
    We have additional data from--comparison of how risks have 
changed over time; first, in the two large studies of 1 million 
Americans each, carried out by the American Cancer Society, and 
also in a 50-year study of the British doctors. We've seen a 
decline in the sales-weighted average of tar from above 30 
milligrams per cigarette to less than 15. These studies show no 
indication of a parallel change in risk. In fact, comparing the 
findings of CPS I, the first study of the American Cancer 
Society, 1959 to 1972, with the findings of the second study, 
which began in 1980, risks for all of the major diseases went 
up. The same finding was noted in the study of British doctors, 
carried out over 50 years, with no decline in risks for lung 
cancer and other diseases over time.
    Another relevant body of data involves measuring the level 
of tobacco-smoke components, so-called biomarkers, in body 
fluids of those who smoke. Again, if the FTC Method was giving 
us accurate information about the amounts of carcinogens and 
other toxins entering people, we would expect to find that 
levels of such markers in smokers paralleled those in the 
products--paralleled the yields of those in the products that 
they smoked. In fact, using such markers, we find no 
correlation, or limited correlation, between what is on the 
package and what is in the person.
    Recently, for example, we measured cotinine, a nicotine by-
product, in saliva samples from smokers in four countries 
around the world. We found no difference in the uptake of 
nicotine in these smokers, as indicated by the cotinine level, 
comparing smokers of regular and light cigarettes. There are 
many other studies with similar findings.
    So, in summary, we now have epidemiological studies that 
have addressed the challenging question of whether changes in 
the product over time have altered risks. Both epidemiological 
studies and evidence from studies using biomarkers show no 
changes in risk for the major smoking-related diseases--caused 
diseases--that parallel the changes in nicotine or tar yield. 
All of the recent authoritative reports developed by 
multidisciplinary teams of experts have concluded that there is 
no indication of benefit to the health of smokers from smoking 
lower-yield products.
    The FTC tar and nicotine ratings provide no meaningful 
information about risks to smokers. The numbers provided are 
potentially misleading the smokers, as are product labels that 
attempt to convey messages based on yield.
    Thank you, and I'd be pleased to answer questions.
    [The prepared statement of Dr. Samet follows:]

  Prepared Statement of Jonathan M. Samet, M.D., M.S., Professor and 
Chairman, Department of Epidemiology, Johns Hopkins Bloomberg School of 
                             Public Health
Introduction and Background
    Mr. Chairman, and Committee members, thank for you the opportunity 
to address the Committee on Commerce, Science, and Transportation on 
the matter of the accuracy of the FTC tar and nicotine rating system. 
This is an important public health issue, not only for the United 
States, but for the approximately 1.3 billion smokers in other 
countries. In my testimony I will speak to whether the FTC ratings and 
tobacco industry cigarette brand labels that have an implicit basis in 
them, e.g., ``light'' and ``ultra light'', have any implications for 
the serious risks to health caused by cigarette smoking.
    In speaking to this topic, I draw on several decades of relevant 
research experience as well as my participation in developing a number 
of the major reports that have considered the FTC ratings and the 
implications of tar and nicotine yields for risks to health. My 
professional background and training is in internal medicine and the 
subspecialty of pulmonary diseases and in epidemiology, the scientific 
method used to study the health of populations. I have carried out 
research that examined if risks for lung diseases, including lung 
cancer, are associated with type of cigarette smoked and tar yield. My 
studies have also assessed whether levels of biomarkers of tobacco 
smoke exposure, particularly cotinine (the major nicotine metabolite) 
vary with the yield and type of cigarette smoked.
    Additionally, I was a contributor to Monograph 13 of the National 
Cancer Institute, published in 2001, which addressed the implications 
of lower-yield products, as measured by machine, for human health. I 
was Senior Scientific Editor for the 2004 Report of the Surgeon General 
on active smoking and Chair of the Working Group of the International 
Agency for Research on Cancer (IARC) of the World Health Organization 
that developed Monograph 83, Tobacco Smoke and Involuntary Smoking, 
published in 2004. These reports also considered the information about 
risks provided by cigarette yield. In the Department of Justice lawsuit 
against the tobacco industry (United States v. Philip Morris), I also 
testified on this topic.
There Is Consensus That a Lower Machine Yield Has No Health Benefit
    The attached table provides the summary findings of the key recent 
reports on the topic including those prepared by the National Cancer 
Institute,<SUP>[1]</SUP> the Institute of Medicine,<SUP>[2]</SUP> the 
Surgeon General,<SUP>[3]</SUP> and the International Agency for 
Research on Cancer <SUP>[4]</SUP> (Table 1). Each of these reports was 
developed by a multidisciplinary group of experts who evaluated the 
relevant evidence. There is clear consensus in their findings: machine-
measured yields of tar and nicotine are not informative with regard to 
risks to health of smoking cigarettes; lower yields do not imply lesser 
health risks. As a major finding, the 2004 report of the Surgeon 
General states (p. 25): ``Smoking cigarettes with lower machine-
measured yields of tar and nicotine provides no clear benefit to 
health.''
Epidemiological Studies Provide No Evidence That Lower Yields Have 
        Health Benefits
    Much of the scientific evidence leading to this consensus comes 
from epidemiological studies. FTC reports and other information 
document a substantial decline since the 1950s in machine-measured tar 
and nicotine yields of cigarettes smoked in the United States (Figure 
1). Epidemiologists have carried out research to determine whether this 
decline has had any consequences for risks to the health of smokers. A 
substantial benefit might be anticipated, of health risks tracked with 
machine-measured yields.
    The relevant evidence on the risk of lower tar products has been 
growing, but this is a difficult topic for researchers. Investigating 
the consequences of modifications in cigarettes is difficult because 
cigarettes have been changing continually over time, so that 
comparisons cannot be made between groups that have smoked the same 
cigarettes throughout their entire lives. People who started smoking in 
the 1950s then moved on to the cigarettes of the 1960s and 1970s, for 
example, if they continued to smoke. In spite of these methodological 
complications, epidemiological studies would be able to detect changes 
in risk of a magnitude that matched the changes in yields (Figure 1).
    The available epidemiological evidence comes from three sources: 
(1) comparisons of changes in mortality rates for lung cancer and other 
diseases over time in relation to changes in products used by smokers; 
(2) case-control studies comparing disease risks in smokers of 
different types of products; and (3) cohort studies that have tracked 
smokers over substantial periods of time, as with the study of British 
physicians in progress from 1951 through 2001, or that have been 
conducted serially, as with the two very large epidemiological studies 
carried out by the American Cancer Society and known as Cancer 
Prevention Studies I and II, or CPS I and CPS II. The relevant evidence 
is not extensive and not fully consistent across the three sources. 
There is also evidence from studies that have involved measurements of 
levels of cigarette smoke components in biological samples from smokers 
of different types of cigarettes.
    Several case-control and cohort studies have shown small reductions 
in risk, on the order of 20 percent for lung cancer, comparing smokers 
of filter cigarettes with smokers of non-filter cigarettes. These were 
largely early epidemiological studies, carried out in the 1960s and 
1970s; the comparison at the time was largely between smokers of non-
filtered and filtered cigarettes. Several reports have commented on 
these early findings (Table 1). The relevance of these findings to 
current cigarettes is uncertain. In general, epidemiological studies 
show that tar yield of the cigarettes smoked is only a weak predictor 
of lung cancer risk after taking account of other aspects of the 
smoking history.
    Some have interpreted the rapid decline in lung cancer mortality in 
younger males in the United Kingdom during the last decades of the 20th 
century as indicating a benefit of the changing cigarette. Sir Richard 
Peto at Oxford has proposed that the decline in lung cancer rates in 
the United Kingdom was too great to be explained by dropping smoking 
rates alone and has argued that changes in cigarettes over time also 
contributed to the decline. However, data from major cohort studies 
that cover the same time period--the British physicians' study, and CPS 
I and II indicate rising relative risks of lung cancer over time in 
smokers generally. If the changes in cigarette yields had any benefit 
we would expect these relative risks to be dropping. Instead, they have 
risen.
    Some of the most compelling evidence is from the American Cancer 
Society's Cancer Prevention Studies. The data from these studies show 
that regardless of how cigarettes changed, for smokers in CPS I (1959-
1972) versus those in CPS II (1980-1986), relative risks of lung cancer 
(and other diseases) went up (Table 2). Over the time interval 
separating these two studies, there was a substantial drop in the tar 
and nicotine yields of the cigarettes that were smoked in the United 
States (Figure 1). In fact, in more detailed analyses of the data that 
have been published, the mortality rates from lung cancer tend to be 
higher within categories defined by the numbers of cigarettes smoked 
and the number of years of smoking, comparing the second study with the 
first.<SUP>[5,6]</SUP> This pattern of higher risks in CPS II suggests 
an increase in the risk of smoking over time, comparing similar groups 
of smokers in CPS I and CPS II.
    Also relevant are analyses of the data from the British Doctors' 
Study which compared risks in the first and second halves of the study 
after 40 years of follow-up.<SUP>[7]</SUP> The comparison shows that 
the relative risk values went up comparing the first 20 years (1951-
1971) to the second 20 years (1972-1991). The paper on the 50-year 
follow-up described progressively increasing risks for mortality among 
smokers over the five decades of follow-up.<SUP>[8]</SUP> Even looking 
back at the older studies that found small reductions in relative risks 
at one particular point in time, comparing filter to non-filter 
cigarette use, these studies did not track how risks changed over time 
as more and more smokers were smoking cigarettes with lower FTC tar and 
nicotine yields and the sales-weighted tar and nicotine yields declined 
progressively (Figure 1).
    While the epidemiological studies have emphasized smoking and lung 
cancer, findings have been generally similar for the other major 
diseases caused by cigarette smoking. With respect to heart disease and 
chronic obstructive pulmonary disease (COPD), the evidence has also 
consistently shown that smokers who use lower tar products obtain no 
benefit at all in terms of reducing their risk of acquiring these two 
diseases. The findings from the comparison of CPS I and CPS II are 
similar to those for lung cancer (see Table 2). Risks for all the major 
diseases caused by smoking increased in CPS II.
    It is important to consider a possible additional risk to health 
posed by the use of low yield products: the 2004 Surgeon General's 
Report noted the rise in adenocarcinoma, among the major types of lung 
cancer. One remarkable change in the epidemiological characteristics of 
lung cancer over the last 40 years approximately has been a shift in 
the predominant type of lung cancer. At the beginning of the epidemic 
of tobacco-caused lung cancer, the leading histologic type was squamous 
cell carcinoma, which characteristically involves the larger and more 
central airways of the lung. Since the late 1960s, there has been a 
shift so that adenocarcinoma is now the most common in both men and 
women. Interestingly, adenocarcinomas tend to occur more peripherally 
in the lung, arising from the smaller airways. One hypothesis is that 
changes in the cigarette have lead to deeper inhalation with a pattern 
of deposition of carcinogens in the lung that differed from that 
typically occurring with the older, higher-yield 
products.<SUP>[9,10]</SUP> Some have also suggested that the mix of 
carcinogens in tobacco smoke may have changed, perhaps with greater 
concentrations of tobacco-specific nitrosamines, which cause 
adenocarcinoma in exposed animals.
Biomarker Studies Show No Association of Machine-Measured Yield With 
        Levels of Smoke Components in the Bodies of Smokers
    Researchers have studied the relationship between the FTC 
measurements, that is, tar and nicotine yields as reported from the FTC 
Method, and the levels of tar components and nicotine actually entering 
into the bodies of smokers. Biomarker is a general term for compounds 
that can be measured in a biological material. With regard to cigarette 
smoking, we measure these biomarkers as quantitative indicators of how 
much a person has smoked, and of the amount of biological materials 
reaching the lungs, and then getting into the bloodstream.
    Using these methods, researchers have explored the relationship 
between the FTC-yield measurements and the levels of biomarkers in 
smokers. If the FTC measurements are providing meaningful information, 
the levels of biomarkers should track with the measured yields. A 
number of studies have used biomarkers of dose for specific tobacco 
smoke components, including carboxy-hemoglobin (hemoglobin bound to 
carbon monoxide rather than to oxygen) and cotinine (a metabolite 
specific to the breakdown of nicotine).
    In general, research using these biomarkers has indicated little, 
if any, correlation between the FTC-yield of tar or nicotine, and the 
levels of the biomarkers measured in smokers. These studies have been 
conducted both in the population context and in laboratory settings. 
For example, in a study that my group conducted in New 
Mexico,<SUP>[11]</SUP> we collected saliva for the analysis of cotinine 
levels, and breath samples for measurement of carbon monoxide levels in 
a population survey sample of Hispanic persons. After taking account of 
the numbers of cigarettes smoked, the levels of biomarkers were not 
associated with the yields of tar and nicotine of the current brand of 
cigarette. Another study <SUP>[12]</SUP> evaluated smoking patterns and 
biomarkers in the laboratory setting, contrasting smokers of medium-
yield and low-yield cigarettes. The smokers had greater puff volumes 
and puff frequencies than are specified in the FTC protocol and had 
substantially greater intakes of tar and nicotine than those implied by 
the brand yield listings. More recently, we measured the cotinine level 
in saliva samples from smokers in four countries (Brazil, China, 
Mexico, and Poland).<SUP>[13]</SUP> Cotinine concentration per 
cigarette smoked did not differ between smokers of light and regular 
cigarettes (Figure 2). Figure 2 shows the data for each country with 
two curves for country, one showing the cotinine level for smokers of 
regular cigarettes and the other for smokers of light cigarettes. The 
curves are essentially identical in each of the countries.
    These and other results suggest that there is little difference in 
the levels of biomarkers comparing smokers of higher yield tar/nicotine 
cigarettes and lower yield tar/nicotine cigarettes, as measured by the 
FTC Method. This finding implies that doses of carcinogens or other 
toxic materials that smokers inhale have little relationship, if any, 
to the FTC tar yield. This finding further implies that the gradual 
reduction in tar yield over the past several decades has not resulted 
in a reduction in smokers' exposure to carcinogens and other toxic 
agents, and that the FTC test method is not informative with respect to 
lung cancer risk or to the risks of smoking-caused diseases generally.
    There are several explanations for this lack of correlation. First, 
the smoking pattern of the machine is not representative of how people 
smoke; in other words, the machine does not smoke like a person, or 
even the average person. It uses a pattern of puffing that is based on 
very old information. Second, the ventilation holes in the filter, 
which are not covered when the end of the cigarette is inserted into 
the machine, are generally covered by smokers as they hold the 
cigarette and puff. Third, smokers tend to compensate for the reduced 
yield of nicotine by increasing the volume of puffs (that is, the 
volume of smoke they pull into their mouths), the number of puffs per 
cigarette, and the number of cigarettes smoked. This compensation is 
not replicated by the test machine. In this manner, smoking cigarettes 
produces similar levels of biomarkers, regardless of whether the 
cigarettes smoked are labeled as ``Low Tar'' or ``Low Nicotine.''
Summary and Overall Conclusions
    Beginning in the 1950s, following the initial epidemiological 
studies showing very strong associations of smoking with risk for lung 
cancer and other diseases, the tobacco industry has continually altered 
cigarettes, adding filters and making other changes that have led to 
reduced yields of tar and nicotine as measured by a machine (Figure 1). 
Both epidemiological studies and evidence from studies using biomarkers 
show no parallel changes in risks for the major smoking-caused 
diseases. All recent authoritative reports, developed by 
multidisciplinary teams of experts, have concluded that there is no 
indication of benefit to the health of smokers from smoking lower yield 
products. The FTC tar and nicotine ratings provide no meaningful 
information about risks to smokers. The numbers provided are 
potentially misleading to smokers, as are product labels that attempt 
to convey messages based on yield.

    Table 1.--Summary findings of the key reports on machine-measured
                       cigarette yields and health
------------------------------------------------------------------------
      Report and Conclusion               Page Number            Year
------------------------------------------------------------------------
DNCI Smoking and Tobacco Control                                   2001
 Monograph 13 [1]

``Epidemiological and other        p. 10
 scientific evidence, including
 patterns of mortality from
 smoking-caused diseases, does
 not indicate a benefit to public
 health fro changes in cigarette
 design and manufacturing over
 the last fifty years.''

``Widespread adoption of lower     p. 10
 yield cigarettes by smokers in
 the United States has not
 prevented the sustained increase
 in lung cancer among older
 smokers.''

``Measurements of tar and          p. 10
 nicotine yields using the FTC
 Method do not offer smokers
 meaningful information on the
 amount of tar and nicotine they
 will receive from a cigarette.
 The measurements also do not
 offer meaningful information on
 the relative amounts of tar and
 nicotine exposure likely to be
 received from smoking different
 brands of cigarettes.''

``Epidemiological studies have     p. 146
 not consistently found lesser
 risk of diseases, other than
 lung cancer, among smokers of
 reduced yield cigarettes. Some
 studies have found lesser risks
 of lung cancer among smokers of
 reduced yield cigarettes. Some
 or all of this reduction in lung
 cancer risk may reflect
 differing characteristics of
 smokers of reduced-yield
 compared to higher-yield
 cigarettes.''

``There is no convincing evidence  p. 146
 that changes in cigarette design
 between 1950 and the mid 1980s
 have resulted in an important
 decrease in the disease burden
 caused by cigarette use either
 for smokers as a group or for
 the whole population.''

Clearing the Smoke: Assessing the                                  2001
 Science Base for Tobacco Harm
 Reduction, Institute of Medicine
 [2]

``Most current assessments of      p. 2
 morbidity and mortality suggest
 that low-yield products are
 associated with far less health
 benefit, if any, than would be
 predicted based on estimates of
 reduced toxic exposure using FTC
 yields.''

``The weight of the evidence       p. 67
 indicates that lower-tar and
 nicotine yield cigarettes have
 not reduced the risk of disease
 proportional to their FTC
 yields, in part because smokers
 compensate to obtain more
 nicotine and in part because the
 products themselves contain
 higher concentrations of
 selected carcinogens.''

``There is no evidence of a        p. 431
 threshold for tobacco smoking
 and cancer risk. This conclusion
 is consistent with the knowledge
 that there are many carcinogens
 in tobacco smoke, the aggregate
 would work to increase risk at
 any level. Modeling for low-dose
 indicates increased risk with
 less than one cigarette per day.
 Thus persons who initiate
 smoking with PREPS that contain
 tobacco would increase their
 risk for cancer, and there is
 unlikely to be a ``safe''
 cigarette. Former smokers who
 resume smoking with such
 products would increase their
 risk further.''

``The available data are           p. 432
 suggestive, but not sufficient,
 to conclude that smokers of so-
 called low-tar cigarettes have
 lower cancer risk compared to
 those who smoke higher tar
 cigarettes, with the same
 caveats as for filter smoking
 studies.''

IARC Monograph 83, Tobacco smoke                                   2004
 and involuntary smoking [4]

``. . . after considering the      p. 171
 limitations of the evidence, the
 Working Group concluded that
 changes in cigarettes since the
 1950s have probably tended to
 reduce the risk for lung cancer
 associated with the smoking of
 particular numbers of cigarettes
 at particular ages.''
``The yields of tar, nicotine and  p. 1179
 carbon monoxide from cigarettes,  (Summary)
 as measured by standard machine-
 smoking tests, have fallen over
 recent decades in cigarettes
 sold in most parts of the world,
 but have remained higher in some
 countries. The tar and nicotine
 yields as currently measured are
 misleading and have only little
 value in the assessment of human
 exposure to carcinogens.''

The Health Consequences of                                         2004
 Smoking: A Report of the Surgeon
 General [3]

``Smoking cigarettes with lower    p. 25
 machine-measured yields of tar
 and nicotine provides no clear
 benefit to health.''
------------------------------------------------------------------------
[1] U.S. Department of Health and Human Services (USDHHS), National
  Cancer Institute. Risks associated with smoking cigarettes with low
  machine-measured yields of tar and nicotine. Bethesda, MD: National
  Institutes of Health, 2001.
[2] Stratton K., Shetty P., Wallace R., Bondurant S., eds. Clearing the
  smoke: assessing the science base for tobacco harm reduction.
  Washington,D.C.: National Academy Press, 2001.
[3] U.S. Department of Health and Human Services (USDHHS). The health
  effects of active smoking: A report of the Surgeon General. 2004.
  Washington, D.C., U.S. Government Printing Office.
[4] International Agency for Research on Cancer (IARC). Tobacco smoke
  and involuntary smoking. IARC monograph 83. 2004. Lyon, France,
  International Agency for Research on Cancer.


  Table 2.--Changes in cigarette-related mortality risks between Cancer
  Prevention Study 1 (1959 through 1965) and Cancer Prevention Study II
   (1982 through 1988) and percentage of deaths attributable to active
                     cigarette smoking. Source: \14\

                                CPS I                    CPS II



                                             Males
                         Relative      Percent     Relative      Percent
                             Risk                      Risk
Overall Mortality             1.7         42.2          2.3         57.1
Lung Cancer                  11.9         91.6         23.2         95.7
Coronary Heart                1.7         41.5          1.9         46.2
 Disease
Chronic Obstructive           9.3         89.2         11.7         91.4
 Pulmonary Disease
Stroke                        1.3         21.9          1.9         46.8
Other Smoking                 2.7         63.4          3.5         71.2
 Related Cancers
                                            Females
Overall Mortality             1.2         18.7          1.9         47.9
Lung Cancer                   2.7         63.4         12.8         92.2
Coronary Heart                1.4         27.0          1.8         45.1
 Disease
Chronic Obstructive           6.7         85.0         12.8         92.2
 Pulmonary Disease
Stroke                        1.2         15.2          1.8         45.7
Other Smoking                 1.8         45.0          2.6         60.8
 Related Cancers a

a Sites include larynx, oral cavity, esophagus, bladder, kidney, other
  urinary, and pancreas.

  <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  
  <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  
Reference List
    <SUP>[1]</SUP> U.S. Department of Health and Human Services 
(USDHHS), National Cancer Institute. Risks associated with smoking 
cigarettes with low machine-measured yields of tar and nicotine. 
Bethesda, MD: National Institutes of Health, 2001.
    <SUP>[2]</SUP> Stratton, K., Shetty, P., Wallace, R., Bondurant, 
S., eds. Clearing the smoke: assessing the science base for tobacco 
harm reduction. Washington, D.C.: National Academy Press, 2001.
    <SUP>[3]</SUP> U.S. Department of Health and Human Services 
(USDHHS). The health effects of active smoking: A report of the Surgeon 
General. 2004. Washington, D.C., U.S. Government Printing Office.
    <SUP>[4]</SUP> International Agency for Research on Cancer (IARC). 
Tobacco smoke and involuntary smoking. IARC monograph 83. 2004. Lyon, 
France, International Agency for Research on Cancer.
    <SUP>[5]</SUP> U.S. Department of Health and Human Services 
(USDHHS), Public Health Service, National Cancer Institute (NCI). 
Changes in cigarette-related disease risks and their implication for 
prevention and control. Burns, D.M., Garfinkel L., Samet, J.M., 
editors. [8]. 1997. Bethesda, Maryland, U.S. Government Printing Office 
(NIH Publication No. 97-4213). Smoking and Tobacco Control Monograph.
    <SUP>[6]</SUP> Thun, M.J., Heath, C.W., Jr. Changes in mortality 
from smoking in two American Cancer Society prospective studies since 
1959. Prev Med 1997; 26(4):422-426.
    <SUP>[7]</SUP> Doll, R., Peto, R., Wheatley, K., Gray, R., 
Sutherland, I. Mortality in relation to smoking: 40 years' observations 
on male British doctors. Br Med J 1994; 309(6959):901-911.
    <SUP>[8]</SUP> Doll, R., Peto, R., Boreham, J., Sutherland, I. 
Mortality in relation to smoking: 50 years' observations on male 
British doctors. Br Med J 2004; 328(7455):1519-1527.
    <SUP>[9]</SUP> Alberg, A.J., Ford, J.G., Samet, J.M. Epidemiology 
of lung cancer: ACCP evidence-based clinical practice guidelines (2nd 
edition). Chest 2007; 132(3 Suppl.):29S-55S.
    <SUP>[10]</SUP> Thun, M.J., Lally, C.A., Flannery, J.T., Calle, 
E.E., Flanders, W.D., Heath, C.W., Jr. Cigarette smoking and changes in 
the histopathology of lung cancer. J Nat'l Cancer Inst 1997; 
89(21):1580-1586.
    <SUP>[11]</SUP> Coultas, D.B., Stidley, C.A., Samet, J.M. Cigarette 
yields of tar and nicotine and markers of exposure to tobacco smoke. Am 
Rev Respir Dis 1993; 148(2):435-440.
    <SUP>[12]</SUP> Djordjevic, M.V., Stellman, S.D., Zang, E. Doses of 
nicotine and lung carcinogens delivered to cigarette smokers. J Nat'l 
Cancer Inst 2000; 92(2):106-111.
    <SUP>[13]</SUP> Blackford, A.L., Yang, G., Hernandez-Avila, M., 
Przewozniak, K., Zatonski, W., Figueiredo, V. et al., Cotinine 
concentration in smokers from different countries: relationship with 
amount smoked and cigarette type. Cancer Epidemiol Biomarkers Prev 
2006; 15(10):1799-1804.
    <SUP>[14]</SUP> Thun, M.J., Day-Lally, C., Myers, D.G., Calle, 
E.E., Flanders, W.D., Zhu, B-P et al., Trends in tobacco smoking and 
mortality from cigarette use in Cancer Prevention Studies I (1959-1965) 
and II (1982-1988). In: Burns, D.M., Garfinkel, L., Samet, J.M., 
editors. Changes in Cigarette Related Disease Risks and Their 
Implication for Prevention and Control. Bethesda, Maryland: U.S. 
Government Printing Office, 1997: 305-382.
    [15] Hoffmann, D., Hoffmann, I., El Bayoumy, K. The less harmful 
cigarette: a controversial issue. a tribute to Ernest L. Wynder. Chem 
Res Toxicol 2001; 14(7):767-790.

    Senator Lautenberg. Thank you very much.
    Dr. Henningfield, you're next, please.

           STATEMENT OF JACK E. HENNINGFIELD, Ph.D.,

          VICE PRESIDENT, RESEARCH AND HEALTH POLICY,

      PINNEY ASSOCIATES; PROFESSOR OF BEHAVIORAL BIOLOGY,

       ADJUNCT, AND DIRECTOR, INNOVATORS AWARDS PROGRAM,

        DEPARTMENT OF PSYCHIATRY AND BEHAVIORAL SCIENCE,

        THE JOHNS HOPKINS UNIVERSITY SCHOOL OF MEDICINE

    Dr. Henningfield. Senator Lautenberg, thank you for the 
opportunity to testify.
    For three decades, I have studied drug addiction and 
tobacco use at Johns Hopkins Medical School, the National 
Institute on Drug Abuse, and Pinney Associates, and I am a 
consultant to GlaxoSmithKline on smoking cessation medicines. I 
also serve the World Health Organization in its efforts to 
evaluate the international equivalent of FTC, which is called 
the ISO [International Standards Organization] Cigarette 
Testing Method. I provide additional detail in my written 
submission.
    The FTC cigarette testing method does not provide accurate 
information about tar and nicotine exposure to cigarette 
smokers. It greatly underestimates inhaled amounts. 
Furthermore, the ratings support marketing that undermine our 
efforts to prevent young people from starting to smoke and from 
motivating smokers to quit. The problem has persisted, in part, 
because of the absence of public health-based regulatory 
oversight that would have been responsive to the warning signs 
over the past two decades or longer.
    How did it happen? What is the path toward resolution? Let 
me start with the problem and how it was discovered.
    I believe Americans trust product content ratings because 
our Nation leads the world in setting standards for truthful 
ingredient information for foods and drugs. This information 
typically communicates the maximum exposure from a product, not 
average exposure. When a content or delivery rating of food 
product or drug product is found to misrepresent the product, 
the established protocols can fix the problem. Every year, FDA 
acts on hundreds of products that are misrepresented, or, more 
technically, misbranded. It isn't surprising that Americans 
believe the FTC rating bears some relationship to health 
effects and exposure. Consumers, such as my own sister, do not 
believe that the government would allow such a scam to 
continue. I am a scientist in this area; I was similarly 
deceived in my research efforts.
    This figure shows what many of us thought was a major 
success story in public health. In the 1960s--from the 1960s to 
1980s, the FTC ratings of tar and nicotine plummeted, as rated 
by the FTC Method. As intended, consumers flocked to cigarettes 
with lower ratings. Even scientists like me thought we could 
take advantage of what appeared to be a broad range of nicotine 
dosing systems for biological research. And then we had a hard 
time interpreting our results, because a lot of it didn't make 
sense if we were really manipulating nicotine dose to the 
proportion that we thought.
    But the warning bells were sounded by human studies in the 
1980s, by NIDA and other NIH research. In 1983, Dr. Neal 
Benowitz published one of the seminal studies. His studies 
showed that light cigarettes did not deliver less nicotine. In 
fact, as shown by the solid line in this figure, actual 
nicotine exposure was not related to FTC ratings. The dotted 
line shows what scientists had expected and what companies 
advertised and what consumers wanted: lower levels of exposure 
from cigarettes with the lower ratings. This problem was 
confirmed by FDA and acknowledged by FTC in the 1990s. In 2001, 
National Cancer Institute Monograph 13 came to the most 
devastating conclusion of all, that there is no health benefit 
to cigarettes with low FTC ratings.
    How did it happen? FTC's intentions were good, and it is 
not unreasonable that they expected the rating system would 
help smokers reduce their tar and nicotine. FTC did not 
anticipate the extent to which tobacco industry would go to 
design cigarettes to undermine the tests and render the rating 
system meaningless. Also under-appreciated at the time was the 
power of the addictive process that motivated smokers--to more 
intensively smoke cigarettes, a process that we refer to as 
compensatory smoking.
    The cigarette designs that you've already heard mentioned 
that circumvented the method were elaborate, but several are 
easily pointed out. This shows the ventilation holes which 
smokers cannot see on most cigarettes. They're not covered by 
the machines, but smokers can easily cover them with fingers 
and lips. There are many other design features that enable 
smokers to get addictive doses of nicotine, even if it means 
higher levels of tar, from virtually any cigarette on the 
market.
    There is no simple fix that we could provide to FTC; in 
part, because cigarette designs continue to evolve. But, there 
is a path toward resolution, and that is to charge FDA to set 
standards for cigarette testing and labeling, and oversee the 
validity of the testing, as proposed in current legislation. 
FDA is the world authority in measuring dosing capacity and 
exposures produced by a broad range of products, including 
ever-changing drug delivery systems. For FDA, the scientific 
challenge is well understood. It has the capacity to not only 
fix the problem for currently marketed cigarettes, but also to 
prevent such a colossal and long-lasting deception to consumers 
from ever occurring again.
    Thank you for the opportunity. I'll be pleased to do 
whatever I can to help.
    [The prepared statement of Dr. Henningfield follows:]

  Prepared Statement of Jack E. Henningfield, Ph.D., Vice President, 
Research and Health Policy, Pinney Associates; Professor of Behavioral 
 Biology, Adjunct, and Director, Innovators Awards Program, Department 
  of Psychiatry and Behavioral Science, The Johns Hopkins University 
                           School of Medicine
    Mr. Chairman, Senator Lautenberg, and other members of the 
subcommittee, thank you for the opportunity to testify. For three 
decades, I have studied drug addiction and tobacco use at Johns Hopkins 
Medical School, the National Institute on Drug Abuse, and Pinney 
Associates. I serve on the World Health Organization Study Group on 
Tobacco Product Regulation and advise its Tobacco Laboratory Network 
and the Conference of Parties guiding implementation of the Framework 
Convention (``Treaty'') on Tobacco Control on the measurement and 
communication of tobacco product contents and emissions. Through Pinney 
Associates I consult to GlaxoSmithKline on smoking cessation 
medications; I have a financial interest in a smoking cessation 
medicine that is under development; and, I have testified on these 
topics in litigation brought against the tobacco industry by the U.S. 
Department of Justice and other plaintiffs.
    My work is also supported by the Robert Wood Johnson Foundation 
Innovators Awards Program at The Johns Hopkins University School of 
Medicine. I speak on my own behalf and am not representing any of these 
organizations in my testimony today.
    My testimony is focused on the problems with the FTC Method and the 
science base for its elucidation and resolution.
    The FTC Cigarette Testing Method does not provide accurate 
information about tar and nicotine exposure to cigarette smokers and, 
in fact, greatly underestimates the inhaled amounts. Furthermore, the 
ratings support marketing that undermines our efforts to prevent young 
people from starting to smoke and to motivate smokers to quit.
    This problem has persisted in part because of the absence of public 
health-based regulatory oversight that would have been responsive to 
warning signs over the past two decades. How did it happen? What is the 
path toward resolution? I will start with the problem and how it was 
discovered.
The Problem
    I believe Americans trust product content ratings because our 
Nation leads the world in setting standards for truthful ingredient 
information for foods and drugs. This information typically 
communicates maximum exposure from a product. When content or delivery 
ratings are found to misrepresent the product, established protocols 
can fix the problem. Every year, FDA acts on hundreds of products that 
are misrepresented or more technically--``misbranded''. It isn't 
surprising that Americans believe the FTC rating bears some 
relationship to health effects and exposure. Consumers, such as my own 
sister, do not believe the government would allow a scam like this to 
go on.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This figure shows what many of us thought was a major success story 
in public health: the 1960s to 1980s plummeting of tar and nicotine 
levels in cigarettes as rated by the FTC Method (figure modified from 
Hoffman and Hoffman, 1994). As intended, consumers flocked to 
cigarettes with lower ratings. Even scientists like me thought we could 
take advantage of what appeared to be the broad range of nicotine 
dosing systems for biological research. Of course, we knew the ratings 
did not precisely predict exposure but we expected that the ratings 
were meaningfully related to human exposure.
    The warning bells sounded in the 1980s by NIH researchers. In 1983, 
Dr. Neal Benowitz and his colleagues (1983) published one of the 
seminal studies. His study showed that light cigarettes did not deliver 
less nicotine. This figure (estimated from plasma cotinine levels) 
shows that nicotine exposure is directly related to number of 
cigarettes smoked.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The second figure from the Benowitz study revealed the problem. The 
dotted line shows what scientists had expected based on FTC testing: 
namely that there would be lower levels of exposure from cigarettes 
with lower ratings. However, the solid line reveals that actual 
exposure was not related to FTC rating.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Unfortunately, consumers not only reasonably believe that their 
exposure to tar and nicotine will be less from cigarettes with lower 
FTC Method deliveries, they believe that health risks of cigarettes are 
lower in proportion to tar and nicotine reductions. For example, 
Kozlowski and Pillitteri (2001) reported the results of a national 
telephone survey which showed that for many cigarette smokers an 
important factor in smoking light cigarettes was the belief that they 
could reduce the risks of smoking without having to quit. They also 
cited previously secret tobacco industry documents which revealed that 
this was the intent of the industry in their design and marketing 
approach that enabled them to ``reassure smokers, to keep them in the 
franchise as long as possible.'' Responses to survey questions about 
the number of light cigarettes that would need to be smoked to get the 
same amount of tar as from a regular cigarette indicated that about 90 
percent of the respondents held ``mistaken beliefs regarding the 
distinctions between machine based yields of tar and actual tar 
intake.''
    These consumer misperceptions were further explored by Cummings and 
colleagues (2004) in a telephone survey of cigarette smokers. They 
found that only 12 percent of smokers correctly understood that you 
could get as much tar from a single light cigarette as from a regular 
cigarette, and a third or more smokers believed that high tar 
cigarettes were twice as likely to cause disease as low tar cigarettes.
    A further complication in the accuracy and potential misapplication 
of FTC Method testing is that as meaningless as the results are for 
widely marketed ``conventional'' cigarettes, FTC has never even 
developed testing protocols for modified cigarettes and novel cigarette 
substitutes that are under development and in early stages of 
marketing. For example, Shiffman and colleagues (2003) found that one 
cigarette substitute, marketed with tar and claims based on the tobacco 
companies own modification of the FTC Method has led to serious 
misperceptions among smokers such as one in four believing that Eclipse 
is a completely safe alternative to conventional cigarettes, with 
highest levels of interest in people who had been contemplating 
quitting smoking. Even more startling was that 15 percent of young 
adults who had quit smoking for at least 2 years were interested in 
using Eclipse. There are many other modified tobacco products in 
various stages of marketing and development, as described by Hatsukami 
and colleagues (2004, 2005), and these pose emerging problems of even 
greater complexity to testing and communications than conventional 
cigarettes.
    These problems were confirmed by FDA and acknowledged by FTC in the 
1990s. In 2001, National Cancer Institute Monograph 13 came to the most 
devastating conclusion of all: there is no health benefit to cigarettes 
marketed as ``light'' and ``low tar''.
How Did it Happen?
    FTC's intentions were good and it was probably not unreasonable for 
the agency to expect that the rating system would help smokers reduce 
their tar and nicotine exposures as advocated by the Surgeon General, 
and would provide incentives for companies to develop lower-yielding 
cigarettes (Wilkenfeld et al., 2000). FTC did not anticipate the extent 
to which the tobacco industry would go to design cigarettes to 
undermine the test and render the rating system meaningless with 
respect to actual intake and health effects. Also under-appreciated at 
the time was the power of the addictive process that motivated 
cigarette smokers to more intensively smoke cigarettes that delivered 
lower yields per puff (``compensatory smoking'').
    The cigarette designs that circumvented the method were elaborate, 
but several are easily pointed out. Vent holes dilute the smoke in FTC 
machines, but do not do so when covered by the fingers and lips of 
smokers. There are many other tricks employed in the deception and 
these include the use of various chemicals to alter burning properties 
and nicotine delivery as well as other physical design features that 
are discussed in National Cancer Institute Monographs 7 and 13. For 
example, the machine stops smoking 3 mm before reaching the overwrap 
connecting the filter to the tobacco column and so does not test all 
the tobacco. Not surprising, this overwrap became larger when FTC 
testing started. Accelerant chemicals are added so that the cigarette 
would burn faster and, therefore, the relatively slow-puffing machines 
would measure lower tar and nicotine. The mix of design features used 
to cheat the FTC test method varies across cigarettes and appear to be 
continuing to evolve. Until the testing is in place under authority of 
an agency with the experience to evaluate drug and toxin delivery and 
empowered to demand information about the designs and their 
consequences, scientists and consumers alike will remain in the dark 
with respect actual deliveries and associated health effects.
    The recent and emerging problems with respect to emerging 
generations of modified cigarette products, such as those involving 
carbon heating systems, electronic ignition, and novel filtration, is 
occurring because there is presently no regulatory oversight mechanism 
in place with expertise to develop and validate new testing methods. In 
the vacuum, the tobacco companies are adopting their own variations on 
the existing FTC Method.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Path Towards Resolution
    There is no simple fix that we could provide to FTC, in part, 
because, cigarette designs continue to evolve. But there is a path 
toward resolution and that is to charge FDA to set standards for 
cigarette testing and labeling and oversee the validity of the testing, 
as proposed in current legislation intended to give FDA authority over 
tobacco products.
    FDA is the world authority in measuring dosing capacity and 
exposures produced by a broad range of products, including ever-
changing drug delivery systems. It would be capable of developing and 
validating accurate methods for testing and communicating the results 
for current cigarette products as well as for the emerging generations 
of modified cigarettes and cigarette substitutes. For FDA, this 
scientific challenge is well understood. It has the capacity to not 
only fix the problem with respect to currently marketed cigarettes but 
also to prevent such a colossal and long-lasting deception of consumers 
and impediment to public health from ever occurring again.
Supporting References
    Benowitz, N.L., Hall, S.M., Herning, R.I, Jacob, P., Jones, R.T., 
Osman, A.L. Smokers of low-yield cigarettes do not consume less 
nicotine. New England Journal of Medicine, 300:139-142, 1983.
    Cummings, K.M., Hyland, A., Giovino, G.A., Hastrup, J.L., Bauer, 
J.E., Bansal, M.A. Are smokers adequately informed about the health 
risks of smoking and medicinal nicotine? Nicotine and Tobacco Research, 
6:S333-S340, 2004.
    Hatsukami, D.K., Henningfield, J.E., Kotlyar, M. Harm reduction 
approaches to reducing tobacco-related mortality. Annual Review of 
Public Health, 25:377-395, 2004.
    Hatsukami, D.K., Hecht, S. Hope or hazard: what research tells us 
about potentially reduced exposure tobacco products. University of 
Minnesota Transdisciplinary Tobacco Use Research Center, Minneapolis, 
2005.
    Kozlowski, L.T., Pillitteri, J.L. Beliefs about ``light'' and 
``ultra light'' cigarettes and efforts to change those beliefs: an 
overview of early efforts and published research. Tobacco Control, 
10:i12-i16, 2001.
    Shiffman, S., Pillitteri, J.L., Burton, S.L., Di Marino, M.E. 
Smoker and ex-smoker reactions to cigarettes claiming reduce risk. 
Tobacco Control, 13:78-84, 2003.
    Hoffman, D., Hoffman, I. The changing cigarette, 1950-1995. Journal 
of Toxicology and Environmental Health, 50-307-364, 1997.
    National Cancer Institute, Smoking and Tobacco Control Monograph 
No. 13. Risks associated with smoking cigarettes with low-machine 
measured yields of tar and nicotine. National Institutes of Health, NIH 
Pub. No. 02-5074, 2001.
    National Cancer Institute, Smoking and Tobacco Control Monograph 
No. 7. The FTC Cigarette Test Method for Determining Tar, Nicotine, and 
Carbon Monoxide Yields of U.S. Cigarettes, Report of the NCI Expert 
Committee, National Institutes of Health, NIH Publication No. 96-4028, 
1996.
    Wilkenfeld, J., Henningfield, J., Slade, J., Burns, D., Pinney, J. 
It's time for a change: Cigarette smokers deserve meaningful 
information about their cigarettes. Journal of the National Cancer 
Institute, 92(2):90-92, 2000.
    Wilkenfeld, J., Henningfield, J., Slade, J., Burns, D., Pinney, J. 
Response to FTC's Response to: It's time for a change: Cigarette 
smokers deserve meaningful information about their cigarettes. Journal 
of the National Cancer Institute, 92(10):842-843, 2000.

    Senator Lautenberg. Thank you very much.
    Dr. Goldberg?

  STATEMENT OF MARVIN E. GOLDBERG, Ph.D., IRVING & IRENE BARD 
 PROFESSOR OF MARKETING, SMEAL COLLEGE OF BUSINESS, PENN STATE 
                           UNIVERSITY

    Dr. Goldberg. Thank you, Senator Lautenberg, I'm pleased to 
be here to testify.
    My consideration is that of advertising and promotion. From 
the 1950s, when filter tips were introduced, until 2006, the 
tobacco industry has spent roughly $235 billion, in 2006 
dollars, on advertising and promotion for cigarettes. That's 
over $10 million a day. In the last year, 2005, that we have 
data for, over $13.5 billion were spent. That's over $37 
million every day for that year.
    What do you get, or what does the tobacco industry get, for 
that? It gets imagery, over the decades, that is pounded into 
our, and especially youth's, heads, of vital, energetic, 
attractive people smoking what seems to be a pretty neutral 
product. The images of death and disease are far removed. It 
also buys, more latterly, tremendous positioning in the stores; 
in particular, convenience stores, where 60 percent of all 
cigarettes are sold. Not coincidentally--for 90 percent of the 
cigarette smokers that start before they're 18 years--not 
coincidentally, teenagers spend twice as much time in 
convenience stores, hanging out, as adults do. It buys 
positioning, it buys very significant advertising as the 
displays--colorful displays represent. The teenagers talk about 
what they see, and convince one another. The industry then 
says, ``It's not us, it's the kids talking about it and 
convincing each other.'' That's what we call, today, ``viral 
marketing.'' The virus is introduced--by the industry, however. 
It's the heavy, targeted advertising. And then the viral 
introducer says, ``I'm not part of this. It's kids influencing 
kids.'' Well, viral marketing--viral marketers understand that 
process.
    From 1967 to 1998, when we have the data from the FTC, if 
you look at the percentage of advertising that was allocated by 
the companies to light cigarettes--advertising for light 
cigarettes--and compare that to the sales for light 
cigarettes--what percentage did they represent?--we see that 
this was push marketing. It's not that the consumer sat out 
there and said, ``I want this product,'' it was pushed upon 
them. For example, in 1979, less than 30 percent of sales 
revenues to the tobacco industry came from light cigarettes, 
but almost 50 percent of their advertising dollars went to 
advertising of light cigarettes; 50 versus less than 30. They 
pushed this on the market.
    The main motivation that people have for smoking, as we've 
heard before, light cigarettes is the health issue. The tobacco 
industry recognizes that through their internal documents. When 
we have done studies on this, people look to less tar, less 
nicotine, less risk. About four out of five smokers say they 
smoke light cigarettes because of health reasons.
    We tried to develop a radio message, and when we developed 
it, we talked to focus groups to set up the actual script. We 
couldn't get people to believe that one light cigarette equaled 
one regular cigarette. We had to use a small white lie in our 
script. We said something like, ``Smoking a light cigarette is 
sort of like jumping off the 15th story of a building instead 
of the 20th story of the building.'' That little white lie, 
they could kind of buy. Today, people believe you need to smoke 
two or three light cigarettes to get the equivalent of a 
regular cigarette.
    The tobacco industry does something much better than tell 
you the cigarettes are healthier, they use a kind of 
syllogistic reasoning, ``Tar is unhealthy, we know that. Light 
cigarettes have less tar. Ergo, light cigarettes are 
healthier.'' The tobacco industry knows, as lawyers know, when 
you get the person you're trying to persuade to draw the 
conclusion themselves, you've done a better job at persuading. 
They've persuaded themselves that it must be true.
    Today, the R.J. Reynolds website reads, ``An individual's 
level of risk for serious disease is significantly affected by 
the type of tobacco product used.'' In other words, you can 
smoke a light cigarette, and you'll still be OK. What does 
Philip Morris say? ``There's no safe cigarette.'' If you think 
carefully about that, it means, logically, there can be a 
``safer'' cigarette.
    I'll stop here.
    Thank you.
    [The prepared statement of Dr. Goldberg follows:]

 Prepared Statement of Marvin E. Goldberg, Ph.D., Irving & Irene Bard 
     Professor of Marketing, Smeal College of Business, Penn State 
                               University
    The development of the market for light cigarettes was not driven 
by consumer demand or ``pull,'' but rather ``pushed'' by the tobacco 
firms' heavy marketing and promotion outlays and enabled by the 
deceptive messages regarding light cigarettes' ostensible health 
benefits.

    Smokers did not naturally gravitate to the experience of smoking 
low tar cigarettes. This was not a ``pull'' marketing phenomenon, where 
consumer demand drove sales, but rather a ``push'' phenomenon that was 
developed and shaped by the industry as a function of its deceptive 
claims for light cigarettes. Advertising and promotion for the light 
category drove the process with campaigns that continue to make the 
case through imagery and otherwise that smokers of light cigarettes are 
attractive, healthy and vigorous people engaging in attractive vigorous 
activities; (illness and disease are far removed from these scenes).
    From the 1950s (when the focus was on filters that ostensibly 
reduced tar levels) until 2006, the industry spent an estimated $235 
billion (in 2006 dollars) on advertising and promotion for cigarettes; 
(data drawn from Federal Trade Commission; FTC 2007; figures for years 
prior to 1970, 1971 through 1974, and 2006 are estimates). In 2005, the 
last year for which figures are available, the industry spent over 
$13.5 billion--about $37 million per day--on advertising and promoting 
cigarettes; (FTC 2007).
    The figure below illustrates: (1) the trend with regard to the 
percentage of the tobacco industry's advertising and promotion dollars 
that were allocated annually to light cigarettes from 1967 to 1998 the 
years that the FTC reported this data in their annual report on 
cigarettes (FTC 2000) and (2) the annual percentage of total cigarette 
sales represented by light cigarettes. As may be noted, ``Light'' 
cigarettes (defined as less than 15 mg. tar) came to dominate both 
categories.
    Also evident in the figure below--until the 1990s, the percentage 
of dollars allocated to advertising and promotion for the light 
cigarette category exceeded their share of market. In effect, the 
industry was investing in and driving the growth of this category. 
Ultimately, by the 1990s, given a ``ceiling effect'' (there is only so 
high that both percentages could realistically go) the two sets of 
percentages became more closely aligned.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As a parallel part of their advertising and promotion strategies, 
the tobacco industry has shaped ``viral marketing'' campaigns to ensure 
the success and popularity of light cigarettes.

    The tobacco industry has long understood how advertising and 
interpersonal influence combine to influence the individual smoker or 
potential smoker. The process starts with the intense advertising and 
promotion on the part of the industry. In the second step in this 
process, the message conveyed in the advertising is relayed by 
individuals as part of the ``bandwagon'' effect. This process has 
recently been labeled ``virus or viral'' marketing.

        . . . [T]he future belongs to marketers who establish a 
        foundation and process where interested people can market to 
        each other. Ignite consumer networks and then get out of the 
        way and let them talk;'' (Godin 2001, p.15; emphasis in the 
        original).

    Advertising and promotion serve to initiate discussion by both 
``opinion leaders'' and their ``followers'' who touch base with one 
another to assess the merits of what they have seen/heard. In this 
``multi-step flow'' of information those around us can and do influence 
us, but this influence comes as a consequence of the advertising and 
promotion to which we are exposed (Assael 2004). While an industry like 
the tobacco industry can try and point to the interpersonal influence 
process (people influencing people) it cannot absolve itself of the 
ultimate responsibility for the popularity, sales and consumption of 
the products they promote. As shown in the figure above, the tobacco 
industry chose to ``push market'' light cigarettes by investing heavily 
in advertising and promotion to ensure the growth of this segment. With 
the dollars they spent, together with the promise of reduced health 
risks, they succeeded in gaining the smoking public's attention for 
lights--and their purchase dollars. The ``bandwagon'' proved to be 
unstoppable, with the light cigarette category steadily increasing its 
share of market to the point where it currently accounts for the vast 
proportion of sales.
    In sum, it is important to recognize that this process, where a 
particular brand or a particular product category (such as lights) 
gains popularity as a function of person-to-person influence does not 
stand by itself. It is not an independent and competing source of 
influence, but properly understood as an integral part of the tobacco 
industry's global marketing process--their efforts to saturate society 
with misleading messages about cigarettes. By ``igniting consumer 
networks'' among peers, and co-opting the dynamics of person-to-person 
influence for their own commercial purposes, the companies need not be 
concerned with whether any particular person saw or was exposed to any 
particular advertisement. The tobacco companies understand that their 
massive marketing campaigns are akin to a ``virus'' where ``. . . the 
advertiser creates an environment in which the idea can replicate and 
spread. It's the virus that does the work, not the marketer'' (Godin 
2001; p. 26). In this way, the tobacco industry's advertising and 
promotion efforts are causally linked to smokers' and potential 
smokers' actions and choices.

    Internal corporate documents make it clear that the tobacco 
companies have long known that the health issue has been the main 
motivation for smokers to switch to lower tar/light brands.

    Consider the statements below from internal documents of Brown and 
Williamson, Philip Morris, R.J. Reynolds and Lorillard:

        Those who smoked their current brand for less than a year 
        switched for health purposes--to reduce the tar and nicotine 
        level instead of quitting (Brown & Williamson 1977).

        The largest group of all [brand switchers are] those who are 
        convinced that smoking is dangerous to their health and who are 
        torn between a conscience that urges them to quit and a 
        hedonistic desire to continue to do something they enjoy.

        The very fact, then, that a smoker has decided to switch from a 
        full-flavor cigarette to a low-delivery cigarette tells us 
        something very important about him: he is concerned about his 
        health, and he is willing to do something about it; (Philip 
        Morris 1978).

        As low-yield brands become more popular among adults . . . 
        modeling behavior may lead adolescents to smoke them as well. 
        Furthermore, such brands may become considered ``safer'', thus 
        leading teenagers to pay less attention to public health 
        campaigns designed to discourage initiation; (R.J. Reynolds 
        1980).

        Most smokers . . . do not really understand what tar and 
        nicotine are, or the difference between the two. ``Tar and 
        nicotine'' is a term commonly used as a single word. . . .  
        Those who smoke low tar and nicotine cigarettes generally do so 
        because they believe such cigarettes are ``better for you''--
        there is less tar and nicotine to do long-term damage; 
        (Lorillard 1976).

    Research has confirmed the conclusions drawn by tobacco industry 
executives as cited above: the factor leading smokers to low tar/lights 
is that they believe these cigarettes are `` `better for you.' ''

    Research has documented the salience of health factors in guiding 
smokers who switch to light cigarettes. Below I discuss two relevant 
studies in which I was second author: Kozlowski et al., (1998) and 
Kozlowski et al., (1999). Kozlowski et al (1998) reported on the 
following question posed to those who smoked light cigarettes: ``I'm 
going to ask you about reasons some people might give for smoking Light 
. . . cigarettes. For each one please tell me whether it is one of your 
reasons for smoking Light . . . cigarettes'' Five options were then 
read to the respondent: one of the options, taste, was discussed above; 
the remaining four involved ways that smokers of lights might believe 
that their cigarette held a health-related benefit: ``step to 
quitting,'' ``less risk,'' ``less tar,'' ``less nicotine.'' When the 
last three of the listed risk factors (``less risk,'' ``less tar,'' 
``less nicotine,'') were analyzed together, only 24 percent of the 
respondents failed to select at least one of these three options; in 
other words 76 percent answered affirmatively to at least one of the 
health-related benefits (as reported on p. 13). If one adds to this 
those who only selected the ``step to quitting,'' the percentage would 
no doubt climb beyond 80 percent; (while many, if not most smokers, are 
motivated to quit by health concerns, the ``quitting'' response was not 
part of this health-related benefits analysis).
    The same logic applies to the second of the studies I worked on 
with Kozlowski. (Kozlowski et al., 1999). Smokers of light cigarettes 
were asked to indicate which of four reasons they had for smoking 
lights; (they could select more than one of the reasons). While a 
separate analysis was not conducted, with 52 percent citing ``reduce 
tar/nicotine'' and 35 percent and 38 percent citing ``step toward 
quitting'' and ``reduce risk'' respectively, the percentage citing at 
least one of these factors would likely climb to 80 percent and beyond. 
(``Taste,'' the fourth reason is discussed fully below).

    First hand evidence also documents how successful Philip Morris and 
the rest of the tobacco industry have been in persuading smokers of low 
tar/light cigarettes are healthier.

    It should be noted that the actual purpose of the Kozlowski et al. 
(1999) study was to develop and assess the effectiveness of a ``radio'' 
message informing smokers about the true risk associated with smoking 
light cigarettes. In the formative steps leading to the development of 
the ``radio'' message, earlier drafts of the script were presented to 
focus groups consisting of smokers. These drafts tried to argue that 
there was ``no difference'' between light and regular cigarettes of 
light cigarettes. While the final version still took this approach, the 
smokers' reluctance to accept this argument led to the added statement 
that if there was any difference, it was a meaningless one; (smoking 
light cigarettes instead of regulars is ``Kind of like jumping off a 
15-story building instead of a 20-story building''). This is evidence 
of how successful tobacco marketers have been in convincing smokers 
that there is a health benefit associated with lights; stating that 
there was no difference in the risks associated with smoking lights 
versus regulars was so contrary to the views expressed in the focus 
groups, we had to ``bend'' the truth so as to ultimately be able to 
persuade smokers of light cigarettes.

    The tobacco industry has pointed to ostensibly conflicting data, 
arguing that these data demonstrate that smokers don't believe low tar/
light cigarettes are healthier and they choose lights for reasons other 
than health concerns.

     The industry has pointed to ostensibly conflicting data, arguing 
that these data demonstrate that smokers choose lights for reasons 
other than health concerns; for example, a 1975 survey by the U.S. 
Department of Health, Education & Welfare found that 40.6 percent of 
current smokers believed that all cigarettes are probably about equally 
dangerous.'' In 1975, the share of market for light cigarettes (below 
15 mg tar) was under 10 percent. As a result, the vast proportion of 
those defined as smokers in this survey would have been smokers of 
regular cigarettes. It is not at all surprising that smokers of regular 
cigarettes would attempt to justify their own smoking choice, thereby 
reducing the psychological discomfort/dissonance that would result from 
acknowledging that their choice (regulars) might be ``wrong'' and more 
harmful.
    Further explaining this phenomenon was the fact that when first 
introduced, Light cigarettes were considered relatively tasteless. As 
acknowledged by the tobacco industry as recently as April 21, 2005 
(transcript of Trial Record, United States of America, Department of 
Justice, Plaintiff v. Philip Morris USA et al., Defendants) when low-
tar cigarettes were introduced, the tobacco companies recognized that 
their taste was aversive--it was hardly seen as selling point for the 
light cigarette category.

        It took a long time for low-tar cigarettes to ever really catch 
        on in this country. . . . [The industry believed that] these 
        products will taste different, and unless the public health 
        community gives, gives people a reason to smoke them [i.e., 
        ``it's better for your health''], I don't think they're going 
        to be successful; (p. 19670).

    As such, they did not represent much of an alternative for smokers 
of regular cigarettes, despite the fact that held out the (false) hope 
of a ``safer'' cigarette; (as discussed below, this problem was 
eventually ``fixed'' with the advent of lights that yielded 
considerably more tar). Without shifting to lights as a way of reducing 
their cognitive dissonance, smokers of regular cigarettes had to take a 
different path to reduce their dissonance; to do so they developed 
``protective'' attitudes. If one can't change one's behavior and there 
are clearly negative aspects of that behavior, then changing one's 
attitudes toward the behavior in question is typically how one attempts 
to reduce the dissonance (Festinger 1957; Cohen and Kassarjian 1965). 
Given this psychological dynamic, it is not surprising that 40.6 
percent responded that that ``all cigarettes are about equally 
dangerous.'' Unwilling to shift to the tasteless lights, yet 
uncomfortable in the belief that lights were in some way ``better/
safer,'' it is somewhat surprising that the 40.6 percent figure was not 
still higher. Evidently, the ``message'' of light cigarettes' supposed 
health benefits was hard to ignore, for many of these regular smokers, 
notwithstanding the cognitive dissonance it generated.
    More recently, a study by Schiffman et al., (2001) sampled over 
2,120 smokers in a national telephone survey. Of these, 816 were 
smokers of light cigarettes. Fully 80 percent of the respondents 
believed that one had to smoke 2, 3 or more light cigarettes in order 
to get the same levels of tar delivery as in a regular cigarette. Since 
tar is typically regarded as a health-risk, 4 of 5 consumers conclude 
that the less of it, as in a light cigarette, the safer the cigarette. 
The evidence I present below strongly disputes that mistaken view.

    As part of their extensive advertising and promotion campaign for 
more than a half-century, the tobacco industry have promoted a type of 
syllogistic reasoning that encourages smokers of light/low tar 
cigarettes to believe they are at less risk.

    For over half a century, smokers have been led to believe that a 
cigarette that tastes ``milder'' and is ``less irritating'' must be 
better for them. As one example, 67 percent agree that ``lights are 
smoother on the throat and chest.'' Since smokers cannot know from 
simply examining a cigarette whether it is healthier than others or 
not, they need to rely on what they believe is indirect evidence 
(proxies); smooth and mild serve as such proxies. The syllogism goes: 
if mildness means less throat irritation, and less throat irritation 
means--in some way--a healthier cigarette, then mild, light cigarettes 
must be better for health.
    Similarly, if lights are said to have less tar/nicotine, and if it 
is understood that tar/nicotine have negative health consequences, the 
smoker is led syllogistically to the conclusion that Lights must be 
better for health; (less of the ``bad stuff''). The senior tobacco 
executives have engaged in these syllogisms and they believed their 
customers did as well. Consider the following responses by senior 
tobacco industry executives:

        Q. In terms of tar delivery, is there a health benefit between 
        a twelve milligram cigarette and an eight milligram cigarette?
        A. My position is that less is better than more. I believe that 
        if a person smokes a cigarette and receives 8 milligrams of 
        tar, that is better than smoking a cigarette and receiving 12 
        milligrams of tar.

        Written Direct testimony of Susan Ivey, CEO of R.J. Reynolds, 
        United States v. Philip Morris, 2005 (82:12-20).

        My understanding is I think, pretty common that . . . low tar 
        is better than high tar . . . there have been characteristics 
        associated with tar that are believed to be linked to health 
        issues, and lower tar is better than higher tar.

        Deposition of Ronald Bernstein, CEO of Liggett group, (in 
        United States v. Philip Morris, 2002 (35:4-36:9; emphasis 
        added).

        If something is--is identified as--as being potentially 
        harmful, having less of it would seemingly be better.

        Deposition of Ronald Bernstein in United States v. Philip 
        Morris, 2002 (25:19-26:5).

        Q. Don't you think that many people wanted low tar cigarettes 
        because they were led to believe that low tar cigarettes were 
        less dangerous to their health than high tar cigarettes?
        A. That may be a perception among some smokers . . . less is 
        best in all kinds of products, product categories.

        Donald Johnston, former CEO of American Tobacco in Broin v. 
        Philip Morris, 1994 (62:4-13).

    Importantly, in this type of syllogistic reasoning, where the 
conclusion is self-generated, consumers effectively persuade themselves 
and this process generates more favorable, stronger, more actionable 
brand attitudes--attitudes that translate into actual purchase 
decisions. Consumers are more likely to remember the message and have 
greater confidence in the brand attitude they have developed. These 
brand attitudes are likely to be more resistant to counter-persuasion 
(Kardes 1999; Heimbach and Jacoby 1972; Moore et al., 1986). In sum, 
this indirect, syllogistic approach, is more persuasive relative to 
directly putting forth the (false) conclusion that ``low tar/nicotine 
cigarettes are healthier for you.'' As expressed in a report prepared 
for Brown and Williamson: ``. . . the [advertising] copy should be 
ambiguous enough to allow the reader to fill-in his/her illogical-logic 
. . .'' (Marketing and Research Counselors, Inc. 1975, pp. 12-13).

    Internal tobacco company documents further indicate that while the 
Barclay brand may have done a better job in allowing for smoker 
``compensation'' than its competitors, the others in the industry also 
developed cigarettes that allowed for compensation; (Kozlowski 2005).

    As internal documents reveal, the tobacco industry recognized that 
it would be by allowing actual tar yields to increase that the 
cigarettes would come closer to tasting like regular cigarettes, and so 
gain in popularity. One way in which this was done was through ``micro-
vents'' found on the filters of most cigarettes. Research has 
documented that most smokers are not aware of the micro-vents or of 
their effects. The micro-vents are inadvertently (or sometimes 
intentionally) covered/blocked by the fingers/lips of smokers. This 
blocking has the effect of reducing the ventilation and increasing the 
levels of tar and nicotine the smoker receives. In a national survey, 
two-thirds (66 percent) of smokers of light cigarettes were either 
unaware of the vents or did not understand that vent blocking increased 
their exposure to tar.
    A carefully documented example of this type of compensation was the 
development of the cigarette ``Barclay'' and the reaction to it ( 
Kozlowski et al., 2005). In the design of the cigarette, not just the 
manufacturer of Barclay, but competitors as well, considered the 
compensation principle. In the Philip Morris documents cited below, the 
company acknowledged the compensation/tar/flavor link and also 
indicated that they sought to replicate the process.

        Product smokes differently in smoker's mouth than in dental dam 
        of smoking machine. Smoker's lips close channels (grooves) 
        between tipping paper and filter lowering dilution and 
        resulting in higher tar delivery; Meyer L.F. (1980; Philip 
        Morris document).

        This filter design results in some unusual delivery 
        characteristics when smoked by a human that do not occur during 
        machine smoking. . . . The dilution decrease to the [human] 
        smoker results in substantially higher tar delivery than would 
        be the case of a conventionally diluted all CA [cellulose 
        acetate] filter . . . Subjective impressions by flavor 
        development have corroborated the higher tar estimates . . . 
        filter process development to either duplicate or simulate the 
        Barclay effect is in progress. Houck W.G. (1980; Philip Morris 
        Document; emphasis added).

    The tobacco industry sought to take advantage of the multiple ways 
in which smokers' compensation alters the real tar yields for smokers 
as compared to machine-generated tar yields.

    Consider the following statements in internal corporate documents 
from R.J. Reynolds, Lorillard and Philip Morris:

        . . . [S]ome people change their smoking habits and attempt to 
        compensate for lower `tar' and nicotine deliveries, for 
        example, by taking larger puffs, more puffs, or smoking more 
        cigarettes; R.J. Reynolds 1978.

        . . .[S]mokers tend to deviate more from the standard (of the 
        FTC machine test] . . . with highly ventilated, low [tar/
        nicotine] yield brands. These kind of cigarettes generally . . 
        . make it easy to expend some extra puffing effort; Lorillard 
        1981.

        The smoker data collected in this study are in agreement with 
        results found in other project studies. The panelists smoked 
        the cigarettes according to physical properties; i.e., the 
        dilution and the lower RTD of Marlboro Lights caused the 
        smokers to take larger puffs on that cigarette than on Marlboro 
        85's. The larger puffs, in turn, increased the delivery of 
        Marlboro Lights proportionally. In effect, the Marlboro 85 
        smokers in this study did not achieve any reduction in smoke 
        intake by smoking a cigarette (Marlboro Lights) normally 
        considered low in delivery; (Philip Morris 1975).

    Promoting light cigarettes as extensions of major brands and 
aligning them with the mother brand (e.g., Marlboros, Marlboro Lights), 
helped shaped smokers' perceptions of their taste.

    At the same time as they developed light cigarettes that allowed 
for compensation, the tobacco companies learned how to boost the 
perceived strength of the taste, by using their advertising to shape 
the images associated with Lights. The companies viewed the taste 
dimension much as a ``Rorschach ink blot test.'' Light cigarette 
smokers could be induced to see/taste in the cigarettes what the 
companies wanted them to see/taste.

        . . . [I]t is almost impossible to know if the taste smokers 
        talk about is something which they, themselves attribute to a 
        cigarette or just a ``play-back'' of some advertising 
        messages;'' (Marketing and Research Counselors, Inc, 1975, p. 
        2).

    The industry further understood that they could ``borrow'' some of 
the brand equity established for their primary (regular) brands such as 
Marlboro Reds ad Camels for the benefit of the light cigarettes. They 
did so by creating brand extensions--Marlboro Lights, Camel Lights etc. 
and using the same advertising themes and imagery that had been so 
successful to shape the imagery associated with the light extensions. 
That this strategy could affect smokers perceptions of the light 
cigarettes taste, is recognized in their internal documents.

        . . . [O]ther free standing low tar brands such as Kent, 
        Vantage, Carlton, etc. were perceived to be weaker and have 
        less taste than the line extension low tars: like Marlboro 
        Lights, Winston Lights, Camel Lights. Apparently these line 
        extension low tars share the taste heritage of their parent 
        full flavor brands; (Philip Morris 1990, pp. 13-14; emphasis 
        added).

    When R.J. Reynolds sought to develop a low yield cigarette in 1976, 
they recognized the image problem associated with low-yield cigarettes 
and set out to address it:

        What we want is to portray the feeling and image projected by 
        Marlboro and Kool advertising on a Vantage/Merit type of 
        cigarette. In other words, put ``balls'' (two of them) on a low 
        ``tar'' and nicotine cigarette and position; Hind et al., 1976, 
        p. 63.

    The tobacco industry has acknowledged that the taste of regular 
cigarettes hardly serves as a positive benchmark.

    One needs to question whether the ``standard'' for taste set by 
regular cigarettes is such that the taste of regular cigarettes is a 
positive feature? Are regular cigarettes inherently ``tasty?'' Internal 
documents indicate that the tobacco companies believed that the initial 
taste for (typically underage) starter smokers was aversive and sought 
to take measures to compensate for this. As early as 1959, a Philip 
Morris document focused on ``mildness'' as a strategy for attracting 
young starters: ``we also should win more young non-smokers with 
mildness;'' (memo from W.H. Danker to R. N. DuPuis May 28, 1959). With 
nearly nine in ten smokers starting before age 18 and more than half of 
these smoking regularly by 18 (Lynch and Bonnie 1994; USDHHS 1994), it 
is clear that ``young non-smokers'' was referring to those under 18.
    In 1974, R.J. Reynolds considered flavored cigarettes as a way of 
masking the tobacco taste. A meeting at the R.J. Reynolds offices 
resulted in a memo titled ``New Products.'' Under the authorship of J. 
Donati of Taitham-Laird & Rudner, an R.J. Reynolds advertising agency, 
the memo served to define a ``Cigarette Designed for Beginning 
Smokers.''

        This cigarette would be low in irritation and possibly contain 
        an added flavor to make it easier for those who have never 
        smoked to acquire the taste for it more quickly; (J. Donati 
        (1974; emphasis added)).

    After considering flavors including ``citrus, apple, grape, herbs 
and spices, cola, coffee, chocolate and hickory'' the options for 
further work were narrowed to cola, coffee and chocolate. Today R.J. 
Reynolds markets flavors like ``Mocha Taboo'' and ``Midnight Berry'' 
through its ``Kool'' brand. This strategy would suggest that the 
company believes that the taste of tobacco is best when masked.

    The tobacco industry has advanced the ``taste'' of low tar/lights 
cigarettes as the primary reason they are chosen by smokers. When 
questioned about the role of this false and illusory dimension of low 
tar/light smokers' responses are often misleading.

    When smokers are asked why they smoke light cigarettes, significant 
numbers may respond that it is because of the ``taste.'' This is 
understandable--they first experience the cigarette on their tongue and 
in their mouth--the most apparent locus of taste. But research tells us 
that ``taste'' is a good deal more than what we experience on our 
tongue. Twenty years ago, the Coca Cola company was concerned about 
losing market share among young cola drinkers to Pepsi Cola. Research 
suggested that younger consumers appeared to prefer the slightly 
sweeter taste of Pepsi. In response, Coca Cola developed a sweeter 
version of their product and proceeded to extensively test market it in 
blind taste tests across the country. Repeatedly and reliably in blind 
taste tests, consumers indicated that they preferred the sweeter 
version to the regular Coke. With that evidence in hand, Coke 
introduced ``New Coke'' with the new, sweeter formula. What happened 
next was shocking to Coke. Once the product they were drinking was 
labeled Coke, that knowledge impacted how they evaluated what they 
tasted--now they hated it. Within 3 months Coke had retreated and was 
pushing its original formula ``Classic'' Coke again (Fournier 1999; 
rev. 2001).
    That taste is, at least in part, a function of how products are 
portrayed/labeled and advertised has been carefully researched in the 
context of ``field'' experiments with foods. In one such experiment, 
the same lunch meals were sold in a university faculty cafeteria but 
were labeled differently on different days. For example, on some days 
one such meal was identified as ``Succulent Italian Seafood filet'' but 
on other days merely as ``Seafood Filet.'' Those who bought and ate the 
foods when they were described in an embellished way reported that: the 
foods were more appealing to the eye; they tasted significantly better; 
and after eating the meal they food felt more ``comfortably full and 
satisfied;'' (Wansink et al., 2004).
    Interestingly, when desserts were labeled ``healthy'' (e.g., 
``chocolate pudding vs. ``healthy chocolate pudding; apple crisp vs. 
healthy apple crisp). they were rated as tastier. The researchers 
reasoned, that as long as the dessert actually tasted good, consumers' 
initially lower expectations regarding something labeled ``healthy'' 
would be disconfirmed; that is, they would have been surprised by the 
good taste. Pleasantly surprised, the unexpected contrast between their 
actual and expected experience would have led them to evaluate the 
taste of the dessert more positively than someone who had seen the 
dessert label without the adjective ``healthy;'' (Wansink et al., 
2004b).
    Smokers of regular cigarettes who switched to what they perceived 
to be ``healthier,'' light cigarettes, would have had a parallel 
disconfirming experience. These smokers would have expected light 
cigarettes to yield less taste (along with less tar). However, given 
the compensatory smoking behavior described above, light cigarettes 
yielded just as much tar/taste. As a result, the pleasantly surprised 
light cigarette smokers were quick to focus on the taste as the 
apparent motivation for smoking lights.
    As with the food experiments cited above, if questioned, smokers 
are almost certainly not going to be aware of how the label ``light'' 
(and hence the inference ``healthier'') influence their perceptions of 
the cigarette's taste. They revert to the more proximal evidence--what 
they believe they experience--on their tongues--and their answer as to 
why they smoke the cigarette they do smoke may reflect that logic.
In two court cases where both Philip Morris and R.J. Reynolds sued 
        Loews/ Lorillard, it was evident that these tobacco companies 
        do not believe that smokers are primarily guided by taste in 
        selecting light cigarettes.
    The plaintiff firms, Philip Morris and R.J. Reynolds argued that in 
a comparative taste test, smokers reported that the Lorillard low tar 
brand tasted better than the comparison brand only if they were first 
told that Lorillard's brand had lower tar than either the R.J. Reynolds 
or the Philip Morris comparison brand. When (other) smokers made the 
same comparative taste test without being reminded of the relative tar 
levels, their taste preferences were very different.
    The basis of both suits was the approach taken in two parallel 
Lorillard surveys asking smokers to compare the taste of its low tar 
``Triumph'' to R.J. Reynolds' Winston Lights and to Philip Morris' 
Merit. Subsequent Lorillard advertising claimed that the preponderance 
of the smokers tested appeared to prefer the taste of Triumph over 
Winston Lights and that it was the ``National Taste Test Winner'' over 
Merit. Both plaintiffs Philip Morris and R.J. Reynolds argued that 
these claims were deceptive inasmuch as the taste question posed in 
each survey had, as a preface, a reminder of the lower tar scores for 
Triumph relative to those for Winston Light and for Merit. Each of the 
plaintiff companies ran a test of their own, where the tar scores for 
the two brands were not revealed and the resulting taste preferences in 
their research were very different.
    These comparisons suggest how much of what is ostensibly labeled as 
``taste'' is influenced by other factors; in this case, the salience of 
how ``light''/low tar a cigarette might be. In effect, the plaintiff 
firms acknowledge that where smokers are reminded of tar yields, the 
relative tar levels and not taste are the determining factors in the 
smokers' evaluations of the cigarettes; (R.J. Reynolds Tobacco Company, 
Plaintiff, v. Loew's Theatres, Inc; No. 80 Civ 4197 (RWS) United States 
District Court for the Southern District of New York; 511 F. Supp. 867; 
1980 U.S. Dist. LEXIS 16738; 210 U.S.P.Q. (BNA) 291; October 24, 1980; 
Philip Morris Incorporated, Plaintiff, v. Loew's Theatres, Inc., No. 80 
Civ. 4082 (RWS) United States District Court for the Southern District 
of New York; 511 F. Supp. 855; 1980 U.S. Dist. LEXIS 12554 July 26, 
1980).
    Of course, for decades the tobacco companies have used low tar/
lightness as a critical way of selling cigarettes and have made that 
dimension very salient for smokers. Following the logic presented 
above, it is reasonable to expect that when respondents are asked, they 
may say that ``taste'' is the reason they prefer light/low tar 
cigarettes. Note, however, that following the logic of the two court 
cases discussed above, the causal sequence is, in fact, reversed. In 
actuality, it is because their cigarettes are light (and advertising 
and promotion continue to make that dimension salient) that smokers say 
they prefer the taste. They would not say so for the same cigarette, if 
its ``lightness'' was not made salient.
The tobacco industry has misleadingly used lighter colors (whites and 
        pastels) on the cigarette packages and in their advertising to 
        persuade smokers that low tar/light cigarettes were purer and 
        healthier.

    Because consumers often cannot directly judge the merits of a 
product claim, they develop heuristics or ``rules of thumb'' which 
involve relying on ``proxies'' for the real evidence they are seeking. 
For example, consider how difficult it is to judge how ``fresh'' fish 
in a supermarket is. Supermarket executives have come to realize that 
for some consumers, fish sitting on a styrofoam tray represents a proxy 
conveying ``not fresh,'' while fish sitting on ice represents a proxy 
conveying ``fresh.''
    It is for the same reason that the tobacco industry has signaled 
the lighter, milder and ostensibly purer and safer features of light 
cigarettes, by using lighter colors in their advertising and on their 
packaging. Tobacco firms have been consistent and strategic in 
developing this tactic. Consider the following statements (as cited in 
the National Cancer Institute's Monograph 13, p. 217) by Philip Morris 
and the British American Tobacco Co. respectively:

        . . . [W]hen Marlboro Lights was first introduced in 1971 . . . 
        the advertising was dramatically different . . . first using 
        water color executions, then big pack sots, a lot of white 
        space and a small cowboy visual. (Philip Morris 1990, p. 6).

        Light-lighter-lightest were achieved by insistance [sic] on 
        lighter presentations-product story imagery--white packs--pale 
        colours--mildness dominated copy. (British American Tobacco 
        Company, circa 1985, p. 13).

    A number of other examples of this strategy are cited in Chapter 7 
of Monograph 13, including the Philip Morris, Parliament campaign where 
models were consistently dressed in all white and placed in all white 
environments (National Cancer Instititute; Monograph 13, p. 218). As 
Koten (1980; cited in Monograph 13 on p. 218) concludes:

        Red packs connote strong flavor, green packs connote coolness 
        or menthol and white packs suggest that a cigarette [sic] is 
        low-tar. White means sanitary and safe. And if you put a low-
        tar cigarette [sic] in a red package, people say it tastes 
        stronger than the same cigarette [sic] packaged in white. 
        (Koten, 1980, p. 22).

    More broadly, to ask people to provide reasons for their behavior; 
i.e., why they do what they do is to ask them to play the role of 
social scientist in explaining their behavior; research has shown that 
is a very risky endeavor. People develop ``theories'' as to why they 
behave as they do and use both these theories and the most proximal 
evidence in support of these theories, to explain their behavior. 
Sometimes these theories and evidence are accurate, but very often they 
are not. One reason they are often incorrect is that people tend to use 
evidence that is proximal and are less alert/sensitive to more subtle, 
complex and distal causes of their behavior (Nisbett and Ross 1980). 
Thus when asked about the taste of the dessert, those in the cafeteria 
focus on their taste buds and are not likely to be sensitive to the 
influence of the ``healthy'' label placed on the dessert on the 
cafeteria line and on the resulting effect of their positive reaction. 
When asked about why they smoke light cigarettes, smokers focus on the 
proximate evidence--their taste buds; they are much less aware of how 
the label ``light'' subtly influences their attitudes and behaviors, as 
well as their compensatory smoking behavior (as described above).

    Still today, the industry is not forthcoming about the risks of 
smoking light cigarettes.

    It is only recently that R.J. Reynolds has come to curtly 
acknowledge that ``Smoking causes serious disease'' (R.J. Reynolds 
website; accessed Aug. 26, 2007). However, the website goes on to 
provide the (would be) smoker with considerable ``wiggle room'' to 
justify (continued) smoking:

        An individual's level of risk for serious disease is 
        significantly affected by the type of tobacco product used as 
        well as the manner and ``frequency of use;'' (R.J. Reynolds 
        website; accessed August 26, 2007).

    In effect, smokers are still encouraged to search for a safer 
``type of tobacco product''--most typically a ``light'' one. 
Alternatively, they are encouraged to alter their ``manner of . . . 
use.'' The latter suggestion runs directly contrary (as discussed 
below) to the widely accepted ``compensation'' smoking behavior which 
smokers of light cigarettes use.
    The Philip Morris website is more expansive in ostensibly accepting 
the public health position regarding the risks of smoking any 
cigarette:

        Philip Morris USA agrees with the overwhelming medical and 
        scientific consensus that cigarette smoking causes lung cancer, 
        heart disease, emphysema and other serious diseases in smokers. 
        Smokers are far more likely to develop serious diseases, like 
        lung cancer, than non-smokers. There is no safe cigarette. . . 
        . Philip Morris USA agrees with the overwhelming medical and 
        scientific consensus that cigarette smoking is addictive. It 
        can be very difficult to quit smoking, but this should not 
        deter smokers who want to quit from trying to do so; (emphasis 
        added) Philip Morris website, accessed August 26, 2007).

        To reduce the health effects of smoking, the best thing to do 
        is to quit; public health authorities do not endorse either 
        smoking fewer cigarettes or switching to lower tar and nicotine 
        brands as a satisfactory way of reducing risk. (Philip Morris 
        USA website, accessed August 26, 2007).

    While Philip Morris gives voice to the public health community's 
view that lower tar and nicotine (light) brands do not reduce the risk 
of smoking, the company is careful not to endorse that view. Further, 
as has been noted (Kozlowski 2005), to say there is ``no safe 
cigarette'' still allows the smoker to take false comfort in the 
mistaken belief that light cigarettes may be ``safer.''
References
    Assael, Henry (2004), Consumer Behavior; a Strategic Approach 
Boston MA: Houghton Mifflin Company; pp. 466-468.
    Burrows, Diane. S. (1984), ``Strategic Research Report'' R.J. 
Reynolds Document, (Feb. 29).
    Cohen, Joel and Harold Kassarjian (1965), ``Cognitive Dissonance 
and Consumer Behavior,'' California Management Review (Fall) 55-64.
    Donati, John, (1974), New Products. (June 5), Taitham-Laird & 
Kudner.
    Federal Trade Commission. 2000. Federal Trade Commission. Available 
at http://www.ftc.gov/ (accessed July 7, 2004). Federal Trade 
Commission. 2004. Federal Trade Commission. Available at http://
www.ftc.gov/ (accessed July 8, 2004).
    Federal Trade Commission (2007) Federal Trade Commission Cigarette 
Report for 
2004 and 2005. URL: http://search.ftc.gov/
query.html?qt=cigarette+report+2004+
2005&col=hsr&col=news&col=full_ access date: June 11, 2007.
    Festinger, Leon (1957), A Theory of Cognitive Dissonance, New York: 
Harper & Row.
    Fournier, Susan (1999; Revised 2001), ``Introducing New Coke,'' 
Case: 9-500-067; Harvard Business School Publishing Boston MA.
    Heimbach, James T. and Jacob, Jacoby (1972), ``The Zeigarnik Effect 
in Advertising,'' Proceedings of the Third Annual Conference of the 
Association of Consumer Research, 746-758.
    Houck, W.G. (1980) Status of Barclay studies, (Philip Morris 
Document; September 29); Bates No. 1000785893. http://
legacy.library.ucsf.edu/tid/ivu54e00.
    Kardes, Frank (1998) Consumer Behavior: Managerial Decision Making. 
Addison Wesley.
    Kozlowski, L.T., et al., (2005) An Extremely Compensatable 
Cigarette by Design: Documentary Evidence on Industry Awareness and 
Reactions to the Barclay Filter Design Cheating the Tar Testing 
System.'' Tobacco Control, 14(64-70).
    --------, B.Q. Edwards (2005) ``Not Safe'' is not Enough: Smokers 
Have a Right to Know More than There is No Safe Tobacco Product,'' 
Tobacco Control, 14(suppl. II):ii3-ii7.
    --------, M. Goldberg, B.A. Yost, F.M. Ahern, K.R. Aronson, C.T. 
Sweeney (1996), ``Smokers are unaware of the Filter Vents Now on Most 
Cigarettes: Results of a National Survey,'' Tobacco Control, 5:265-270.
    Lorillard (1981), ``Estimation of the Amount of smoke Obtained by 
Human Smokers from Different Cigarette Brands,'' Memo from V. Norman to 
Dr. F.J. Shultz, (Aug. 31).
    Meyer L.F. (1980), Report on the Barclay Cigarette. (Sept. 15; 
Philip Morris document); Bates no. 2028681570/1578, http://legacy 
library.ucsf.edu/tid/kyo25e00.
    Moore, David J., Richard Beardon and Francis Durso (1986), ``The 
Generation Effect in Advertising Appeals,'' Advances in Consumer 
Research, (13), 117-120.
    Nisbett, Richard and Lee Ross (1980), ``Human Inference: Strategies 
and Shortcomings of Social Judgment,'' Chapter 9: ``The Lay Scientist 
Self Examined,'' Prentice-Hall: Englewood Cliffs, NJ.
    Philip Morris (1959) Roper Attitude Study of January 1959, Memo 
from W.H. Danker to Dr. R.N. DuPuis, (May 28, 1959).
    Philip Morris (1975), ``Marlboro-Marlboro Lights Study Delivery 
Data,'' Memo from B. Goodman to L.F. Meyer, (Sept. 17).
    R.J. Reynolds (1978), `` `Tar'/Nicotine Control and Smoking 
Satisfaction,'' Report authored by Donald H. Piehl, (May 9).
    Shiffman, Saul, J.L. Pilliteri, S.L. Burton, J.M. Rohay, and J.G. 
Gitchell (2001), ``Smokers Beliefs about `Light' and `Ultra Light' 
cigarettes,'' Tobacco Control, (10)(Suppl. 1):i17-i23.
    Wansink, Brian K., Van Ittersum and J.E. Painter (2004), ``How 
Descriptive Food Names Bias Sensory Perceptions in Restaurants,'' Food 
Quality and Preference, in press, pp. 1-7.
    Wansink, Brian K., Van Ittersum and J.E. Painter (2004b), ``How 
Diet and Health Labels Influence Taste and Satiation,'' Journal of Food 
Science, 69 (9) s340-s346.

    Senator Lautenberg. Thank you very much.
    Dr. Goldberg, your testimony reflects what I think is the 
most obvious, and I asked in a couple of earlier questions, and 
I thank you.
    Mr. Sheller?

        STATEMENT OF STEPHEN A. SHELLER, ESQ., FOUNDER 
              AND MANAGING PARTNER, SHELLER, P.C.

    Mr. Sheller. Yes. Thank you, Senator Lautenberg.
    And I'm sort of sad and angry at the FTC; I'll be frank 
with you. You know, I've practiced law for more than 40 years, 
and I'm here to tell you about the effects of the FTC's failure 
to do its job. And I want to just bring to your attention two 
Federal judges who have reviewed this.
    One Federal judge once phrased it this way, ``The tobacco 
industry may be the king of concealment and disinformation.''
    And Judge Kessler, in--Gladys Kessler--in U.S. v. Philip 
Morris, declared the Philip Morris companies to be racketeers. 
Racketeers. That's a quote. She said, ``Even as they engaged in 
a campaign to market and promote filtered and low-tar 
cigarettes as less harmful than conventional ones, defendants 
either lacked evidence to substantiate their claims or knew 
them to be false.'' She goes on to say, ``There is an 
overwhelming consensus in the public health and scientific 
community, both here and abroad, that low-tar cigarettes offer 
no health benefit to smokers, have not reduced the risk of lung 
cancer and heart disease, and, for smokers using them, have not 
produced any decrease in the incidence of lung cancer. 
Moreover, because of the misleading nature of the advertising 
for low-tar cigarettes, smokers who might have quit have 
refrained from doing so, in the belief that such cigarettes 
reduce their health risk.'' She didn't just make that up, she 
heard the evidence for months; for months.
    Now, what has happened in litigation? You know, I've been 
practicing law for some 40 years now. And, Senator Lautenberg, 
you recall, back in early 1998, your aide, Dan Katz, tried to 
do something about this. And I sent you the evidence I had 
personally collected from the depositions I had done that 
established, even within the company, they believed it to be a 
fraud; even within the companies.
    Now, what has happened today? I'll tell you what's happened 
today. We have 40 lawsuits that have been filed involving the 
light-cigarette scam in class actions in 22 different states. 
There are certified--meaning they're grouped together--class 
actions pending in Massachusetts, Missouri, and New York. 
However, the industry has used the FTC's--and I'll call it 
``clear misconduct''--they are like--either it's intentional or 
they are like--what's that famous children's nursery rhyme? I 
think it was called--I forget her name now--Rip Van Winkle. Rip 
Van Winkle. In fact, I would have hoped that the Director of 
the FTC would have been the one to testify, because I was going 
to call her Mrs. Rip Van Winkle. They have had the audacity to 
come before you today and told you they knew about this for 
years, but they don't want to do anything about it. The reason 
they don't want to do anything about it, I'll tell you, because 
the tobacco industry is using this vehicle of their laziness 
and incompetence, on the level of a Katrina or worse, 
government incompetence, to give them a defense. They go into 
court and say, ``Well, the FTC has been regulating us for 
years.'' In fact, there was an even an FTC witness--his name 
escapes me for the moment, but I think it was Peter--Dr. 
Peterman--John Peterman--worked for the FTC from 1976 to 1993. 
He came in to court rooms--and I was involved, as you know, in 
the Illinois $10 billion verdict. Again, a judge found them 
guilty of all kinds of terrible things. That got reversed by 
the Supreme Court of Illinois, based on the FTC's supposed 
regulation of the industry.
    Now, they come here today with the purpose of telling you, 
``We're going to do something someday, but we want to see what 
else is better.'' The time--the buck has stopped. You must 
issue a--legislation--because they won't do anything--you must 
immediately legislate a ban on tar and nicotine levels being 
monitored, period. They're--the tobacco industry, by the way, 
has machines which are called ``human mimic smoking machines.'' 
They know what the real numbers could be. But I add something 
to you today. All tar is not equal. There are different tars 
coming out of those cigarettes; depends on the burn level. I 
know the chemistry quite well, I've learned it over the years. 
The other element of it is--that is very, very important--is, 
they have gone into court and used these guys as their defense. 
It's a disgrace. It shouldn't be accepted.
    So, I ask you to move quickly and listen to what two 
judges--Federal judges--have already said. One called them the 
worst example--the king of disinformation. Another called them 
racketeers. What else do you need? And the FTC sits there? I 
think it's time that you really began to take action.
    Thank you.
    [The prepared statement of Mr. Sheller follows:]

        Prepared Statement of Stephen A. Sheller, Esq., Founder 
                  and Managing Partner, Sheller, P.C.
    Good afternoon. I have practiced law for more than 40 years. In 
that time, I have initiated many lawsuits involving medical 
malpractice, toxic torts, medical device and drug product and complex 
catastrophic personal injuries. For the past 13 years, I have also 
dedicated a substantial portion of my practice to litigation involving 
the cigarette companies. While, as one Federal judge once phrased it, 
``the tobacco industry may be the king of concealment and 
disinformation,'' \1\ the so-called light cigarette fraud is the most 
shameless example of outright fraud by this industry I have yet to 
encounter.
---------------------------------------------------------------------------
    \1\ Haines v. Liggett Group, Inc., 140 F.R.D. 681 (D.N.J. 1992). 
The judge was H. Lee Sarokin.
---------------------------------------------------------------------------
    I have researched industry practices around light cigarettes and 
have worked with a number of attorneys around the country to file 
consumer fraud class actions against the cigarette manufacturers that 
seek compensation for customers who bought these cigarettes that were 
sold and marketed as ``light,'' but were, in fact, not really lower in 
tar or nicotine and certainly were not any less hazardous than so-
called ``full flavor'' brands. This is accomplished by designing the 
cigarette to create misleading readings on puff machines using a 
technique for measuring tar and nicotine known as the FTC Method.
    The principal allegation in light cigarette lawsuits is that 
cigarette manufacturers have misled consumers by marketing light and 
low tar cigarettes as having less tar and nicotine than other brands, 
even though the actual exposure levels are no different. Those who 
smoked (and continue to smoke) light cigarettes, reasonably believing 
they were being exposed to less tar or nicotine, are seeking court-
ordered damages for their losses. I believe that there have been about 
40 lawsuits filed in 22 different states on the light cigarette issue. 
Certified class actions are pending in Massachusetts, Missouri, and New 
York at this time.
    In fact, there is good reason to believe so called, ``light, 
smooth, mild'' cigarettes are potentially more dangerous to ones health 
than ``full flavor'' cigarettes.
    An important key to uncovering the light cigarette fraud was 
Monograph 13 released by the National Cancer Institute in 2001.\2\ That 
monograph concludes that ``cigarette manufacturers recognized the 
inherent deception of advertising that offered cigarettes as light 
[and] . . . as having the lowest tar and nicotine yields . . .'' but 
went ahead anyway with that advertising. Shortly after the release of 
the monograph, it was announced that the FTC asked for guidance from 
DHHS to determine whether the FTC testing method could be improved and 
a working group was to convene in 2002, but I am unaware of any 
outcomes from this request for guidance.\3\ The FTC appears to have 
gone to sleep as Rip Van Winkle did in the famous children's story and 
clearly needs Congress to wake them up.
---------------------------------------------------------------------------
    \2\ Nat'l Cancer Inst., Risks Associated with Smoking Cigarettes 
with Low Machine-Measured Yields of Tar and Nicotine, Smoking and 
Tobacco Control Monograph 13, Nat'l Inst. of Health (Donald Shopland, 
David Burns, et al., eds., 2001).
    \3\ See NCI's ``Questions and Answers on Monograph 13'' at Question 
7, viewed at http://www.cancer.gov/newscenter/monograph13-QA/
print?page=&keyword=.
---------------------------------------------------------------------------
    What has been happening in these lawsuits is that the cigarette 
companies have been using the lack of clarity around regulation of 
testing accuracy and the regulatory role of the FTC in two distinct and 
important ways:

        1. The cigarette companies claim that the use of the terms 
        ``light'' and ``lowered tar and nicotine'' are regulated by the 
        FTC and, therefore, state consumer protection laws' exemption 
        for federally regulated products defeats our state law claims 
        of fraud. In the only light cigarette class action to go to 
        trial, a verdict against Philip Morris for around $10 billion 
        dollars was reversed by the Illinois Supreme Court in a 4-3 
        decision.

        That Court relied largely on a 1971 Consent Order with American 
        Tobacco Company over the marketing campaign for the Pall Mall 
        Gold 100's and Lucky Filters that required American tobacco to 
        print tar and nicotine comparisons with other brands for 
        advertising that claimed these 2 brands of cigarettes were low, 
        lower, or reduced in tar than other brands. This one consent 
        order dealing with one company's ad campaign hardly constitutes 
        FTC adoption of a trade regulation or even a regulatory 
        approach to the use of the terms ``light'' and ``lowered tar 
        and nicotine'' which are at the heart of the light cigarette 
        fraud. Nonetheless, this argument is being raised repeatedly by 
        cigarette industry defendants in ongoing litigation.

        2. The cigarette companies have, until this summer, removed 
        light cigarette class action lawsuits from state to Federal 
        courts under the ruse that the companies are acting as agents 
        under a Federal officer and are, therefore, entitled to a 
        Federal court venue under the Federal Officer Removal 
        Statute.\4\ This argument, while absurd on its face, was 
        successful in several cases and created expense, delay, and, 
        most importantly, the assumption that the companies were simply 
        following the regulatory requirements set down by the FTC 
        around their products and should be immune to any claims of 
        fraud. Ultimately, this argument was defeated by the U.S. 
        Supreme Court on June 11 of this year in a unanimous decision 
        \5\ that echoed the conclusion of the Solicitor General that 
        the FTC has not asserted control over the marketing of light 
        cigarettes.
---------------------------------------------------------------------------
    \4\ U.S.C. sec. 1442(a)(1).
    \5\ Watson, et al., v. Philip Morris Companies, Inc., 551 U.S.__The 
 (2007).
---------------------------------------------------------------------------
Court Remedies
    The courts in many jurisdictions either refuse to certify a class, 
or reverse the certification of a class in the appellate courts, 
thereby sanctifying the tobacco industry's misconduct and allowing them 
to continue this misconduct as we sit here. A solution is to consider 
legislation requiring that these cases be handled and certified as 
class actions, to encourage attorneys to take on what would ordinarily 
be a lawsuit on behalf of one individual with a very small damage 
claim. The tobacco industry knows that if a lawsuit cannot go forward 
as a class this will be the death knell of consumer claims. In 
addition, any money not claimed by consumers that is paid as part of a 
class action award by the tobacco industry, should be contributed to a 
cy pres fund.
    This enormous fraud on the American people must stop. Federal 
legislation is needed to protect consumers from the cigarette 
industry's practices with their ``light'' brands and defrauded 
consumers should have the right to be compensated for their loss. I 
think that U.S. District Judge Gladys Kessler got it right when she 
ruled last year that the cigarette companies were racketeers in U.S. v. 
Philip Morris. About the light cigarette fraud, she said:

        ``Even as they engaged in a campaign to market and promote 
        filtered and low tar cigarettes as less harmful than 
        conventional ones, Defendants either lacked evidence to 
        substantiate their claims or knew them to be false''.\6\
---------------------------------------------------------------------------
    \6\ United States v. Philip Morris USA, Inc., 449 F. Supp. 2d 1 
(D.D.C. 2006) at 430.

---------------------------------------------------------------------------
    She goes on to say:

        ``There is an overwhelming consensus in the public health and 
        scientific community, both here and abroad, that low tar 
        cigarettes offer no health benefit to smokers, have not reduced 
        the risk of lung cancer and heart disease for smokers using 
        them, and have not produced any decrease in the incidence of 
        lung cancer. Moreover, because of the misleading nature of the 
        advertising for low tar cigarettes, smokers who might have quit 
        have refrained from doing so in the belief that such cigarettes 
        reduced their health risks''.

    Thank you for taking up this important issue.

    Senator Lautenberg. Thank you very much. The--I admire the 
candor that shows up here. And I don't want to show any bias; 
that's not Senator-like.
    [Laughter.]
    Senator Lautenberg. But I also don't like the fact that 
somehow or other, over 400,000 people a year die of smoking-
related disease. And so, when I think about the anguish and the 
grief that occurs and the impact on people's ability to 
function as they live, as a result of having had a career in 
smoking, I'll call it, and then the cost for their 
unhealthiness is distributed among the population and runs 
close to $89 billion a year for that. It's a terrible thing to 
witness.
    Dr. Samet, I think you said that switching to light/low-tar 
cigarettes doesn't cause fewer--well, let me not put words in 
your mouth. Does switching to light and low-tar cigarettes 
actually cause fewer people to quit smoking?
    Dr. Samet. So, the concern is, the--does the availability 
of products that are perceived as carrying a lower risk lead to 
switching? And I think that has been demonstrated to be the 
case for some proportion of smokers. The concern is that people 
might move to a lower-yield product instead of doing what they 
should do, which is to quit. And there is some evidence to 
suggest that that can be the case.
    Senator Lautenberg. I think I noted, in some information, 
that people who had actually quit smoking for some time had 
come back to smoking, based on the attraction that low-tar 
offered, at least in advertising. Do we have any information, 
any of you, of that happening?
    Dr. Henningfield. People are constantly coming back to 
smoking, for a lot of reasons. The information that we do have 
is that, when there are surveys, such as national telephone-
based surveys, asking people what would attract them to smoking 
or coming back to smoking, what is attractive to people are 
cigarettes that appear to be safer. And this has been very 
scary, from a public health perspective, because when someone 
has quit, they're on the road to health, and it's terrible, the 
idea that they might be lured back to smoking, thinking that 
the products are substantially safer or flat-out safe.
    Senator Lautenberg. Remind us, how long have the tobacco 
companies been aware of the smoker compensation, the period of 
time when smokers take longer, deeper puffs to compensate for 
lower amounts of nicotine?
    Dr. Henningfield. A number of us have looked at the 
documents. I testified in the Department of Justice trial. And, 
since at least the 1970s, if not decades before, the companies 
understood that these cigarettes delivered more than 
advertised.
    Mr. Sheller. It's----
    Senator Lautenberg. Mr. Sheller, do you have----
    Mr. Sheller. Yes. Actually, it was before the consent 
decree in 1970 that they were so happy to--no decree--voluntary 
agreement to use this deceitful trick. They were well aware of 
it, and they just decided, ``Oh, it would be great,'' as it's 
now another way that they've avoided responsibility.
    But you have the documents, actually, which were given in 
1986--as the discovery we did. We--you know, they knew all 
about it. It's in evidence. And time has--as I said, it's no 
longer the FTC's turn. They've fumbled the ball. You know, your 
committee has to have oversight of them. They had the audacity 
to come in here today and tell you, ``We've--we may do 
something soon, when we get--we're not expert in it, we don't 
know what we're doing. We need help from this one and that 
one.'' That's been their story for years. Put an end to it, 
please.
    Senator Lautenberg. In earlier testimony regarding smoking 
and its cost, we found out that the awareness of the tobacco 
companies about the lethality of the product they were selling 
and the addiction went back to the--I believe it was the middle 
1930s when that information first was made available.
    Mr. Sheller. Yes.
    Senator Lautenberg. And, Dr. Henningfield, when switching 
to light cigarettes, are those smokers conscious of the fact 
that they're breathing deeper, that they're working harder to 
fulfill the need they feel to get the nicotine in their 
systems?
    Dr. Henningfield. Actually, to the contrary, a lot of 
people believe that they are actually inhaling something less 
toxic, because it is smoother and cooler. In other words, the 
cigarette, which may be as deadly or more deadly, actually 
feels smoother and cooler by using chemicals like menthol, by 
using ventilation to cool the smoke. It's like putting a lot of 
alcohol in a fruit beverage. And so people are deceived in many 
different ways; and then, with the marketing, of course.
    Mr. Sheller. Yes, I've called it strawberry syrup on 
strychnine. Poison.
    Senator Lautenberg. It sounds mild, in your description.
    Dr. Goldberg. We actually have data that two-thirds of 
smokers either don't know about the microvents or don't know 
that they contribute to the amount of tar that they get.
    Senator Lautenberg. Why are cigarettes allowed to use the 
word ``light'' without having any light benefit? Isn't that 
simply deceiving consumers while the government looks the other 
way, Dr. Henningfield?
    Dr. Henningfield. Well, I think it reflects the problem--I 
think that cigarette regulation by the Federal Trade Commission 
is not their area of competence. I do not believe that the 
problem was intentional. But this sort of regulation is bread 
and butter to agencies, like the Food and Drug Administration, 
which set standards for light products. And if you look at the 
food rule from the early 1990s, you see specific criteria for 
use of the term ``light.'' You see them saying, ``you can't use 
the term `ultra light,' because it's not meaningful.'' Then 
there are specific standards. Most of the cigarette companies 
sell other products, or the major ones do, they sell Kraft 
cheese, for example, that is ``light.'' That cheese has to meet 
certain standards that are objective.
    Senator Lautenberg. The--my folks were able to dig out some 
packs of cigarettes I--I don't know whether you're--all of you 
are aware, but we were able to persuade the--Rules Committee to 
ban the sale of cigarettes throughout the Capitol. And it's 
just taking place. And, if anything, it seemed kind of 
backward. Here we are, preaching the gospel, and downstairs 
they're selling the tools for addiction. And so, we are--that--
as of, I think, it's the first of the year, that they will no 
longer be available. There are sales now--and I'm not 
advertising--of cigarettes at lower prices to clear out the 
inventory.
    But all of these facts--and I don't mean to pick up out any 
of them--but the reference is, ``Surgeon General's Warning: 
Cigarette smoke contains carbon monoxide.'' Now, wouldn't you 
think that would scare the devil out of those people who are 
buying cigarettes? Carbon monoxide? Say you can get that from 
your car if you--well, if you want to end--we have different 
packages. This one is--they give it a number on this package--
this is called Camel number 9. It is a beautiful package, but 
carrying almost a lethal message. Here, they're more specific, 
``Surgeon General's Warning: Smoking causes lung cancer, heart 
disease, emphysema, and may complicate pregnancies.'' This one 
really--Mr. Sheller, you managed to, I think, get some 
justifiable anger about what we see, but here's this ad. It 
says, ``Camels, light and luscious.'' Now----
    Mr. Sheller. You should see what they mail my daughter at 
home. I have a daughter who's at Temple University, finishing 
up this year as--becoming a special-ed teacher. And, because 
she's over 21, somehow or other they found her. She doesn't 
smoke, but we get things in the mail--I've been saving them--
that are mind-boggling from the cigarette companies.
    Senator Lautenberg. Well, we're--we've learned a lot, but 
we haven't yet learned enough. And I'm hoping that we can use 
the knowledge that we've gained here today, with your help, to 
really do something about this.
    Dr. Goldberg. Senator, if I could, in response--when you 
say things like, ``There are awful things like carbon 
monoxide,'' et cetera, we often think of this dispassionate 
person to whom the message is addressed. And, as you've said, 
this is--you know, there is a wonderful study that shows, when 
you show a Harvard/Yale football game, way back in the 1950s, 
to Harvard and Yale people, they each tell you that the other 
side was terrible, in terms of the penalties and infractions. 
They're committed to a particular perspective. Well, smokers 
are, too. They're very committed. They're addicted. And so, 
we're not talking about a reasonable person dispassionately 
considering the information.
    Senator Lautenberg. How about--we all remember when a 
doctor was advertised as preferring one cigarette to another.
    Mr. Sheller. Oh, yes. With a white coat.
    Senator Lautenberg. I thank you all for your testimony. 
We're going to adjourn this hearing.
    And I note, Mr. Sheller, that your admonition that Congress 
should act swiftly----
    Mr. Sheller. Yes.
    Senator Lautenberg.--to stop allowing companies to make 
light and low-tar claims based on the FTC Method, we'll look at 
that very closely.
    Mr. Sheller. Thank you----
    Senator Lautenberg. With that----
    Mr. Sheller.--Senator Lautenberg.
    Senator Lautenberg.--this hearing is adjourned. And, once 
again, thank you all.
    [Whereupon, at 3:59 p.m., the hearing was adjourned.]
                            A P P E N D I X

Prepared Statement of Hon. Pamela Jones Harbour, Commissioner, Federal 
                            Trade Commission
    Today, the Commission approves testimony to be presented on 
November 13, 2007 before the Senate Committee on Commerce, Science, and 
Transportation concerning the Federal Trade Commission's Tar and 
Nicotine Rating System. I concur in the decision to present testimony 
providing an overview of the FTC's responsibilities and activities in 
the area of tobacco advertising and a discussion of cigarette testing 
and the promotion of cigarettes based on machine-measured tar and 
nicotine yields. I also concur in the Commission's recommendation that 
Congress consider giving authority over cigarette testing to one of the 
Federal Government's science-based public health agencies.
    However, I would also recommend that steps be taken to prohibit the 
use of any claims based on the Cambridge Filter Method--also known as 
``FTC Method''--for testing tar and nicotine. See the attached May 10, 
2007 letter to the Hon. Frank R. Lautenberg. The tobacco industry has 
known for decades that the FTC Method does not accurately measure the 
amount of tar and nicotine a person consumes from a cigarette. 
Prohibiting the use of claims based on the FTC Method would remove the 
FTC's apparent imprimatur from cigarette labels and ads.
                                 ______
                                 
                                   Federal Trade Commission
                                       Washington, DC, May 10, 2007
Hon. Frank R. Lautenberg,
U.S. Senate,
Washington, DC.

    Dear Senator Lautenberg:

    I send this letter to express my support for S. 625, the Family 
Smoking Prevention and Tobacco Control Act.\1\ The bill creates a 
reasonable framework to oversee the manufacture, sale, advertising, and 
marketing of tobacco products. Notably, the bill includes several key 
consumer protection measures.
---------------------------------------------------------------------------
    \1\ This letter reflects my own views. It does not purport to 
represent the views of the Commission or any other Commissioner.
---------------------------------------------------------------------------
    First, the bill allows the Food and Drug Administration to regulate 
tobacco products. This is a critical starting point. The FDA has lacked 
adequate authority in this area for decades, and tobacco manufacturers 
have exploited the void. The bill authorizes FDA scientists to track, 
analyze, and regulate the components of tobacco products. At last, the 
FDA will have more effective tools to protect the public's health.
    Second, the bill properly assigns--to manufacturers themselves--the 
burden of substantiating ``modified risk'' claims, such as ``light,'' 
``low tar.'' and ``reduced exposure.'' Consumers' choices are 
influenced by these claims. If a manufacturer says that its tobacco 
product poses a reduced risk, the manufacturer should be required to 
substantiate the claim with competent evidence that can be evaluated by 
scientists. This bill will compel manufacturers of tobacco products to 
provide scientific data, which will enable scientists to scrutinize 
modified-risk claims and determine whether the claims can be made 
responsibly.
    The bill gives the FDA authority to establish new testing 
procedures and disclosures about tar and nicotine. However, an 
additional provision is needed to ensure that consumers receive 
accurate information about tar and nicotine levels. Thus, the bill 
should prohibit the use of any claims based on the so-called ``FTC 
Method.'' Such a provision would be similar to the prohibition in your 
bill, S. 3872. The tobacco industry has known for decades that the FTC 
Method does not accurately measure the amount of tar and nicotine a 
person consumes from a cigarette. Since 1999, the FTC has publicly 
stated its concerns about the Method's accuracy. It distresses me that 
a small number of cigarette manufacturers still invoke the name of the 
FTC when claiming low tar and nicotine content. By prohibiting the use 
of claims based on the FTC Method, the bill would remove the FTC's 
apparent imprimatur from cigarette labels and ads.
    Third, the bill appropriately preserves coordination between the 
FTC and the FDA in enforcing labeling and marketing requirements, 
particularly as they relate to children. This kind of enforcement is a 
core element of the FTC' s consumer protection mission. The bill wisely 
preserves the FTC's jurisdiction over unfair or deceptive cigarette 
advertising. I am especially pleased that advertising in violation of 
the proposed Act also will be deemed a violation of a rule promulgated 
under Section 18 of the FTC Act. Civil penalty authority is an 
important tool in the FTC's enforcement arsenal. By enabling the FTC to 
seek civil penalties immediately when a violation of the proposed Act 
is found, the Act will further enhance the agency's authority to stop 
misleading and youth-oriented advertising.
    I thank you for your leadership in sponsoring the bipartisan Family 
Smoking Prevention and Tobacco Control Act. The regulation of the 
manufacture, sale, advertising, and marketing of tobacco products is a 
tall order, but it is crucial for the health of our country, 
particularly its young people. I hope that action on the bill will 
advance the dialogue and push Federal health agencies to step up to the 
plate on this issue.
    Please contact me if I may provide any assistance to you as the 
bill moves forward.
            Sincerely,
                                      Pamela Jones Harbour,
                                                      Commissioner.
                                 ______
                                 

   American Journal of Public Health--December 2006, Vol. 96, No. 12

    Effect of Televised, Tobacco Company-Funded Smoking Prevention 
 Advertising on Youth Smoking-Related Beliefs, Intentions, and Behavior

   by Melanie Wakefield, Ph.D., Yvonne Terry-McElrath, M.S.A, Sherry 
  Emery, Ph.D., Henry Saffer, Ph.D., Frank J. Chaloupka, Ph.D., Glen 
Szczypka, B.A., Brian Flay, Ph.D., Patrick M. O'Malley, Ph.D., Lloyd D. 
                            Johnston, Ph.D.

    Objective. To relate exposure to televised youth smoking prevention 
advertising to youths' smoking beliefs, intentions, and behaviors.
    Methods. We obtained commercial television ratings data from 75 
U.S. media markets, and to determine the average youth exposure to 
tobacco company youth-targeted and parent-targeted smoking prevention 
advertising. We merged these data with nationally representative 
school-based survey data (n = 103,172) gathered from 1999 to 2002. 
Multivariate regression models controlled for individual, geographic, 
and tobacco policy factors, and other televised antitobacco 
advertising.
    Results. There was little relation between exposure to tobacco 
company-sponsored, youth-targeted advertising and youth smoking 
outcomes. Among youths in grades 10 and 12, during the 4 months leading 
up to survey administration, each additional viewing of a tobacco 
company parent-targeted advertisement was, on average, associated with 
lower perceived harm of smoking (odds ratio [OR] = 0.93; confidence 
interval [CI] = 0.88, 0.98), stronger approval of smoking (OR = 1.11; 
CI = 1.03, 1.20), stronger intentions to smoke in the future (OR = 
1.12; CI = .04, 1.21), and greater likelihood of having smoked in the 
past 30 days (OR = 1.12; CI = .04, 1.19).
    Conclusions. Exposure to tobacco company youth-targeted smoking 
prevention advertising generally had no beneficial outcomes for youths. 
Exposure to tobacco company parent-targeted advertising may have 
harmful effects on youth, especially among youths in grades 10 and 12. 
(Am J Public Health. 2006; 96: 2154-2160.. doi:10.2105/
AJPH.2005.083352)
    The tobacco industry has actively attempted to remake its public 
image in response to evidence that it marketed products to youth and 
misled the public about smoking health risks.\1\ \2\ This effort has 
included public education campaigns to communicate that youths should 
not smoke.\3\ In December 1998, Philip Morris launched a national $100 
million television campaign the company described as targeted to youths 
aged 10-14 years.\4\ The primary message was that youths do not need to 
smoke to fit in socially with their peers, and the campaign delivers 
the slogan ``Think. Don't Smoke.'' Although this campaign ended on U.S. 
television in January 2003, the ads continue to be broadcast in other 
countries.\5\ In October 1999, and with a budget of around $13 
million,\6\ Lorillard Tobacco Company also launched a U.S.-televised 
youth smoking prevention campaign with the slogan, ``Tobacco is Whacko 
if You're a Teen.'' \4\
    In mid-July 1999, Philip Morris launched a campaign that emphasized 
parental responsibility for talking to children about smoking; the 
slogan was ``Talk. They'll Listen.'' \7\ This parent-focused youth 
smoking prevention campaign has featured a variety of television ads 
and continues today. The overt message of these ads is that parents 
should talk to their children about not smoking.
    Few studies have examined the potential affect of youth-focused 
tobacco company-sponsored advertising. Of those, most have only 
assessed immediate appraisals of the advertisements by youths,\8\ \9\ 
\10\ or the relation between ads and attitudes thought to be predictive 
of smoking behavior change,\11\ rather than smoking behavior itself. No 
studies have examined the effects of tobacco company parent-focused 
advertising on youth. Because advertising that may influence youth 
smoking has also been broadcast at various times and intensities by 
tobacco control programs,\12\ it is a complicated matter to establish 
the relative influence of tobacco company-sponsored advertising.
    The objective of this study was to assess the relation between 
exposure to tobacco company youth smoking prevention advertising and 
youth smoking-related beliefs, intentions, and behavior in a 
representative sample of American secondary school students. The study 
includes youth-targeted and parent-targeted advertising. The study 
sample included the primary target age group of the youth-targeted ads 
(grade 8, mean age 14 years), as well as older youths in grades 10 and 
12 (mean ages 16 and 18 years, respectively). We used objective media 
monitoring data to measure potential exposure of youths to different 
sources of advertising, as opposed to self-reported measures of 
exposure that can be correlated with openness to change in smoking 
behavior.\13\
Methods
Advertising Data
    Nielsen Media Research provided data on the occurrence of all 
smoking-related advertisements that appeared on network and cable 
television across the largest 75 U.S. television media market areas 
during 1999-2002. These 75 markets accounted for 78 percent of American 
viewing households.\14\ A media market is defined by a group of 
nonoverlapping counties forming a major metropolitan area. Data are on 
the basis of individual ratings of television programs obtained by 
monitoring household audiences across media markets. Ratings provide an 
estimate of the percentage of households with televisions that watch a 
program or advertisement in a media market over a specified time 
interval.\15\ The advertising exposure measure used in our study is 
based on Target Rating Points (TRPs) for the population aged 12-17 
years. In these analyses, TRPs were aggregated each month; 100 TRPs are 
equal to an average of 1 potential advertisement exposure per month for 
all youth aged 12-17 years within a media market. TRPs represent 
potential average exposure; actual exposure for any given individual 
would vary on the basis of actual television viewing. In this study, 
all the tobacco company parent-targeted advertising was from Philip 
Morris. However, tobacco company youth-targeted advertising was 
broadcast by Philip Morris and Lorillard; Philip Morris made up 90.8 
percent of the total TRPs in 1999, 93.0 percent in 2000, 85.2 percent 
in 2001, and 37.5 percent in 2002.
    Monthly TRP data were merged with nationally representative data 
collected during 1999-2002 from the Monitoring the Future school 
survey.\16\ Data were collected from February to June each year from 
samples of students in grades 8, 10, and 12, drawn to be representative 
of all students in the specified grade for the 48 contiguous states. 
All surveys were self-completed and group-administered in school 
settings.
Dependent Variables
    Separate analyses were conducted for each of the following self-
reported dependent variables: recall of antitobacco advertising at 
least weekly (1 = seeing antitobacco commercials on television or 
hearing them on the radio at least once a week in recent months); 
approval of smoking (1 = don't disapprove of people smoking * 1 pack a 
day (grades 8 and 10), or don't disapprove of people (aged 18 years or 
older) smoking * 1 pack a day (grade 12); perceived enjoyment of life 
by smokers (1 = no disagreement with the statement that smokers know 
how to enjoy life more than nonsmokers); preference for dating 
nonsmokers (1 = no preference for dating nonsmokers); perceived 
exaggeration of smoking harm (1 = no disagreement with the statement 
that the harmful effects of smoking have been exaggerated); perception 
that being a smoker reflects poor judgment (1 = do not agree that being 
a smoker reflects poor judgment); perception that smoking is a dirty 
habit (1 = do not agree that smoking is a dirty habit); perceived harm 
of smoking (1 = believe people risk ``great harm'' to themselves by 
smoking * 1 pack of cigarettes a day); intentions to be smoking in 5 
years time (0 = definitely will not be smoking cigarettes in 5 years; 1 
= other \17\); smoking in the past 30 days (1 = any cigarette smoking 
in the past 30 days); and consumption among current smokers, as 
measured by a 6-point scale: less than 1 cigarette/day (0.5), 1-5 
cigarettes/day (3.0), about .5 pack/day (10), about 1 pack/day (20), 
about 1.5 pack/day (30), and 2 or more packs/day (40). The natural log 
of this scale was used in all models.\18\
    The school survey randomly allocates students to several different 
forms of survey questionnaires to maximize the number of questions 
asked of students. Although all students are asked about smoking 
behavior (current smoking and consumption), only some forms contain 
questions on recall of advertising, and smoking-related attitudes and 
intentions. For this reason, different numbers of students respond to 
each outcome measure. The total number of students included in each 
model is specified in table footnotes.
Independent Variables
    Advertising exposure for each student was calculated to reflect the 
cumulative effect of repeated potential exposure to tobacco industry 
advertising and gave greater weight to more recent 
exposure.<SUP>19-21</SUP> Thus, in analyses, individual student 
potential exposure to tobacco industry advertising was reflected by the 
sum of TRPs for the month in which the school survey was completed, 
plus the sum of depreciated TRPs from the 3 previous months. On the 
basis of the work of Pollay and colleagues,\21\ a depreciation value of 
0.3 was specified as noted in the equation.

                (1) 
                Adstock<INF>t</INF>=Ad<INF>t</INF>+lAd<INF>(t-1)</INF>+l
                <SUP>2</SUP>Ad<INF>(t-2)</INF>+l<SUP>3</SUP>Ad<INF>(t-3)</INF>


where Adstock is the total effective advertising, l is set at the 
specified value of 0.3 as noted above, and Ad indicates ad sponsor TRPs 
for time periods t, t-1, t-2, and t-3. A range of values for l were 
examined. Because results were highly similar, l was set at 0.3, 
consistent with previously published data by Emery and colleagues \22\ 
on the effect of state tobacco control ads. The depreciated sum was 
scaled by dividing by 100. The resulting TRP exposure value represents 
the depreciated average number of times that advertising from a 
particular sponsor was potentially seen by 100 percent of the youth 
aged 12-17 years in each media market over the 4 months leading up to 
each specific school's date of survey participation. Thus, students 
within the same media market were assigned different advertising 
exposures, depending on the month in which their school was surveyed. 
However, within media markets, students in each school were assigned 
the same advertising exposure values, because they completed the survey 
on the same date. Smoking-related outcomes were modeled using 
continuous versions of depreciated TRPs for youth-targeted and parent-
targeted advertising.
Statistical Analyses and Covariates
    Our analyses used survey commands in Stata (Stata Corp, College 
Station, Tex) for descriptive population estimates and multivariate 
regression models (SVYLOGISTIC for dichotomous outcomes; SVYREG for the 
models of cigarette consumption using the natural log of the 
consumption scale). The complex multistage sample design was accounted 
for by using sampling weights to adjust for differential selection 
probabilities, and by using Taylor linearization-based variance 
estimators to adjust for clustering by school and compute robust 
standard errors.
    Initially, for each type of tobacco company advertising, we tested 
several functional forms, including quadratic and threshold models, to 
explore whether the relations between exposure and outcomes were 
nonlinear. The linear models fit the data best, and are reported here. 
Thus, odds ratios refer to change in the likelihood of each outcome 
measure, on the basis of each additional advertisement viewed, on 
average, in the 4 months leading up to the date of survey 
administration.
    For tobacco company youth-targeted advertising, we first ran models 
for all students combined and controlled for: (1) competing advertising 
exposure from 2 types of campaigns: tobacco control (including state 
and national American Legacy Foundation campaigns) and tobacco company 
parent-targeted advertising; (2) individual sociodemographics: gender, 
race/ethnicity, average parental education, dual parent household, 
grade point average, 3 or more evenings out a week for fun/recreation, 
past-month truancy, year, region, and student-earned income; and (3) 
state tobacco policy variables: average real price per pack of 
cigarettes \22\ and a smoke-free air index measuring the 
comprehensiveness of state smoke-free laws. The smoke-free air index 
values depended on the number, type, and level of protection for smoke-
free locations, and whether the state had the authority to preempt 
local smoke-free regulations.\22\ On the basis that the primary target 
group of the tobacco company youth-targeted advertising was youths aged 
10-14 years and that middle- (grade 8, mean age 14 years) and high-
school (grades 10 and 12, mean ages 16 and 18 years, respectively) 
students are at very different developmental stages, we ran separate 
models for grade 8 versus grades 10 and 12. In the model for grades 10 
and 12, a dummy variable for grade 12 was also included. This analysis 
process was repeated to examine the relation between tobacco company 
parent-targeted advertising and youth smoking outcomes (with the 
exception that competing advertising exposure for tobacco company 
youth-targeted advertising was included as a covariate).
    We conducted sensitivity analyses to explore the robustness of 
findings for outcomes of greatest concern. Because advertising and 
policy variables were correlated, we excluded each tobacco policy 
variable and tobacco control campaign exposure, to explore if observed 
relations changed in a systematic way. In addition, we were able to 
include information on student-reported frequency of television 
watching as a covariate in models of smoking prevalence and 
consumption, because these questions occurred on the same survey form 
as television watching questions for all 3 grades. In this set of 
analyses, the school survey item measured self-reported average weekday 
television viewing as a continuous variable (a 7-point scale ranging 
from 0 to 5+ hours).
Results
    After retaining cases that had no missing data for covariates and 
at least 1 of the specified dependent variables, 103,172 students 
remained in the analytic sample; 36 percent were students in grade 8 
and 64 percent were students in grades 10 and 12. Table 1 shows that 
20.8 percent of the sample population had smoked in the last 30 days 
and average daily consumption for these smokers was 5.43 cigarettes.
    On average, students had been exposed to 4.77 depreciated potential 
viewings of tobacco company youth-targeted advertising and 1.13 
potential viewings of tobacco company parent-targeted advertising in 
the 4-month period leading up to the survey. As expected from the 
diverse timing and intensity of these campaigns, there was variation 
between students, with a range of 0 to 14.51 viewings of tobacco 
company youth-targeted ads, and a range of 0 to 4.13 viewings of 
tobacco company parent-targeted ads. There was also variation in 
exposure to tobacco control campaigns (mean 6.88 viewings; for state 
antitobacco campaigns, mean = 1.66 [range = 0-19.14]; for the American 
Legacy Foundation, mean = 5.23 [range = 0-21.85]).
    After we controlled for covariates, increased exposure to tobacco 
company youth-targeted advertising among all students was generally 
unrelated to recall of televised anti-tobacco advertising or to smoking 
beliefs or behavior (Table 2). However, on average, each additional ad 
viewed was associated with a 3 percent stronger intention to smoke in 
the future (OR = 1.03; CI = 1.01, 1.05). When analyzed separately for 
middle- and high-school students, higher exposure to tobacco company 
youth-targeted advertising was unrelated to any outcome for students in 
grades 10 and 12. For students in grade 8, higher exposure was 
associated with stronger intentions to smoke in the future (OR = 1.04; 
CI = 1.01, 1.08). Inclusion of self-reported frequency of television 
watching as a covariate did not change the finding that there was no 
relation between increased tobacco company youth-targeted advertising 
and smoking in the past 30 days, or consumption among smokers. (Data 
for students who smoked in the past 30 days: all students OR = 0.99; CI 
= 0.96, 1.01; grade 8 OR = 0.99; CI = 0.95, 1.04; grades 10 and 12 OR = 
0.99; CI = 0.96, 1.01. Data for consumption among smokers: all students 
Parameter estimate = -.008, P > .05; grade 8 Parameter estimate = 
-.014, P > .05; grades 10 and 12 Parameter estimate = -.004, P > .05.)
    After adjusting for covariates, Table 2 shows that among all 
students combined, each additional tobacco industry parent-targeted ad 
was associated with a lower likelihood of recalling antitobacco 
advertising (OR = 0.87; CI = 0.82, 0.92), lower perceived harm of 
smoking (OR = 0.95; CI = 0.92, 1.00), stronger intentions to smoke in 
future (OR = 1.12; CI = 1.05, 1.19), and a greater likelihood of 
smoking in the past 30 days (OR = 1.10; CI = 1.03, 1.17).
    Separate models for middle- and high-school students indicated 
that, among students in grade 8, greater tobacco company parent-
targeted advertising exposure was related to lower odds of recalling 
antitobacco advertising (OR = 0.86; CI = 0.78, 0.94), a greater 
likelihood of perceiving the harms associated with smoking have been 
exaggerated (OR = 1.07; CI = 1.01, 1.13), and stronger intentions to 
smoke in the future (OR = 1.10; CI = 1.00, 1.21). Among students in 
grades 10 and 12, higher advertising exposure was also associated with 
less likelihood of recalling antitobacco advertising (OR = 0.86; CI = 
0.80, 0.94), stronger approval of smoking (OR = 1.11; CI = 1.03, 1.20), 
lower perceived harm of smoking (OR = 0.93; CI = 0.88, 0.98), stronger 
intentions to smoke in future (OR = 1.12; CI = 1.04, 1.21), and a 
greater likelihood of smoking in the past 30 days (OR = 1.12; CI = 
1.04, 1.19). Each additional ad exposure during the 4 months leading up 
to survey administration, on average, was associated with a 12 percent 
increase in the likelihood that students in grades 10 and 12 had smoked 
in the past 30 days.
    In sensitivity analyses among students in grades 10 and 12, where 
relations of most concern were found, exclusion of cigarette price or 
strength of smoke-free air index generally did not systematically 
influence the relation between increasing tobacco company parent-
targeted advertising and stronger approval of smoking, lower perceived 
harm of smoking, stronger intentions to smoke in the future, or greater 
likelihood of smoking in the past 30 days (Table 3). When tobacco-
control ad exposure was removed, relations persisted between increasing 
tobacco company parent-targeted ad exposure and stronger approval of 
smoking as well as smoking in the past 30 days, but were weakened for 
perceived harm of smoking and intention to smoke in the future.

   Table 1.--Sample Characteristics of Students in 8th, 10th, and 12th
                            Grade: 1999-2002
------------------------------------------------------------------------
                                 Weighted No.    Percentage      Mean
------------------------------------------------------------------------
              Independent control variables (N = 103,172) a

Middle school (grade 8)                                36.0
High school (grades 10 and                             64.0
 12)
Male                                                   47.3
Race/ethnicity
White                                                  71.6
African American                                       12.0
Hispanic                                               10.9
Other                                                   5.5
Lives with both parents                                75.0
Regularly out  3 nights/wk                             44.5
Skipped or cut school in the                           19.4
 past month
Earned income, $                                                 1-15/wk
                                                                (median)
Parental education (range: 1-                                       3.99
 6) b
Average school grade (range:                                        6.22
 1-9) c
Real price/pack of                                                  1.92
 cigarettes, $ (range: $1.32-
 $2.86)
Smoke-free air index (range: -                                     13.15
 22.50-51.00)
Region
    Northeast                                          21.5
    Midwest                                            28.0
    West                                               18.8
    South                                              31.7

                  Independent variables (N = 103172) a

Average tobacco industry                                            1.13
 parent-targeted exposure d
(range: 0.00- 4.13)
Average tobacco industry                                            4.77
 youth-targeted exposure d
(range: 0.09-14.51)
Average tobacco control                                             6.88
 exposure d (range: 0.00-
 23.90)

                          Dependent variables e

Recall antitobacco ads on TV            28,768         62.4
 or radio at least weekly (1
 = yes)
Approve of others/adults                65,388         22.7
 smoking  1 pack per day (1 =
 yes) f
Do not prefer to date                   37,645         22.6
 nonsmokers (1 = yes)
Feel that smokers know how to           37,685         16.2
 enjoy life more than
 nonsmokers (1 = yes)
Feel the harmful effects of             37,240         34.2
 cigarettes have been
 exaggerated (1 = yes)
Do not feel that being a                37,343         39.6
 smoker reflects poor
 judgment (1 = yes)
Do not feel that smoking is a           37,320         27.5
 dirty habit (1 = yes)
Perceive great harm in                  95,952         69.6
 smoking  1 packs/day (1 =
 yes)
Intend to smoke in 5 years (1           34,047         39.1
 = yes)
Smoked in the past 30 days (1          101,720         20.8
 = yes)
Consumption frequency among             19,581                      5.43
 current smokers
(.5, 3, 10, 20, 30,40) g
------------------------------------------------------------------------
a Number of students was obtained by retaining only cases with valid
  data for all independent control variables, and valid data on at least
  1 of the specified dependent variables.
b Parental education was a scaled value ranging from 1 to 6, and was a
  combined average of mother's and father's highest level of education,
  where 1 = grade school or less, 2 = some high school, 3 = high school
  completion, 4 = some college, 5 = college completion, and 6 = graduate
  school.
c Average school grade was a 9-item scale where 1 = D and 9 = A.A mean
  of 6 indicates a B.
d Exposure to specific ads during the 4 months before the school survey.
  Advertising exposure data reported at the student level and not at the
  media market level, because students within the same media market will
  have different average exposures on the basis of their school survey
  date.
e Possible Ns for dependent variables varied, because not all items were
  asked of all students.
f Students in grades 8 and 10 were asked about disapproval of others'
  smoking; students in grade 12 were asked about disapproval of adults'
  smoking.
g Consumption was measured by a 6-point scale: less than 1 cigarette/day
  (0.5), 1-5 cigarettes/day (3.0), about 0.5 pack/day (10), about 1 pack/
  day (20), about 1.5 pack/day (30), and 2 or more packs/day (40). The
  natural log of this scale was used in all models.

    When self-reported frequency of television watching was included as 
a covariate, the relation between tobacco company parent-targeted ad 
exposure and current smoking was unchanged for students in grade 8 (OR 
= 1.11; CI = 0.99, 1.25, not significant) but was strengthened among 
students in grades 10 and 12 (OR = 1.14; CI = 1.05, 1.25, P < .01). 
Control for television watching did not change the previously 
nonsignificant results for cigarette consumption (grade 8: Parameter 
estimate = -.068, P > 0.5; grades 10 and 12: Parameter estimate= -.016, 
P > .05).
    In models of students in all three grade levels, higher cigarette 
price was associated with lower consumption among current smokers 
(Parameter estimate = -.002, SE = 0.001, P < .05), and stronger smoke-
free laws were associated with a lower likelihood of smoking in the 
past 30 days (OR = 0.99; CI = 0.99, 1.00, P = .01 [data not shown]). In 
addition, consistent with previous studies,\11\ \22\ we observed 
expected relations between increasing exposure to tobacco control 
campaign advertising and higher recall of antitobacco advertising (OR = 
1.04; CI = 1.03, 1.04, P < .001), more protective beliefs about smoking 
(e.g., increased perceived harm of smoking) (OR = 1.01; CI = 1.00, 
1.02, P < .01), weakened intentions to smoke in future (OR = 0.98; CI = 
0.97, 0.99, P < .001), and a lower likelihood of smoking in the past 30 
days (OR = 0.99; CI = 0.98, 1.00, P < .01).
Discussion
    Overall, we found no systematic associations between increased 
exposure to tobacco company youth-targeted smoking prevention 
advertising and smoking outcomes among American youths. We found that 
increased exposure to tobacco company parent-targeted smoking 
prevention advertising was associated with lower recall of antitobacco 
advertising and stronger intentions to smoke in the future for all 
students. Among students in grade 8, tobacco company parent-targeted 
advertising was related to stronger beliefs that the harms associated 
with smoking have been exaggerated, and among students in grades 10 and 
12, was associated with lower perceived harm of smoking, stronger 
approval of smoking, and a higher likelihood of having smoked in the 
past 30 days. Importantly, the results for smoking prevalence among 
students in grades 10 and 12 were not systematically influenced by 
correlations between price and strength of smoke-free air laws, or 
tobacco control advertising exposure, although some models were less 
robust when tobacco control ad exposure was removed as a covariate.

 Table 2.--Odds Ratios for Each Unit Increase in Number of Ads Viewed, With 95% Confidence Intervals (CIs), for Smoking-Related Beliefs and Behavior and
                                           Tobacco Industry Smoking Prevention Advertising Exposure: 1999-2002
--------------------------------------------------------------------------------------------------------------------------------------------------------
                               Exposure, all students a                 Exposure, 8th Grade Students b         Exposure, 10th and 12th Grade Students c
                     -----------------------------------------------------------------------------------------------------------------------------------
                        Youth-Targeted d      Parent-Targeted e     Youth-Targeted d      Parent-Targeted e     Youth-Targeted d      Parent-Targeted e
--------------------------------------------------------------------------------------------------------------------------------------------------------
Recall antitobacco       1.00 (0.98, 1.02)  0.87*** (0.82, 0.92)     0.99 (0.96, 1.02)   0.86** (0.78, 0.94)     1.01 (0.98, 1.03)   0.86** (0.80, 0.94)
 ads on TV or radio
 at least weekly
Approve of others/       0.98 (0.95, 1.00)     1.06 (0.99, 1.13)     0.98 (0.95, 1.01)     1.03 (0.96, 1.12)     0.98 (0.96, 1.01)   1.11** (1.03, 1.20)
 adults smoking  1
 pack/day f
Do not prefer to         1.00 (0.97, 1.02)     1.04 (0.97, 1.11)     1.00 (0.96, 1.04)     1.05 (0.94, 1.18)     0.99 (0.97, 1.02)     1.03 (0.96, 1.11)
 date nonsmokers
Feel that smokers        1.00 (0.98, 1.03)     1.00 (0.94, 1.07)     1.02 (0.98, 1.06)     1.07 (0.96, 1.19)     0.99 (0.97, 1.02)     0.94 (0.87, 1.01)
 know how to enjoy
 life more than
 nonsmokers
Feel the harmful         1.00 (0.98, 1.02)     1.03 (0.99, 1.08)     1.01 (0.98, 1.03)    1.07* (1.01, 1.13)     0.99 (0.96, 1.01)     0.99 (0.93, 1.06)
 effects of
 cigarettes have
 been exaggerated
Do not feel that         0.99 (0.97, 1.01)     0.99 (0.94, 1.04)     0.98 (0.95, 1.01)     1.02 (0.95, 1.09)     0.99 (0.97, 1.02)     0.96 (0.90, 1.03)
 being a smoker
 reflects poor
 judgment
Do not feel that         1.00 (0.98, 1.02)     1.00 (0.94, 1.07)     1.00 (0.96, 1.03)     1.01 (0.92, 1.10)     1.01 (0.98, 1.03)     0.99 (0.91, 1.07)
 smoking is a dirty
 habit
Perceive great harm      0.99 (0.98, 1.01)    0.95* (0.92, 1.00)     0.99 (0.97, 1.01)     0.98 (0.93, 1.04)     1.00 (0.98, 1.02)   0.93** (0.88, 0.98)
 in smoking  1 packs/
 day
Intend to smoke in 5   1.03** (1.01, 1.05)   1.12** (1.05, 1.19)    1.04* (1.01, 1.08)    1.10* (1.00, 1.21)    1,.01 (0.99, 1.04)   1.12** (1.04, 1.21)
 years
Smoked in past 30        0.99 (0.97, 1.01)   1.10** (1.03, 1.17)     0.99 (0.95, 1.04)     1.11 (0.99, 1.25)     0.99 (0.97, 1.01)   1.12** (1.04, 1.19)
 days
Consumption                  -.014; (.008)           .019 (.025)          -.014 (.015)           .069 (.044)          -.012 (.009)           .018 (.028)
 frequency among
 current smokers,g
 parameter estimate
 (SE)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Note. All models controlled for tobacco control advertising exposure, either tobacco company parent-targeted or youth-targeted advertising exposure,
  year, gender, race/ethnicity, earned income, average parental education, whether both parents live in the home, grade point average, evenings out,
  truancy, region, state cigarette price, and state smoke-free air index values. aAll students model Ns (weighted): smoked in last 30 days 101,720;
  perceived harm 95,952; disapproval 65 388; recall 28,768; consumption 21,138; remaining perception models range from 34,047 to 37,685.
a Grade 8 model Ns (weighted): smoked in last 30 days 36,382; perceived harm 36,236; disapproval 23,305; recall 12,136; consumption 4,621; remaining
  perception models range from 12,287 to 16,688.
c Grades 10 and 12 model Ns (weighted): smoked in last 30 days 65,338; perceived harm 59,716; disapproval 42,083; recall 16,632; consumption 16,517;
  remaining perception models range from 20,827 to 21,760. A dummy variable identifying students in grade 12 was included in these models.
b Tobacco company youth-targeted ads sponsored primarily by Philip Morris, and by Lorillard Tobacco Company.
e Tobacco company parent-targeted ads sponsored by Philip Morris.
f Students in grades8 and 10 asked about disapproval of others'smoking; 12th grade students asked about disapproval of adults'smoking.
g Consumption measured by a 6-point scale: less than 1 cigarette/day (0.5), 1-5 cigarettes/day (3.0), about 0.5 pack/day (10), about 1 pack/day (20),
  about 1.5 pack/day (30), and 2 or more packs/day (40). The natural log of this scale was used in all models.
*P < .05; **P < .01; ***P < .001.


 Table 3.--Odds Ratios and 95% Confidence Intervals for Tobacco Company Parent-Targeted Advertising Exposure and
                    Selected Smoking Outcomes Among Students in Grades 10 and 12: 1999-2002 a
----------------------------------------------------------------------------------------------------------------
                                                                         Excluding state
              Model a                Weighted      Excluding state       smoke-free  air     Excluding  tobacco
                                        No.        cigarette price         index value      control  ad exposure
----------------------------------------------------------------------------------------------------------------
Approve of others/adults smoking       42,083     1.10* (1.02, 1.18)   1.11** (1.03, 1.21)   1.10** (1.04, 1.17)
 1 pack/day b
Perceive great harm in smoking  1      59,716      0.95 (0.90, 1.01)   0.93** (0.88, 0.98)     0.97 (0.93, 1.01)
 packs/day
Intend to smoke in 5 years             21,760    1.12** (1.04, 1.20)   1.13** (1.05, 1.22)     1.04 (0.98, 1.10)
Smoked in past 30 days                 65,338    1.10** (1.03, 1.18)   1.12** (1.05, 1.20)   1.07** (1.02, 1.12)
----------------------------------------------------------------------------------------------------------------
----------------------------------------------------------------------------------------------------------------
a Tobacco company parent-targeted ads sponsored by Philip Morris. All models controlled for year, gender, race/
  ethnicity, earned income, average parental education, whether both parents live in the home, average school
  grade, evenings out, truancy, region, and dummy variable for students in grade 12. Unless specified above,
  models also controlled for tobacco control advertising exposure, either tobacco company parent-directed or
  youth-targeted advertising exposure, state cigarette price, and state smoke-free air index values.
b Students in grade 10 were asked about disapproval of others' smoking; students in grade 12 were asked about
  disapproval of adults' smoking.
*P < .05; **P < .01.

    Our study did have limitations. Our use of cross-sectional survey 
data reduced our ability to make direct causal inferences about whether 
potential exposure to tobacco company parent-targeted advertising 
resulted in changes to youth smoking behavior, or whether an unmeasured 
factor may better explain the relations we observed. However, our 
ability to adjust for competing advertising exposures, our use of 
regional and year dummy variables, our sensitivity analyses, and the 
fact that we observed results for tobacco policy \23\ \24\ and other 
advertising covariates \11\ \22\ that were largely consistent with 
those found in previous studies, lead us to believe that it is unlikely 
that we are misrepresenting the relation between exposure to tobacco 
company youth-targeted or parent-targeted advertising and youth smoking 
outcomes. An alternate hypothesis is that tobacco companies may have 
purposefully purchased parent-targeted advertising in media markets 
that have higher youth smoking rates. This seems unlikely, however, 
given that the vast majority of their television time was bought 
through national network and cable channels and was not supplemented by 
the purchase of local media market television time. In addition, 
although the study had a large sample size, which makes differences 
between groups more likely to achieve statistical significance, the 
overall consistency in the pattern and robustness of findings leads one 
to conclude that the detected relations are real.
    As previously mentioned, another study limitation is that because 
TRPs measure average exposure for the overall population in a media 
market, individual youths may have more or less actual exposure, 
depending upon their own viewing habits. However, when we adjusted for 
self-reported television watching, the relations between tobacco 
company youth-targeted and parent-targeted advertising and smoking in 
the past 30 days did not change for students in grade 8 and 
strengthened for students in grades 10 and 12. Previous studies of 
antitobacco and antidrug advertising have found a strong correlation 
between advertising recall and TRP measures.\22\ \25\
    Studies that use controlled exposure have indicated that tobacco 
company youth-targeted advertisements are less likely than those from 
state tobacco control programs tomake youths stop and think about 
smoking \10\ and are of less interest to youths.\26\ In 1 national 
study, Philip Morris ``Think. Don't Smoke'' advertisements were 
associated with increased intention to smoke and more favorable 
feelings toward the tobacco industry.\6\ Massachusetts youths aged 14-
17 who recalled seeing Philip Morris' ``Think. Don't Smoke'' ads 
perceived them to be less effective than ads that featured the serious 
consequences of smoking.\8\ Our finding of no relation between tobacco 
company youth-targeted advertising and youth smoking substantiates 
these previous results. Although tobacco company youth-targeted 
advertising was withdrawn from U.S. television in early 2003, ads 
continue to be broadcast in other countries, contributing ``clutter'' 
to other public health-sponsored advertising efforts \12\ that have 
been shown to be effective.\11\ \22\ \27\
    Our finding of potentially harmful relations between tobacco 
company parent-targeted smoking prevention advertising and youth 
smoking is a source of concern. Our observation of adverse relations 
associated with parent-targeted advertising is not simply an artifact 
of our methodological approach: we have previously reported beneficial 
relations between exposure to state-sponsored antitobacco advertising 
and youth smoking beliefs and behavior using the same methods.\22\
    Why might such advertising have harmful relations, especially for 
older teens? Although parents are the overt target group of tobacco 
company parent-targeted advertising, youths are exposed to them, on 
average, at levels almost equivalent to those of state-sponsored 
antitobacco campaigns. The overt message of the parent-targeted 
campaign is that parents should talk to their children about smoking, 
but no reason beyond simply being a teenager is offered as to why 
youths should not smoke.
    Theories in developmental psychology suggest that authority 
messages specific to teenagers invite rejection by those who have 
migrated to a dominant peer group orientation as they make the 
transition to adulthood, typically between ages 15 to 17 years.\28\ 
\29\ As adolescents age toward adulthood, they are more inclined to 
perceive themselves as independent and self-reliant and less likely to 
report that they rely on their parents for guidance or assistance.\28\ 
Evaluations of the U.S. National Anti-Drug Media Campaign, which used 
messages encouraging parents to talk to their children about illicit 
drugs, have also reported unfavorable effects on adolescents.\30\ \31\ 
Facilitating productive interaction between parents and adolescents 
about substance use may require more intensive intervention approaches 
than simple encouragement through the mass media, which may do more 
harm than good.
    During depositions and testimony in U.S.-based tobacco trials, 
tobacco company witnesses put forward their youth smoking prevention 
efforts as evidence that they are concerned about youth smoking and 
that the campaigns are part of efforts to reduce youth smoking.\32\ 
However, during questioning at such a trial, Carolyn Levy, Director of 
Philip Morris youth smoking prevention programs, admitted that the aim 
of their programs was to delay smoking until age 18 \32\ This contrasts 
with the aims of public health-funded programs, which are to encourage 
people to never take up smoking.
    In summary, our analysis suggests that tobacco company youth- and 
parent-targeted smoking prevention advertising campaigns confer no 
benefit to youths, and especially for older teens, parent-targeted 
advertising may have harmful relations. In the United States, youths 
have the benefit of the national American Legacy Foundation antitobacco 
campaign, as well as state antitobacco campaigns. The Legacy 
Foundation's budget cuts will force it to advertise less in the future, 
\33\ and state antitobacco campaign advertising has begun to decline as 
a result of reduced state tobacco control funding.\12\ \34\ Many other 
countries of the world have limited or no public health-sponsored 
televised antitobacco advertising. Given a media environment that has 
fewer demonstrably beneficial advertising messages, it is conceivable 
that tobacco company smoking prevention ads could have even greater 
adverse effects on youth smoking behavior than suggested by this study.
About the Authors
    Melanie Wakefield is with the Center for Behavioral Research in 
Cancer, The Cancer Council Victoria, Melbourne, Australia. Yvonne 
Terry-McElrath, Patrick M. O'Malley, and Lloyd D. Johnston are with the 
Institute for Social Research, University of Michigan, Ann Arbor. 
Sherry Emery, Frank J. Chaloupka, and Glen Szczypka are with the 
Institute for Health Research and Policy, University of Illinois, 
Chicago. Henry Saffer is with the Department of Economics, Kean 
University, Union, NJ.
    Requests for reprints should be sent to Melanie Wakefield, Ph.D., 
Center for Behavioral Research in Cancer, The Cancer Council Victoria, 
1 Rathdowne Street, Carlton, Victoria, Australia, 3053.
Contributors
    M. Wakefield conceived and led the study and the writing of the 
article. Y. Terry-McElrath conducted the analysis and assisted with 
writing. S. Emery, H. Saffer, F. Chaloupka, B. Flay, P.M. O'Malley, and 
L.D. Johnston contributed to conception of the study and the analysis 
and assisted with writing. G. Szczypka undertook data management for 
the study and assisted with writing.
Acknowledgments
    The study was supported by the National Cancer Institute State and 
Community Tobacco Control Initiative (grant CA86273), the National 
Institute on Drug Abuse (grant DA01411), and The Robert Wood Johnson 
Foundation (grant 032 769). Melanie Wakefield was supported by a 
VicHealth Senior Research Fellowship.
Human Participant Protection
    This study was approved by the University of Illinois, Chicago, 
institutional review board. Use of data from the Monitoring the Future 
school surveys received ethical approval by the University of Michigan 
Behavioral Sciences institutional review board.
References
    \1\ Hirschhorn, N. Corporate social responsibility and the tobacco 
industry: hope or hype? Tobacco Control. 2004; 13(4):447-453.
    \2\ Smith, E.A., Malone, R.E. Thinking the ``unthinkable'': why 
Philip Morris considered quitting. Tobacco Control. 2003; 12(2):208-
213.
    \3\ Landman, A., Ling, P.M., Glantz, S.A. Tobacco industry youth 
smoking prevention programs: protecting the industry and hurting 
tobacco control. Am J Public Health. 2002; 92(6):917-930.
    \4\ Sussman, S. Tobacco industry youth tobacco prevention 
programming: a review. Prevention Science. 2002; 3(1):57-67.
    \5\ World Health Organization. Youth smoking prevention activities: 
results of regional situation analysis. Manilla, Philippines: WHO 
Western Pacific Regional Office; 2004.
    \6\ Farrelly, M.C., Niederdeppe, J., Yarsevich, J. Youth tobacco 
prevention mass media campaigns: past, present, and future directions. 
Tobacco Control. 2003; 12 (Suppl. 1):i35-47.
    \7\ Fairclough, G. Study slams Philip Morris ads telling teens not 
to smoke: how a market researcher who dedicated years to cigarette 
sales came to create antismoking ads. Wall Street Journal. May 29, 
2002:B1, 2P, 1C.
    \8\ Biener, L. Antitobacco advertisements by Massachusetts and 
Philip Morris: what teenagers think. Tobacco Control. 2002; 11 (Suppl. 
2):ii43-46.
    \9\ Teenage Research Unlimited. Counter-tobacco advertising 
exploratory summary report January-March 1999. Northbrook, IL: Teenage 
Research Unlimited; 1999.
    \10\ Terry-McElrath, Y., Wakefield, M., Ruel, E., et al., The 
effect of anti-smoking advertisement executional characteristics on 
youth appraisal and engagement. J Health Commun. 2005; 10:127-143.
    \11\ Farrelly, M.C., Healton, C.G., Davis, K.C., Messeri, P., 
Haviland, M.H. Getting to the truth: evaluating national tobacco 
countermarketing campaigns. Am J Public Health. 2002; 92:901-907.
    \12\ Wakefield, M., Szczypka, G., Terry-McElrath, Y., et al., Mixed 
messages on tobacco: comparative exposure to public health, tobacco 
company and pharmaceutical company sponsored tobacco-related television 
campaigns in the United States, 1999-2003. Addiction. 2005; 100:1875-
1883.
    \13\ Borland, R., Balmford, J. Understanding how mass media 
campaigns impact on smokers. Tobacco Control. 2003; 12 (Suppl. 2):ii45-
52.
    \14\ Nielsen Media Research. DMA market and demographic rank: 
September 2001. New York: Nielsen Media Research; 2002.
    \15\ Szczypka, G., Emery, S., Wakefield, M., Chaloupka, F. The 
adaption and use of Nielsen Media Research commercial ratings data to 
measure potential exposure to televised smoking-related advertisements. 
Available at: http://www. impacteen.org/ab_RPNo29_2003.htm. Accessed 
August 15, 2006.
    \16\ Johnston, L.D., O'Malley, P.M., Bachman, J.G. Monitoring the 
Future: national survey results on drug use, 1975-2003. Volume 1: 
Secondary school students. Bethesda, MD: National Institute on Drug 
Abuse;2004. NIH Publication No. 04-5507.
    \17\ Wakefield, M., Kloska, D.D., O'Malley, P.M., et al., The role 
of smoking intentions in predicting future smoking among youth: 
findings from Monitoring the Future data. Addiction. 2004; 99(7):914-
922.
    \18\ Duan, N.M.W., Morris, C.N., Newhouse, J.P. Choosing between 
the sample selection model and the multi-part model. J Business Econ 
Stat. 1984; 2:283-289.
    \19\ Berndt, E. The practice of econometrics: classic and 
contemporary. Reading, MA: Addison-Wesley Publishing Company; 1991.
    \20\ Koyck, L.M. Distributed lags and investment analysis. 
Amsterdam: North Holland Publishers; 1959.
    \21\ Pollay, R., Siddarth, S., Segal, M., et al., The last straw? 
Cigarette advertising and realized market shares among youths and 
adults, 1979-1993. J Marketing. 1996; 60(2):1-16.
    \22\ Emery, S., Wakefield, M.A., Terry-McElrath, Y., et al., 
Televised state-sponsored anti-tobacco advertising and youth smoking 
beliefs and behavior in the United States, 1999-2000. Arch Paediatr 
Adolesc Med. 2005; 159:639-645.
    \23\ Chaloupka, F., Warner, K. The economics of smoking. In: 
Newhouse JP, Cuyler AJ, eds. The Handbook of Health Economics. New 
York: North Holland; 2001:1539-1627.
    \24\ Wakefield, M.A., Chaloupka, F.J., Kaufman, N.J., Orleans, 
C.T., Barker, D.C., Ruel, E.E. Effect of restrictions on smoking at 
home, at school, and in public places on teenage smoking: cross 
sectional study. Br Med J. 2000; 321(7257):333-337.
    \25\ Southwell, B.G., Barmada, C.H., Hornik, R.C., Maklan, D.M. Can 
we measure encoded exposure? Validation evidence from a national 
campaign. J Health Commun. 2002; 7(5):445-453.
    \26\ Wakefield, M., Balch, G.I., Ruel, E.E., et al., Youth 
responses to anti-smoking advertisements from tobacco control agencies, 
tobacco companies and pharmaceutical companies. J Appl Soc Psychl. 
2005; 35:1894-1911.
    \27\ Farrelly, M.C., Davis, K.C., Haviland, M.L., Messeri, P., 
Healton, C.G. Evidence of a dose-response relationship between 
``truth'' antismoking ads and youth smoking prevalence. Am J Public 
Health. 2005; 95(3):425-431.
    \28\ Crockett, L.J., Petersen, A.C. Adolescent development: Health 
risks and opportunities for health promotion. In: Millstein, S.G., 
Petersen, C., Nightingale, E.O., eds. Promoting the Health of 
Adolescents: New Directions for theTwenty-First Century, 1993, New 
York: Oxford University Press; 1993:3-37.
    \29\ Ingra, V., Irwin, C.E. Theories of adolescent risk taking 
behavior. In: Di Clemente, R.J., Hansen, W.B., and Ponton, L.E., eds. 
Handbook of Adolescent Health Risk Behavior, New York: Plenum Press; 
1996.
    \30\ Hornik, R., Maklan, D., Cadell, D., et al., Evaluation of the 
national youth anti-drug media campaign: fifth semiannual report of 
findings. Available at: http://www.nida. nih.gov/DESPR/Westat/#reports. 
Accessed September 19, 2005.
    \31\ Hornik, R., Maklan, D., Cadell, D., et al., Evaluation of the 
national youth antidrug media campaign: 2003 report of findings. 
Available at: http://www.nida.nih.gov/DESPR/ Westat/#reports. Accessed 
September 19, 2005.
    \32\ Wakefield, M., Mcleod, K., Perry, C.L. ``Stay away from them 
until you're old enough to make a decision'': Tobacco company testimony 
about youth smoking initiation. Tobacco Control. In press.
    \33\ Schroeder, S.A. Tobacco control in the wake of the 1998 Master 
Settlement Agreement. New Eng J Med. 2004; 350:293-301.
    \34\ Szczypka, G., Wakefield, M., Emery, S., et al., Estimated 
exposure of adolescents to state-funded anti-tobacco television 
advertisements--37 states and the District of Columbia, 1999-2003. 
MMWR. 2005; 54(42):1077-1080.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Daniel K. Inouye to 
                        Hon. William E. Kovacic
    Question. Are the ratings based on the FTC cigarette testing method 
deceiving smokers?
    Answer. The Commission has been concerned for some time that the 
current test method may be misleading to individual consumers who rely 
on the ratings it produces as indicators of the amount of tar and 
nicotine they actually will get from their cigarettes.
    As noted in the Commission's November 13, 2007 Prepared Statement 
to the Committee, the ratings produced by the current test method tend 
to be relatively poor predictors of tar and nicotine exposure, 
primarily due to smoker compensation. If sufficiently great, 
compensatory smoking behavior can result in smokers getting as much tar 
and nicotine from relatively low-rated cigarettes as from higher-rated 
cigarettes.
    When the Commission approved the test method in 1967, the intent 
was to produce uniform, standardized data about the tar and nicotine 
yields of mainstream cigarette smoke, not to replicate actual human 
smoking. Because no known test could accurately replicate human 
smoking, the FTC believed that the most important objective was to 
ensure that cigarette companies presented tar and nicotine information 
to the public based on a standardized method. At the time, most public 
health officials believed that reducing the amount of ``tar'' in a 
cigarette could reduce a smoker's risk of lung cancer; therefore, it 
was thought that giving consumers uniform and standardized information 
about the tar and nicotine yields of cigarettes would help smokers make 
informed decisions about the cigarettes they smoked.
    In the intervening 40 years, the limitations of the test method 
became a substantially greater concern as a result of changes in modern 
cigarette design and a better understanding of the nature and effects 
of compensatory smoking. These concerns have prompted the Commission to 
take a number of actions over the past decade.
    First, in 1994, the Commission, along with Congressman Henry 
Waxman, asked the National Cancer Institute (``NCI'') to convene a 
consensus conference to address cigarette testing issues. NCI held that 
conference in December 1994, and issued its Report in October 1996.
    The NCI Report recommended, among other things, that the cigarette 
testing system measure and publish information on the range of tar, 
nicotine, and carbon monoxide that most smokers should expect from the 
cigarettes they smoke. Accordingly, in September 1997, the Commission 
requested public comments on proposed revisions to the test method that 
would add a second tier of testing--using more rigorous smoking 
conditions--to generate a range of tar and nicotine yields for each 
cigarette and make it more apparent to consumers that the amount of tar 
and nicotine they get from any specific cigarette depends on how they 
smoke it.
    Ultimately, public health agencies asked the Commission to postpone 
its proposed modifications to the test method until a broader review of 
unresolved scientific issues surrounding the system could be conducted. 
The agency responded to these comments in 1998 by asking the Department 
of Health and Human Services (``HHS'') to review the test method. In 
particular, the Commission asked HHS to recommend whether the testing 
system should be continued, and if so, what specific changes should be 
made to correct the limitations previously identified by the NCI and 
others. The Commission understands that HHS continues to explore these 
issues.
    The Commission's concerns about the current system led it to 
recommend in 1999 that Congress consider giving authority over 
cigarette testing to one of the Federal Government's science-based, 
public health agencies.\1\ The agency specifically noted that it does 
not have the specialized scientific expertise needed to design 
scientific test procedures. The Commission reiterated that request in 
2003 \2\ and again at the November 13, 2007 hearings.
---------------------------------------------------------------------------
    \1\ Federal Trade Commission Report to Congress for 1997, Pursuant 
to the Cigarette Labeling and Advertising Act, 5-6 (1999) (available at 
http://www.ftc.gov/os/1999/07/1997
cigarettereport.pdf).
    \2\ Prepared Statement of the Federal Trade Commission Before the 
Committee on Energy and Commerce, Subcommittee on Commerce, Trade, and 
Consumer Protection, U.S. House of Representatives (June 3, 2003); 
Prepared Statement of the Federal Trade Commission Before the Committee 
on Government Reform, U.S. House of Representatives (June 3, 2003).
---------------------------------------------------------------------------
    Finally, the cigarette industry's use of descriptors that are based 
on ratings produced by the test method--such as ``light'' and ``low 
tar''--is one of the issues currently before the United States Court of 
Appeals for the District of Columbia Circuit. The trial judge in the 
U.S. Department of Justice's RICO case against the major cigarette 
manufacturers found that the manufacturers had made false and 
fraudulent statements about ``light'' and ``low'' tar cigarettes in 
marketing their products when they knew those cigarettes did not 
provide a clear health benefit compared to full-flavor cigarettes (the 
industry's term for cigarettes with tar ratings above 15 mg.). The 
judge barred the companies from using the terms ``light'' and ``low'' 
in marketing their products in the future. The companies have appealed 
that decision and remedy. We are monitoring that case, and believe that 
the court's resolution of this issue will provide guidance and clarity 
on a complex issue that has raised troublesome questions for some time.
                                 ______
                                 
    Supplemental Information Submitted by Cathy L. Backinger, Ph.D.
The Impact of Cigarette Tax Increases on Cigarette Smuggling
    NCI Research Published in Monograph 14: Changing Adolescent Smoking 
Prevalence concluded that:

        ``[R]elatively little is known about the impact of large price 
        increases on the growth of a black market in tobacco products 
        and its subsequent impact on demand, particularly among youths. 
        To the extent that organized and casual smuggling of tobacco 
        products would result from large tax and price increases, the 
        effects of the increases on tobacco use might be smaller than 
        otherwise expected. The limited research in this area, however, 
        suggests that the presence of a black market in tobacco 
        products may be just as, or more, related to other factors--
        including the presence of informal distribution networks, 
        nonexistent or weak policies concerning black market sales, and 
        their lack of enforcement--as it is to prices (Joossens and 
        Raw, 1995).'' \1\
---------------------------------------------------------------------------
    \1\ National Cancer Institute. Changing Adolescent Smoking 
Prevalence. Smoking and Tobacco Control Monograph No. 14. Bethesda, MD: 
U.S. Department of Health and Human Services, National Institutes of 
Health, National Cancer Institute, NIH Pub. No. 02-5086, November 2001.

---------------------------------------------------------------------------
    The 2000 Surgeon General's Report, Reducing Tobacco Use, concluded:

  <bullet> ``Smuggling has a significant, but small, impact on 
        cigarette demand, implying that a state cigarette tax increase 
        will lead to some smuggling.''

  <bullet> ``On average, 6 percent of state cigarette tax revenues were 
        lost due to smuggling activities in 1995.''

  <bullet> ``States can raise cigarette taxes and generate increased 
        revenues, even as cigarette sales decline and interstate 
        smuggling increases.'' \2\
---------------------------------------------------------------------------
    \2\ U.S. Department of Health and Human Services. Reducing Tobacco 
Use: A Report of the Surgeon General. Atlanta, Georgia: U.S. Department 
of Health and Human Services, Centers for Disease Control and 
Prevention, National Center for Chronic Disease Prevention and Health 
Promotion, Office on Smoking and Health, 2000. 82-50179.

    A California Department of Health survey found that soon after 
California's 50-cent cigarette tax increase went into effect in 1999, 
no more than 5 percent of all smokers purchased cigarettes in nearby 
states, from Indian reservations or military bases, or via the 
Internet, or otherwise avoided the state's cigarette tax.\3\
---------------------------------------------------------------------------
    \3\ Cancer Prevention & Control Program, University of California--
San Diego--The California Tobacco Control Program: A Decade of 
Progress, Results from the California Tobacco Survey, 1990-1999 By the 
Tobacco Control Section, California Department of Health Services, 
December 26, 2001. http://ssdc.ucsd.edu/ssdc/pdf/1999_Final_Report.pdf. 

---------------------------------------------------------------------------
                                 ______
                                 
The Effect of Televised, Tobacco Company-Funded Smoking Prevention 
        Advertising on Youth Smoking
    The National Cancer Institute funded a study published in the 
American Journal of Public Health in 2006 titled The Effect of 
Televised, Tobacco Company-Funded Smoking Prevention Advertising on 
Youth Smoking-Related Beliefs, Intentions, and Behavior. Below is a 
summary of this study:

    Recently, some tobacco companies have sought to portray themselves 
as interested in helping to prevent youth smoking, or in helping adults 
to quit. The sincerity and effectiveness of these efforts has been 
challenged by many in the medical and public health community who 
believe that, in reality, these activities are aimed at improving the 
dismal public profile of tobacco companies and at shifting attention 
away from their efforts to promote tobacco use.
    In a recently published study, Wakefield et al. confirmed that the 
tobacco industry's youth-targeted smoking prevention advertising does 
not have beneficial outcomes for youth. In fact, it appears that 
exposure to tobacco company advertising targeted to parents may have 
harmful effects on youth, especially among those in grades 10 and 12.
    Among students in grade 8, tobacco company advertising targeted to 
parents was related to:

  <bullet> stronger beliefs that the harms associated with smoking have 
        been exaggerated,

  <bullet> lower recall of anti-tobacco advertising (state and national 
        American Legacy Foundation campaigns, such as 
        truth<SUP>'</SUP>), and

  <bullet> stronger intentions to smoke in the future.

    Among youths in grades 10 and 12, during the 4 months leading up to 
the survey administration, each additional viewing of a tobacco company 
advertisement targeted to parents was, on average, associated with:

  <bullet> lower perceived harm of smoking,

  <bullet> stronger approval of smoking,

  <bullet> greater likelihood of having smoked in the past 30 days,

  <bullet> lower recall of anti-tobacco advertising (state and national 
        American Legacy Foundation campaigns, such as 
        truth<SUP>'</SUP>), and

  <bullet> stronger intentions to smoke in the future.
                                 ______
                                 
Cigarette Taxes and Cigarette Use
    NCI-funded research has found that raising tobacco prices and 
implementing limits on tobacco marketing are effective in reducing and 
preventing tobacco use.\1\
---------------------------------------------------------------------------
    \1\ Chaloupka et al., (2002). Tax, price and cigarette smoking: 
evidence from the tobacco documents and implications for tobacco 
company marketing strategies. Tobacco Control, 11 Suppl 1: 162-72.
---------------------------------------------------------------------------
  <bullet> Youth are more susceptible to price increases than adults:

   <ctr-circle> Youth: 10 percent increase in price = 5 percent 
            reduction in prevalence.

   <ctr-circle> Adults: 10 percent increase in price = 1-2 percent 
            reduction in prevalence.\2\
---------------------------------------------------------------------------
    \2\ National Cancer Institute. Changing Adolescent Smoking 
Prevalence. Smoking and Tobacco Control Monograph No. 14. Bethesda, MD: 
U.S. Department of Health and Human Services, National Institutes of 
Health, National Cancer Institute, NIH Pub. No. 02-5086, November 2001.

    CDC research has found that lower-income Americans and young adults 
---------------------------------------------------------------------------
are more susceptible to price increases than other Americans:

  <bullet> Lower-income Americans (family incomes at or below the 
        national median) are more likely to quit smoking as a result of 
        cigarette price increases than higher-income Americans.

  <bullet> Persons aged 18 through 24 years are more responsive to 
        price increases than older smokers.

  <bullet> Hispanic smokers and non-Hispanic black smokers are more 
        likely than white smokers to reduce or quit smoking in response 
        to price increases.\3\
---------------------------------------------------------------------------
    \3\ Centers for Disease Control and Prevention. Response to 
increases in cigarette prices by race/ethnicity, income, and age 
groups--United States, 1976-1993. Morbidity and Mortality Weekly Report 
47(29):605-609, 1998.

---------------------------------------------------------------------------
    The 2000 Surgeon General's Report, Reducing Tobacco Use, concluded:

  <bullet> ``The price of tobacco has an important influence on the 
        demand for tobacco products, particularly among young people.''

  <bullet> ``Substantial increases in the excise taxes on cigarettes 
        would have a considerable impact on the prevalence of smoking 
        and, in the long term, reduce the adverse health effects caused 
        by tobacco.'' \4\
---------------------------------------------------------------------------
    \4\ U.S. Department of Health and Human Services. Reducing Tobacco 
Use: A Report of the Surgeon General. Atlanta, Georgia: U.S. Department 
of Health and Human Services, Centers for Disease Control and 
Prevention, National Center for Chronic Disease Prevention and Health 
Promotion, Office on Smoking and Health, 2000. 82-50179.
---------------------------------------------------------------------------
    Why might such advertising have harmful effects, especially for 
older teens?

  <bullet> Although parents are the stated audience for tobacco company 
        advertising targeted to parents, youths are exposed to them, on 
        average, at levels almost equivalent to those of state-
        sponsored anti-tobacco campaigns.

  <bullet> The message of the parent-targeted campaign is that parents 
        should talk to their children about smoking, but no reason 
        beyond simply being a teenager is offered as to why youth 
        should not smoke.

  <bullet> Theories in developmental psychology suggest that authority 
        messages specific to teenagers invite rejection by those who 
        have migrated to a dominant peer group orientation as they make 
        the transition to adulthood, typically between ages 15 to 17 
        years.

    Public health experts note that, if indeed tobacco companies wanted 
to make a positive contribution toward reducing youth tobacco use, the 
obvious first step would be to decrease or eliminate the billions of 
dollars the companies spend so effectively each year to advertise and 
promote tobacco use.
Source: The Effect of Televised, Tobacco Company--Funded Smoking 
        Prevention Advertising on Youth Smoking
    Wakefield, M., Terry-McElrath, Y., Emery, S., Saffer, H., 
Chaloupka, F.J., Szczypka, G., Flay, B., O'Malley, P.M., Johnston, L.D. 
(2006). ``Effect of Televised, Tobacco Company--Funded Smoking 
Prevention Advertising on Youth Smoking-Related Beliefs, Intentions, 
and Behavior'' American Journal of Public Health, Vol 96, No. 12, 2154-
2160. http://www.ajph.org/cgi/content/ful1/96/12/2154.
                                 ______
                                 
Disease Risks of Pipe, Cigar and Cigarette Use
    As previously stated (in Dr. Backinger's testimony), all forms of 
tobacco products are harmful, including cigars and pipes.\1\ Because 
pipe use among Americans is much lower than the use of other tobacco 
products, there is limited research specifically on pipe smoking. Below 
is a summary of NCI funded research, along with information from 
additional studies, on how the health risks of smoking pipes or cigars, 
compares to that of smoking cigarettes.
  <bullet> Cigar and pipe smoking are strongly related to cancers of 
        the mouth, oropharynx, hypopharynx, larynx and esophagus.\2\ 
        \3\ \4\

  <bullet> Cigar and pipe smoking are causally associated with lung 
        cancer and there is evidence they are also causally associated 
        with, pancreatic, stomach and urinary bladder cancer.\2\

  <bullet> The risk of death from lung cancer is higher in pipe and 
        cigar smokers than in non-smokers, but lower in pipe and cigar 
        smokers than in cigarette smokers. This is because both pipe 
        and cigar smokers typically smoke less tobacco and have a lower 
        degree of inhalation.\4\ \5\

  <bullet> The risk of lung cancer increases with the number of pipes 
        or cigars smoked per day, and with the degree of smoke 
        inhalation.\5\

  <bullet> Graph 1 below describes the difference in risks of dying 
        from particular diseases for exclusive cigarette, pipe, and 
        cigar smokers compared to nonsmokers. Among other things, the 
        graph shows that: 
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

   <ctr-circle> Current pipe smokers are 5 times more likely to 
            develop lung cancer than non-smokers while cigarette 
            smokers are 20 times more likely to develop the disease.

   <ctr-circle> Current pipe smokers are 14 times more likely to 
            develop larynx cancer than non-smokers while cigarette 
            smokers are 10 times more likely to develop the 
            disease.\6\
Sources: Disease Risks of Pipe, Cigar and Cigarette Use
    \1\ The Word Health Organization. (2006). Tobacco: Deadly in any 
form or disguise. Retrieved 11/26/07 from http://www.who.int/tobacco/
communications/events/wntd/2006/Tfi_
Rapport.pdf.
    \2\ The International Agency for Research on Cancer Monograph 
Volume 83. (2004). Tobacco Smoke and Involuntary Smoking. Retrieved 11/
26/07 from http://monographs.iarc.fr/ENG/Monographs/index.php.
    \3\ National Cancer Institute. Cigars: Health Effects and Trends. 
Smoking and Tobacco Control Monograph No. 9. Bethesda, MD: U.S. 
Department of Health and Human Services, National Institutes of Health, 
National Cancer Institute, NIH Pub. No. 98-4302, February 1998.
    \4\ U.S. Department of Health and Human Services. The Health 
Consequences of Smoking: Cancer. A Report of the Surgeon General. 
Washington: U.S. Department of Health and Human Services, Public Health 
Service, Office of Smoking and Health, 1982. DHHS Pub. No. (PHS) 82-
50179.
    \5\ U.S. Department of Health, Education, and Welfare. Smoking and 
Health. A Report of the Surgeon General. U.S. Department of Health, 
Education, and Welfare, Public Health service, Office of the Assistant 
Secretary for Health, Office on Smoking and Health, 1979. DHEW Pub. No. 
(PHS) 7950066.
    \6\ Henley, S.J., Thun, M.J., Chao, A., Calle, E.E. (2004) 
Association between exclusive pipe smoking and mortality from cancer 
and other diseases. Journal of the National Cancer Institute, 96(11).
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                       Marvin E. Goldberg, Ph.D.
    Question 1. The tobacco companies have claimed that smokers believe 
that the word ``light'' refers to taste. Is that true? Or is this just 
another device to seduce smokers into discarding care about their 
health in pursuit of their addiction?
    Answer.
The tobacco industry has advanced the ``taste'' of low tar/lights 
        cigarettes as the primary reason they are chosen by smokers. 
        When questioned about the role of this false and illusory 
        dimension of low tar/light smokers' responses are often 
        misleading.
    When smokers are asked why they smoke light cigarettes, significant 
numbers may respond that it is because of the ``taste.'' This is 
understandable--they first experience the cigarette on their tongue and 
in their mouth--the most apparent locus of taste. But research tells us 
that ``taste'' is a good deal more than what we experience on our 
tongue. Twenty years ago, the Coca Cola company was concerned about 
losing market share among young cola drinkers to Pepsi Cola. Research 
suggested that younger consumers appeared to prefer the slightly 
sweeter taste of Pepsi. In response, Coca Cola developed a sweeter 
version of their product and proceeded to extensively test market it in 
blind taste tests across the country. Repeatedly and reliably in blind 
taste tests, consumers indicated that they preferred the sweeter 
version to the regular Coke. With that evidence in hand, Coke 
introduced ``New Coke'' with the new, sweeter formula. What happened 
next was shocking to Coke. Once the product they were drinking was 
labeled Coke, that knowledge impacted how they evaluated what they 
tasted--now they hated it. Within 3 months Coke had retreated and was 
pushing its original formula ``Classic'' Coke again (Fournier 1999; 
rev. 2001).
    That taste is, at least in part, a function of how products are 
portrayed/labeled and advertised has been carefully researched in the 
context of ``field'' experiments with foods. In one such experiment, 
the same lunch meals were sold in a university faculty cafeteria but 
were labeled differently on different days. For example, on some days 
one such meal was identified as ``Succulent Italian Seafood filet'' but 
on other days merely as ``Seafood Filet.'' Those who bought and ate the 
foods when they were described in an embellished way reported that: the 
foods were more appealing to the eye; they tasted significantly better; 
and after eating the meal they felt more ``comfortably full and 
satisfied.'' (Wansink et al., 2004).
    Interestingly, when desserts were labeled ``healthy'' (e.g., 
chocolate pudding vs. healthy chocolate pudding; apple crisp vs. 
healthy apple crisp). they were rated as tastier. The researchers 
reasoned, that as long as the dessert actually tasted good, consumers' 
initially lower expectations regarding something labeled ``healthy'' 
would be disconfirmed; that is, they would have been surprised by the 
good taste. Pleasantly surprised, the unexpected contrast between their 
actual and expected experience would have led them to evaluate the 
taste of the dessert more positively than someone who had seen the 
dessert label without the adjective ``healthy;'' (Wansink et al., 
2004b).
    Smokers of regular cigarettes who switched to what they perceived 
to be ``healthier,'' light cigarettes, would have had a parallel 
disconfirming experience. These smokers would have expected light 
cigarettes to yield less taste (along with less tar). However, given 
the compensatory smoking behavior described in my prepared testimony, 
light cigarettes yielded just as much tar/taste. As a result, the 
pleasantly surprised light cigarette smokers were quick to focus on the 
taste as the apparent motivation for smoking lights.
    As with the food experiments cited above, if questioned, smokers 
are almost certainly not going to be aware of how the label ``light'' 
(and hence the inference ``healthier'') influence their perceptions of 
the cigarette's taste. They revert to the more proximal evidence--what 
they believe they experience--on their tongues--and their answer as to 
why they smoke the cigarette they do smoke may reflect that logic.
In two court cases where both Philip Morris and R.J. Reynolds sued 
        Loews/Lorillard, it was evident that these tobacco companies do 
        not believe that smokers are primarily guided by taste in 
        selecting light cigarettes.
    The plaintiff firms, Philip Morris and R.J. Reynolds argued that in 
a comparative taste test, smokers reported that the Lorillard low tar 
brand tasted better than the comparison brand only if they were first 
told that Lorillard's brand had lower tar than either the R.J. Reynolds 
or the Philip Morris comparison brand. When (other) smokers made the 
same comparative taste test without being reminded of the relative tar 
levels, their taste preferences were very different.
    The basis of both suits was the approach taken in two parallel 
Lorillard surveys asking smokers to compare the taste of its low tar 
``Triumph'' to R.J. Reynolds' Winston Lights and to Philip Morris' 
Merit. Subsequent Lorillard advertising claimed that the preponderance 
of the smokers tested appeared to prefer the taste of Triumph over 
Winston Lights and that it was the ``National Taste Test Winner'' over 
Merit. Both plaintiffs Philip Morris and R.J. Reynolds argued that 
these claims were deceptive inasmuch as the taste question posed in 
each survey had, as a preface, a reminder of the lower tar scores for 
Triumph relative to those for Winston Light and for Merit. Each of the 
plaintiff companies ran a test of their own, where the tar scores for 
the two brands were not revealed and the resulting taste preferences in 
their research were very different.
    These comparisons suggest how much of what is ostensibly labeled as 
``taste'' is influenced by other factors; in this case, the salience of 
how ``light''/low tar a cigarette might be. In effect, the plaintiff 
firms acknowledge that where smokers are reminded of tar yields, the 
relative tar levels and not taste are the determining factors in the 
smokers' evaluations of the cigarettes; (R.J. Reynolds Tobacco Company, 
Plaintiff v. Loew's Theatres, Inc; No. 80 Civ 4197 (RWS) United States 
District Court for the Southern District of New York; 511 F. Supp.867; 
1980 U.S. Dist. LEXIS 16738; 210 U.S.P.Q. (BNA) 291; October 24, 1980; 
Philip Morris Incorporated, Plaintiff v. Loew's Theatres, Inc.; No. 80 
Civ. 4082 (RWS) United States District Court for the Southern District 
of New York; 511 F. Supp.855; 1980 U.S. Dist. LEXIS 12554 July 26, 
1980).
    Of course, for decades the tobacco companies have used low tar/
lightness as a critical way of selling cigarettes and have made that 
dimension very salient for smokers. Following the logic presented 
above, it is reasonable to expect that when respondents are asked, they 
may say that ``taste'' is the reason they prefer light/low tar 
cigarettes. Note, however, that following the logic of the two court 
cases discussed above, the causal sequence is, in fact, reversed. In 
actuality, it is because their cigarettes are light (and advertising 
and promotion continue to make that dimension salient) that smokers say 
they prefer the taste. They would not say so for the same cigarette, if 
its ``lightness'' was not made salient.
Promoting light cigarettes as extensions of major brands and aligning 
        them with the mother brand (e.g., Marlboros, Marlboro Lights), 
        helped shaped smokers' perceptions of their taste.
    At the same time as they developed light cigarettes that allowed 
for compensation, the tobacco companies learned how to boost the 
perceived strength of the taste, by using their advertising to shape 
the images associated with Lights. The companies viewed the taste 
dimension much as a ``Rorschach ink blot test.'' Light cigarette 
smokers could be induced to see/taste in the cigarettes what the 
companies wanted them to see/taste.

        . . . [I]t is almost impossible to know if the taste smokers 
        talk about is something which they, themselves attribute to a 
        cigarette or just a ``play-back'' of some advertising 
        messages;'' (Marketing and Research Counselors, Inc, 1975, p. 
        2).

    The industry further understood that they could ``borrow'' some of 
the brand equity established for their primary (regular) brands such as 
Marlboro Reds and Camels for the benefit of the light cigarettes. They 
did so by creating brand extensions--Marlboro Lights, Camel Lights etc. 
and using the same advertising themes and imagery that had been so 
successful to shape the imagery associated with the light extensions. 
That this strategy could affect smokers perceptions of the light 
cigarettes taste, is recognized in their internal documents.

        . . . [O]ther free standing low tar brands such as Kent, 
        Vantage, Carlton, etc. were perceived to be weaker and have 
        less taste than the line extension low tars: like Marlboro 
        Lights, Winston Lights, Camel Lights. Apparently these line 
        extension low tars share the taste heritage of their parent 
        full flavor brands; (Philip Morris 1990, pp. 13-14; emphasis 
        added).

    When R.J. Reynolds sought to develop a low yield cigarette in 1976, 
they recognized the image problem associated with low-yield cigarettes 
and set out to address it:

        What we want is to portray the feeling and image projected by 
        Marlboro and Kool advertising on a Vantage/Merit type of 
        cigarette. In other words, put ``balls'' (two of them) on a low 
        ``tar'' and nicotine cigarette and position. (Hind et al., 
        1976, p. 63).

    Question 2. If there were no cigarettes labeled as ``light,'' would 
the tobacco companies just come up with another word to send the same 
deceptive message to smokers?
    Answer. Forty-three countries, including Canada, Brazil, and the 27 
countries of the European Union have banned the misleading terms such 
as ``light'' and ``mild'' (Backinger 2007). It would be useful to 
canvas the experiences these countries have had with the tobacco 
industry's efforts to do an ``end-run'' around this prohibition. Casual 
observation on a trip to Canada suggests that the companies are 
substituting other words that will likely be used by smokers to 
distinguish between lights and regulars. If the same is true in other 
countries that have banned the use of ``light'' and ``mild'' it 
suggests that the advantages gained from this step are likely to be 
limited.
    One conclusion that ought to be drawn from the reasoning presented 
above is that the particular descriptors on the package are not 
necessarily the critical factor. Rather, the real issue is the question 
of the ultimate effect of any intended legislation. I have attached a 
paper by Kropp and Halpem-Fisher (2004) which I would like to go into 
the record. It indicates that, like adults, adolescents today believe 
that light cigarettes represent a reduced threat to smokers health 
relative to regular cigarettes. The goal of any legislation should be 
to turn this around. To this end, the tobacco companies should be 
required to develop a ``corrective advertising'' campaign advising 
smokers of the lack of any differences for their health between light 
and regular cigarettes. This campaign should continue as long as 
surveys of smokers show that the vast majority understand there is no 
difference in the risk to health from light versus regular cigarettes. 
While calling for corrective advertising may be more difficult 
legislatively, it is likely to be the most effective way to achieve the 
desired objective.
References
    Backinger, Cathy, ``Research Findings Concerning So-Called Low-Tar 
or `Light' Cigarettes,'' Presentation before the Senate Commerce, 
Science and Transportation Committee; U.S. Senate, Nov. 13, 2007, 
available at http://hhs.gov/asl/testify/2007/11/t20071113a.html 
(accessed Nov. 24, 2007).
    Kropp, Rhonda and Bonnie, L. Halpern-Felsher (2004) ``Adolescents' 
Beliefs About the Risks Involved in Smoking `light' Cigarettes,'' 
Pediatrics 114(4) 445-451.
                                 ______
                                 

 Pediatrics--Official Journal of the American Academy--Vol. 114 No. 4, 
                      October 2004, pp. e445-e451

  Adolescents' Beliefs About the Risks Involved in Smoking ``Light'' 
                               Cigarettes

By Rhonda Y. Kropp, B.S.N., M.P.H. and Bonnie L. Halpern-Felsher, Ph.D.

    ABSTRACT. Background. Light cigarettes have been marketed by the 
tobacco industry as being a healthier smoking choice, a safe 
alternative to cessation, and a first step toward quitting smoking 
altogether. Research, however, has failed to show a reduction in 
smoking-related health risks, an increase in rates of smoking 
cessation, a decrease in the amount of carbon monoxide or tar released, 
or a reduction in the rates of cardiovascular disease or lung cancer 
associated with light cigarette use, compared with regular cigarette 
use. Nevertheless, more than one-half of adolescent smokers in the 
United States smoke light cigarettes. This study is the first to 
investigate adolescents' perception of the risks associated with 
smoking light cigarettes, as well as adolescents' attitudes and 
knowledge about the delivery of tar and nicotine, health risks, social 
effects, addiction potential, and ease of cessation with light 
cigarettes, compared with regular cigarettes.
    Design. Participants were 267 adolescents (mean age: 14.0 years) 
who completed a self-administered questionnaire during class time. 
After reading scenarios in which they imagined that they smoked regular 
or light cigarettes, participants estimated the chances that they would 
personally experience 7 smoking-related health risks and 3 addiction 
risks. Participants also responded to 14 items concerning their 
attitudes and knowledge about light cigarettes versus regular 
cigarettes.
    Results. Participants thought that they would be significantly less 
likely to get lung cancer, have a heart attack, die from a smoking-
related disease, get a bad cough, have trouble breathing, and get 
wrinkles when smoking light cigarettes, compared with regular 
cigarettes, for the rest of their lives. Furthermore, when participants 
were asked how long it would take to become addicted to the 2 cigarette 
types, they thought it would take significantly longer to become 
addicted to light versus regular cigarettes. Adolescents also thought 
that their chances of being able to quit smoking were higher with light 
versus regular cigarettes. Similarly, when participants were asked how 
easy it would be to quit smoking the 2 cigarette types, they thought it 
would be significantly easier for them to quit smoking light cigarettes 
than regular cigarettes. Adolescents agreed or strongly agreed that 
regular cigarettes deliver more tar than light cigarettes and that 
light cigarettes deliver less nicotine than regular cigarettes.
    Conclusions. Overall, the results of this study show that 
adolescents hold misperceptions in both their personal risk estimates 
and their general attitudes about the health risks, addictive 
properties, and ease of cessation associated with light cigarettes. 
With a variety of light and ultra light cigarettes on the market, 
adolescents are led to think that there is a progression of safety 
levels to choose from when deciding which cigarettes to smoke. This 
illusion of control over health outcomes contributes to an 
underestimation of risks associated with smoking light cigarettes and 
supports these misperceptions. These results are of concern, given 
evidence suggesting that, if adolescents think they are less vulnerable 
to smoking-related health risks (i.e., lung cancer), then they are more 
likely to initiate smoking. Furthermore, there is evidence that 
adolescents are not fully aware of the addictive nature of cigarettes 
and therefore think that they can experiment with smoking during 
adolescence without becoming addicted or experiencing any health 
consequences. The data presented here support concerns regarding 
smoking addiction; adolescents might be even more inclined to smoke 
light cigarettes to delay addiction. Without correct information about 
light cigarettes, adolescents are unable to make informed decisions 
about their smoking behaviors. The findings presented here strongly 
suggest that healthcare practitioners need to talk to their adolescent 
clients not only about the overall risks of smoking but also about the 
specific risks associated with smoking light cigarettes and other 
tobacco varieties, including the potential for addiction and long-term 
health consequences. Information shared with adolescents about light 
cigarettes, both individually by healthcare practitioners and at the 
population level via counter-advertising campaigns, may be successful 
in changing current misperceptions, and ultimately light cigarette 
smoking patterns, among youth.
    Light cigarettes were introduced in the 1950s in response to 
growing public concern about the health effects of smoking. Light 
cigarettes have been marketed by the tobacco industry as being a 
healthier smoking choice, a safe alternative to cessation, and a first 
step toward quitting smoking altogether. Research, however, has failed 
to show a reduction in smoking-related health risks,\1\ \2\ an increase 
in rates of smoking cessation,\3\ \4\ a decrease in the amounts of 
carbon monoxide,\2\ \5\ \6\ or tar \2\ released, or a reduction in the 
rates of cardiovascular disease or lung cancer  \1\ \7\ associated with 
light cigarette use, compared with regular cigarette use. Nevertheless, 
a recent national survey of smokers found that 58.5 percent of adult 
smokers and 52.8 percent of adolescent smokers reported using light 
cigarettes.\8\
    Despite clear data showing that light cigarettes are not a safe 
alternative to smoking, adults in the United States harbor 
misperceptions about the health risks associated with smoking light and 
ultra light cigarettes,\2\ \9\<SUP>-</SUP>\13\ with a large proportion 
of adult smokers thinking that such cigarettes deliver less tar and 
nicotine, produce milder sensations, reduce the health risks associated 
with smoking, and assist with smoking cessation.\10\ \11\ No research 
has explored attitudes, beliefs, and perceptions of risk regarding 
light cigarettes among adolescents. If adolescents, like adults, think 
that light cigarettes are less risky to their health and are easier to 
quit than regular cigarettes, then they too may be more willing to try 
and to continue smoking these perceived ``safer'' cigarettes. This 
assertion is supported by theories indicating that perceptions of risk 
are related to engagement in both health-compromising and health-
promoting behaviors.\14\<SUP>-</SUP>\22\
    The present study addresses this gap in the literature by exploring 
adolescents' perceptions of the risks associated with smoking light 
cigarettes. In addition, we assessed adolescents' attitudes and 
knowledge about the delivery of tar and nicotine, health risks, social 
effects, addiction potential, and ease of cessation when smoking light 
cigarettes, compared with regular cigarettes. We hypothesized that 
adolescents would perceive light cigarettes to be less harmful to their 
health, to be less addictive, and to deliver less tar and nicotine than 
regular cigarettes. If these assertions are supported, than efforts to 
prevent adolescents' tobacco use must include specific communication 
about the harmful nature of light cigarettes, in addition to all 
cigarette and tobacco varieties.
Methods
Participants
    Participants were 267 adolescents (mean age: 14.0 years; SD: 1.49 
years) participating in a larger longitudinal study on the relationship 
between risk perceptions and tobacco use. The participants were 
ethnically diverse, with 56.8 percent of the participants describing 
themselves as white/non-Hispanic, 18.5 percent as Asian, 18.5 percent 
as Hispanic or Latino, 2.3 percent as Pacific Islander, 1.2 percent as 
African American, 1.5 percent as American Indian/Alaskan Native, and 
1.2 percent as other. Participants' mothers' education, on average, was 
high, with 17.9 percent of the mothers having a professional degree, 
6.1 percent having some education after college, 25.1 percent having a 
4-year college degree, 20.5 percent having at least some college 
education, and 19.4 percent having a high school degree or less; 9.9 
percent of the participants reported that they did not know their 
mothers' education.
Participant Recruitment
    Participants in the larger study were recruited from 2 northern 
California public high schools (schools A and B), during their 9th 
grade year, to take part in a longitudinal study of tobacco beliefs and 
smoking behaviors. Participants in school A were recruited in autumn 
2001, and those in school B were recruited in autumn 2002. Interested 
participants signed the adolescent assent form, and parents signed the 
parental consent form. Of the 790 students who received consent packets 
(302 from school A and 488 from school B), 418 (53 percent) returned 
completed consent forms (79.5 percent and 36.5 percent consent rate for 
schools A and B). Of the 790 students who received consent packages, a 
total of 395 adolescents completed the baseline survey, for an overall 
response rate of 50 percent (75.5 percent response rate for school A 
and 34.2 percent response rate for school B).
    Perceptions of light cigarettes were assessed in spring 2003, which 
corresponded to the second (school B, 9th grade) and fourth (school A, 
10th grade) rounds of data collection; therefore, only those rounds of 
data are reported in this article. Overall, 200 participants from 
school A completed the fourth-round survey and 152 participants from 
school B completed the second-round survey, for a total of 352 
participants (89.4 percent retention rate). Only participants who 
indicated that they had heard of light cigarettes were included in the 
analyses for the current report (n = 267), accounting for 75.8 percent 
of the total sample. There were no significant differences between the 
2 schools with respect to gender or age at the time of recruitment; 
however, significant differences were found with respect to ethnicity 
(X2 = 57.3, df = 3, P  < .001) and mother's education (X<SUP>2</SUP> = 
19.7, df = 8, P  < .05), with 1 school (school B) having fewer white/
non-Hispanic students and lower levels of mothers' education. However, 
we did not find any significant differences in the results for these 2 
schools or any differences based on age; therefore, data for the 2 
schools were combined.
Procedures
    Participants completed a self-administered questionnaire during 
class time. The researchers explained the instructions for completing 
the survey and remained available to answer questions that arose during 
administration. Refreshments were provided for all participants. 
Participants in school A also received a movie gift certificate, 
whereas the administrators and teachers in school B received school 
supply money to compensate for their efforts in the study. The study 
received approval from the University's institutional review board.
Measures
Demographic Features
    Participants provided information about their age, grade, gender, 
ethnicity, and mother's level of education.
Smoking Behaviors
    Participants were asked about the number of times they had ``smoked 
a few puffs of a cigarette'' in their entire lives, with responses 
being made on a 5-point scale (i.e., none, 1 time, 2-5 times, 6-10 
times, or > 10 times). cents
Chance Estimates of Personally Experiencing Smoking-Related Risks
    Participants read 2 scenarios about smoking cigarettes in general 
(proxy for regular cigarettes) and then 2 scenarios about smoking light 
cigarettes. The scenarios were identical except for the specification 
of light cigarettes. The first scenario asked participants to imagine 
that they had just begun smoking cigarettes (i.e., ``Imagine that you 
just began smoking. You smoke 2 or 3 [light] cigarettes each day. 
Sometimes you smoke alone, and sometimes you smoke with friends.''). 
After reading this scenario, participants estimated the chances that 
they would personally experience 5 smoking-related risks (Tables 1 and 
2).

   Table 1.--Comparison of Adolescents' Estimates of Personal Risk and
    Benefit With Regular Versus Light Cigarettes: Mean-Level Analyses
------------------------------------------------------------------------
                             Risk estimates, mean (SD)         t Value
                       -------------------------------------------------
                             Regular
                           cigarettes     Light cigarettes
------------------------------------------------------------------------
Short-term cigarette
 use
    Risks
        Smell like an      79.81 (27.29)     79.04 (26.66)       0.822
         ashtray
        Get a bad          71.93 (28.17)     69.97 (28.24)       1.56
         cough from
         smoking
        Have trouble       71.56 (28.59)     71.20 (27.85)       0.325
         catching your
         breath
        Have many          58.09 (30.42)     60.07 (30.62)       1.52
         really bad
         colds
        Have bad           78.43 (29.61)     75.64 (29.74)       2.16 *
         breath
    Addiction
        Become             69.07 (30.30)     66.98 (30.13)       1.32
         addicted to
         cigarettes
        Still be           57.32 (32.42)     59.76 (31.18)       1.45
         smoking in 5
         y
        Be able to         45.82 (32.98)     50.19 (32.20)  2.53 <dagger
         quit smoking                                            >
        How long will        2.98 (1.18)       3.17 (1.15)       3.73 
         it take to
         become
        addicted
        How easy will        3.64 (1.08)       3.41 (1.06)       4.59 
         it be for you
         to quit
         smoking ||
Long-term cigarette
 use
    Risks
        Get lung           73.04 (25.22)     70.89 (27.03)       1.79 
         cancer
        Die from lung      68.80 (26.92)     68.35 (26.87)       0.356
         cancer
        Get a bad          75.52 (25.31)     74.06 (25.60)       1.45
         cough from
         smoking
        Have trouble       76.36 (24.16)     74.69 (26.62)       1.50
         catching your
         breath
        Have a heart       67.66 (25.51)     65.15 (26.35)       2.12 *
         attack
        Get wrinkles       79.74 (24.13)     78.44 (25.50)       1.159
         on your face
        Die from a         73.13 (25.36)     70.53 (26.89)       2.30 *
         smoking-
         related
        disease
------------------------------------------------------------------------
*P < .05; <dagger> P < .01;  P < .001;   P < .10.
 Response scale for this question: will not happen (1);  1 month (2); 1
  to 6 months (3); 7 to 11 months (4); 1 to 2 years (5); 3 to 4 years
  (6);  5 years (7).
|| Response scale for this question: very easy (1); somewhat easy (2); a
  little easy (3); not very easy (4); not at all easy (5).


   Table 2.--Comparison of Adolescents' Estimates of Personal Risk and
 Benefit With Regular Versus Light Cigarettes: Individual-Level Analyses
------------------------------------------------------------------------
                              Percent of participants indicating
                     ---------------------------------------------------
                       More likely for                       More likely
                           regular         No difference      for light
                          cigarettes                         cigarettes
------------------------------------------------------------------------
Short-term cigarette
 use
    Risks
        Smell like                23.9               55.7          20.5
         an ashtray
        Get a bad                 33.2               41.7          25.1
         cough from
         smoking
        Have trouble              27.7               44.6          27.7
         catching
         your breath
        Have many                 26.0               41.6          32.4
         really bad
         colds
        Have bad                  31.9               48.7          19.4
         breath
    Addiction
        Become                    34.4               37.4          28.2
         addicted to
         cigarettes
        Still be                  31.8               34.1          34.1
         smoking in
         5 y
        Be able to                23.7               38.5          37.8
         quit
         smoking
        How long                   8.4               66.2          25.5
         will it
         take to
         become
        addicted
        How easy                  31.1               60.6           8.3
         will it be
         for you to
         quit
        smoking
Long-term cigarette
 use
    Risks
        Get lung                  29.8               46.6          23.7
         cancer
        Die from                  29.2               43.1          27.7
         lung cancer
        Get a bad                 33.0               45.6          21.5
         cough from
         smoking
        Have trouble              29.9               46.4          23.8
         catching
         your breath
        Have a heart              36.6               40.1          23.3
         attack
        Get wrinkles              31.2               48.5          20.4
         on your
         face
        Die from a                40.6               38.3          21.1
         smoking-
         related
         disease
------------------------------------------------------------------------

    Next, participants were asked to imagine that they continued to 
smoke cigarettes for the rest of their lives (ie, ``Now imagine that 
you continued to smoke 2 or 3 [light] cigarettes each day for the rest 
of your life.''). After reading this scenario, participants estimated 
the chances that they would personally experience 7 smoking-related 
health risks (Tables 1 and 2).
    Participants' chance estimates were provided as any percentage 
between 0 percent and 100 percent. The quantitative response scale (0-
100 percent) was chosen over scales that use lexical probability terms 
(such as ``likely'' and ``probably'') to estimate risk because of the 
great variability in meaning ascribed to these terms by 
adolescents.\23\<SUP>-</SUP>\25\
Estimates of Addiction
    After reading the scenario concerning short-term cigarette use (as 
described above), participants estimated the chances (0-100 percent 
scale) that they would personally experience 3 addiction risks (Tables 
1 and 2). Participants were also asked about the ease of cessation (ie, 
``If you smoke 2 or 3 [light] cigarettes each day, how easy will it be 
for you to quit smoking?''), with responses being made on a 5-point 
scale ranging from ``very easy'' to ``not at all easy.'' Finally, 
participants reported on the length of time until addiction (ie, ``If 
you smoke 2 or 3 [light] cigarettes each day, how long do you think it 
will take until you become addicted to [light] cigarettes?''), with 
responses being made on a 7-point scale ranging from ``will not 
happen'' to ``5 or more years.''
Attitudes and Knowledge About Light Cigarettes
    Participants responded to 14 items concerning their attitudes and 
knowledge about light cigarettes versus regular cigarettes in 4 
categories, ie, delivery (amount of tar and nicotine; 2 items), health 
risks (5 items), perceived social outcomes (5 items), and addiction/
cessation (2 items) (Table 3). Participants responded to each item on a 
4-point scale, ranging from ``strongly agree'' to ``strongly 
disagree.'' Participants also had the opportunity to indicate that they 
did not know how to answer each question.

       Table 3.--Comparison of Adolescents' Attitudes and Knowledge Regarding Regular and Light Cigarettes
----------------------------------------------------------------------------------------------------------------
                                                                   Percent of participants indicating
  Statement on regular versus light                    ---------------------------------------------------------
              cigarettes                 Mean (SD) *     Strongly                           Strongly     Don't
                                                           agree      Agree     Disagree    disagree      know
----------------------------------------------------------------------------------------------------------------
Delivery
    Regular cigarettes deliver more       2.04 (0.77)        18.8       45.5        13.9         4.1       17.7
     tar
    Light cigarettes deliver less         2.54 (0.87)         6.9       33.1        23.8        11.9       24.2
      nicotine
Health risks
    Regular cigarettes are more           2.60 (0.83)         6.9       28.4        33.3        10.7       20.7
     likely to cause a heart attack
    Regular cigarettes are more           2.57 (0.87)         8.4       28.7        29.9        11.5       21.5
     likely to cause lung cancer
    Regular cigarettes are more           2.66 (0.86)         5.7       29.7        28.9        14.1       21.7
     likely to cause a bad cough
    Light cigarettes are more likely      2.90 (0.78)         4.6       13.4        43.5        14.9       23.7
     to cause trouble catching your
     breath
    Regular cigarettes are less           3.12 (0.83)         4.5        8.0        36.0        25.8       25.8
     likely to cause wrinkles on the
     face
Perceived social benefits
    Smoking light cigarettes looks        3.42 (0.74)         2.7        5.4        32.2        47.7       12.0
      cooler
    Smoking light cigarettes makes        3.04 (0.83)         4.2        8.8        33.5        20.0       33.5
     you thinner
    Smoking regular cigarettes is         2.86 (0.89)         6.8       20.5        36.4        22.3       14.0
     more likely to make you
     smelllike an ashtray
    Smoking a regular cigarette makes     2.84 (0.88)         5.7       14.1        30.9        14.9       34.4
     you feel more relaxed
    Smoking light cigarettes looks        3.21 (0.81)         4.2        8.3        37.9        34.8       14.8
     more grown-up
Cessation
    It is easier to quit smoking          2.71 (0.86)         6.4       25.3        33.2        15.1       20.0
     light cigarettes
    Regular cigarettes are more           2.69 (0.90)         6.9       28.7        28.0        17.2       19.2
      addictive
----------------------------------------------------------------------------------------------------------------
* Response scale for this question: strongly agree (1), agree (2), disagree (3), strongly disagree (4).
  Participants could also indicate if they did not know.

Results
Preliminary Analyses
    Before conducting the main study analyses, we conducted analyses to 
determine whether perceptions of light versus regular cigarettes varied 
according to smoking experiences. We had only 84 participants who had 
ever tried a cigarette, even a puff, and 61 adolescents who reported 
having ever smoked a light cigarette. Furthermore, the number of times 
participants had tried a cigarette varied greatly, with 18 adolescents 
having tried a cigarette 1 time, 24 adolescents having tried a 
cigarette 2 to 5 times, 11 adolescents having tried a cigarette 6 to 10 
times, and 31 adolescents having smoked > 10 times. Therefore, the 
sample sizes with variations in smoking experiences were too small to 
allow a meaningful analysis according to smoking group. However, 
because perceptions of risk vary with the number of times an adolescent 
has smoked,\21\ we did examine the correlation between the number of 
times the adolescent had smoked and differences in perceptions of light 
versus regular cigarettes. None of these correlations was significant; 
therefore, data were combined across smoking experiences.
Perceptions of Smoking-Related Risks With Light Versus Regular 
        Cigarettes
    Paired t tests were used to examine our hypothesis that adolescents 
perceive less risk if they smoke light cigarettes, compared with 
regular cigarettes. Given the literature showing that adults perceive 
light cigarettes as less harmful and addictive than regular cigarettes 
and our directional hypothesis that adolescents would demonstrate 
similar if not greater bias, we used 1-tailed, directional t tests.
    As indicated in Table 1, adolescents did not perceive a significant 
difference in the chances of experiencing 4 of the risks (i.e., bad 
cough, trouble catching breath, bad colds, and smell like an ashtray) 
with short-term use of regular versus light cigarettes. Adolescents did 
think the risk of having bad breath was higher with regular versus 
light cigarettes (P = .032). Importantly, participants did think that 
they would be significantly less likely to get lung cancer (P = .075), 
have a heart attack (P = .036), and die from a smoking-related disease 
(P = .022) when smoking light cigarettes versus regular cigarettes for 
the rest of their lives. No differences were found in chance estimates 
of dying from lung cancer, getting a bad cough, having trouble 
breathing, or getting wrinkles with the 2 cigarette types.
    Perceived risk of becoming addicted and still smoking in 5 years 
did not differ significantly between regular and light cigarettes in 
the short-term tobacco use scenario. However, when participants were 
asked about their perceived ability to quit smoking the 2 cigarette 
types, they thought that their chance of being able to quit smoking was 
greater with light versus regular cigarettes (P = .012). Adolescents 
also thought it would take significantly longer to become addicted to 
light versus regular cigarettes (P < .0001) (Table 1). Similarly, when 
participants were asked how easy it would be to quit smoking the 2 
cigarette types, they thought that it would be significantly easier for 
them to quit smoking light cigarettes than regular cigarettes (P < 
.0001) (Table 1).
    Because many of the results were not significant, we conducted a 
power analysis to confirm that we had adequate power to detect 
differences in perceptions of light versus regular cigarettes. With an 
a of .05 for a 1-tailed t test, we found that, with a sample size of 
267, we had adequate power of .74 to detect small effects.\26\ 
Therefore, we do not think that the lack of significance was 
attributable to sample size.
    It was also important to determine the actual percentage of 
participants who incorrectly thought that regular cigarettes are more 
harmful and addictive than light cigarettes. Therefore, each individual 
was assigned a score for each outcome, corresponding to whether they 
thought the outcome was more likely to occur with regular cigarettes 
(+1) or with light cigarettes (-1) or was equally likely to occur with 
regular or light cigarettes (0). As shown in Table 2, while > 40 
percent of participants on average gave equal estimates of risk 
outcomes (bad cough, trouble catching breath, bad colds, and bad 
breath) for regular and light cigarettes, between 26 percent and 33 
percent thought that these outcomes were more likely to occur when 
beginning to smoke regular cigarettes, compared with light cigarettes, 
and between 19 percent and 32 percent viewed these outcomes as more 
likely with light cigarettes.
    A large proportion of the participants (between 29 percent and 41 
percent) thought that they were more likely to experience a number of 
negative health outcomes (lung cancer, heart attack, death from a 
smoking-related disease, bad cough, trouble breathing, and getting 
wrinkles) if they smoked regular cigarettes, compared with light 
cigarettes, for the rest of their lives. Importantly, 40.6 percent 
thought that they were more likely to die of a smoking-related disease 
with regular cigarettes than with light cigarettes, whereas only 21.1 
percent thought that the risk was higher for light cigarettes and 38.3 
percent did not perceive a difference in risk between the 2 cigarette 
types. A large percentage of the participants thought that addiction 
was less likely with light cigarettes. For example, 34.4 percent 
thought that they were more likely to become addicted to regular 
cigarettes than to light cigarettes, and 37.8 percent thought that it 
would be easier for them to quit smoking light cigarettes than regular 
cigarettes (Table 2).
Attitudes and Knowledge About Light Cigarettes
    Participants were asked how strongly they agreed or disagreed with 
a series of 14 statements comparing regular and light cigarettes in 
terms of the amounts of tar and nicotine delivered, health effects, 
social benefits, and addictive properties. Table 3 shows the average 
scale responses for each item, as well as the proportions of 
participants who strongly agreed, agreed, disagreed, and strongly 
disagreed with each statement. In terms of delivery, 64.3 percent of 
the adolescents agreed or strongly agreed that regular cigarettes 
deliver more tar than light cigarettes and 40.0 percent thought that 
light cigarettes deliver less nicotine than regular cigarettes. 
Adolescents had similar misperceptions about the health risks 
associated with light cigarettes, with a large proportion of 
participants agreeing or strongly agreeing that smoking regular 
cigarettes is more likely to cause lung cancer (37.1 percent), a heart 
attack (35.3 percent), and a bad cough (35.4 percent), compared with 
smoking light cigarettes; however, between 41 percent and 44 percent of 
the adolescents either disagreed or strongly disagreed with these 
statements. The majority of adolescents disagreed or strongly disagreed 
that they would look cooler (79.9 percent), become thinner (53.5 
percent), or look more grown-up (72.7 percent) with light cigarettes, 
although almost 13 percent agreed or strongly agreed with these 
statements. A significant proportion of adolescents demonstrated 
misperceptions about the addictive properties and ease of cessation 
with light cigarettes, with 35.6 percent and 31.7 percent agreeing or 
strongly agreeing that regular cigarettes are more addictive than light 
cigarettes and that light cigarettes are easier to quit than regular 
cigarettes, respectively. Between 45 percent and 48 percent of the 
adolescents disagreed or strongly disagreed with those statements. It 
should be noted that, on average, 22 percent of the participants stated 
that they did not know the answers to each of these knowledge 
questions.
Discussion
    Light cigarettes, although marketed as a healthy alternative to 
regular cigarettes and as an aid to quitting smoking, in fact do not 
reduce the health risks associated with smoking \1\ \2\ and do not 
increase rates of smoking cessation.\3\ \4\ Despite these facts, more 
than one-half of adolescent smokers in the United States smoke light 
cigarettes. The current study is the first to examine whether 
adolescents are aware of the true risks of smoking light cigarettes or 
whether their beliefs have been influenced by tobacco industry claims 
that light cigarettes are less harmful. Overall, the results of this 
study show that adolescents hold misperceptions in both their personal 
risk estimates and their general attitudes about the health risks, 
addictive properties, and ease of cessation associated with light 
cigarettes. These findings are similar to those outlined in studies 
with adult samples \2\ \9\<SUP>-</SUP>\13\ and expand on those results 
by assessing perceived risk for a number of short- and long-term 
smoking outcomes in an adolescent population.
    On average, adolescents in this study thought that long-term use of 
light cigarettes was less likely to cause lung cancer, heart attacks, 
and death from a smoking-related disease than was use of regular 
cigarettes. Adolescents also thought it would take longer to become 
addicted to light cigarettes and it would be easier to quit smoking 
light cigarettes, compared with regular cigarettes. Given that 64.3 
percent and 40.0 percent of adolescents incorrectly thought that 
regular cigarettes deliver more tar and nicotine, respectively, than 
light cigarettes, these misperceptions about the health and cessation 
properties of light cigarettes are not surprising. With a variety of 
light and ultra light cigarettes on the market to choose from, 
adolescents are led to think that there is a progression of safety 
levels from which to choose when deciding which cigarettes to smoke. 
This illusion of control over the health outcomes contributes to an 
underestimation of risks associated with smoking light cigarettes and 
supports these misperceptions.\27\
    Although some of the adolescents in this study were aware of the 
health risks and addictive properties associated with light cigarettes, 
the data clearly showed that 22 percent of the adolescents were 
uncertain regarding the differences between regular and light 
cigarettes and between 25 percent and 35 percent of the adolescents 
thought that health risks were more likely with regular cigarette use 
than with light cigarette use. These results are of concern, given 
evidence suggesting that, if adolescents think they are less vulnerable 
to smoking-related health risks (i.e,, lung cancer), then they are more 
likely to initiate smoking.\14\<SUP>-</SUP>\22\ Furthermore, there is 
evidence that adolescents are not fully aware of the addictive nature 
of cigarettes and thus think that they can experiment with smoking 
during adolescence without becoming addicted or suffering any health 
consequences.\22\ \27\ The data presented here support concerns 
regarding smoking addiction; adolescents might be even more inclined to 
smoke light cigarettes to delay addiction.
    Adolescents' misperceptions about the health and cessation 
properties of light cigarettes mirror marketing by the tobacco 
industry. In fact, it has been shown that adolescent' smoking 
intentions \28\ and behavior  \29\ are heavily influenced by the 
multimedia smoking campaigns launched by the tobacco industry. This is 
supported in part by our results showing significant differences in 
risk perceptions for light versus regular cigarettes in smoking 
outcomes most countered by pro-tobacco campaigns marketing light 
cigarettes (e.g., healthier or a first step to cessation), whereas 
adolescents perceived less difference in outcomes not focused on by 
tobacco media (e.g., cough and wrinkles), although the effects of media 
exposure were not specifically evaluated in this study.
    Healthcare practitioners' efforts to dispel adolescents' inaccurate 
beliefs about light cigarettes may be informed by the success of light 
cigarette counter-advertising, which has been shown to be effective in 
changing knowledge \30\<SUP>-</SUP>\33\ and intentions to quit smoking 
\31\ \33\ among adults. Interestingly, a limited number of studies 
suggest that messages that focus on dispelling myths about the 
sensation of light cigarettes (``feel milder,'' ``feel smoother,'' or 
``less harsh'') may be more effective than those providing factual 
information about tar and nicotine delivery, blocked vents, or health 
outcomes related to smoking light cigarettes among adults.\32\ \33\
    A number of study limitations need to be discussed. First, 
questions concerning personal risk estimates did not ask specifically 
about regular cigarettes but instead asked about cigarettes in general. 
These general cigarette questions were juxtaposed with questions 
specifically about light cigarettes and were therefore treated as a 
proxy for questions about regular cigarettes. However, if some 
adolescents interpreted ``cigarettes'' as other than regular 
cigarettes, then they would likely have been considering light 
cigarettes when answering these questions, which would result in an 
underestimation rather than overestimation of perceived risk 
differences. Second, the order of the questioning about regular and 
light cigarettes was not counterbalanced. The results were consistent 
with the adult literature on light cigarettes and with hypotheses that 
adolescents perceive light cigarettes as less harmful and addictive. 
Therefore, we do not think that participants' responses were influenced 
by the order of the questions, although we cannot be certain. Third, 
because of the small numbers of smokers and light cigarette smokers in 
this sample, we were unable to explore differences in attitudes and 
risk perceptions between smokers and nonsmokers or between light 
cigarette smokers and nonsmokers. Such analyses have yielded 
interesting results in studies of adults,\11\ and similar exploration 
among adolescents is needed. Last, the cross-sectional nature of this 
analysis did not allow investigation of potential links between risk 
perceptions, attitudes, and smoking initiation, cessation, or cigarette 
brand choices.
Conclusions
    This study has demonstrated that adolescents harbor misperceptions 
about the health risks, addictive properties, and ease of cessation 
associated with light cigarettes. Such misperceptions have the 
potential to influence adolescents' intentions to initiate and quit 
smoking, thereby increasing the number of adolescent smokers in the 
United States. Without correct information about light cigarettes, 
adolescents are unable to make informed decisions about their smoking 
behaviors. The findings presented here strongly suggest that healthcare 
practitioners need to talk to their adolescent clients not only about 
the overall risks of smoking but also about the specific risks 
associated with smoking light cigarettes and other tobacco varieties, 
including the potential for addiction and long-term health 
consequences. Information shared with adolescents about light 
cigarettes, both individually by healthcare practitioners and at the 
population level via counter-advertising campaigns, may be successful 
in changing current misperceptions, and ultimately light cigarette 
smoking patterns, among youths.
Acknowledgments
    This research was supported in part by grants awarded to B.L.H-F. 
from the Tobacco-Related Disease Research Program, Office of the 
President, University of California (grant 9K-0072), the University of 
California, San Francisco, Academic Senate Committee on Research, and 
the Raschen-Tiedenann Fund from the Research Evaluation and Allocation 
Committee, School of Medicine, University of California, San Francisco.
    We gratefully acknowledge the contributions of Michael Biehl, 
Tricia Michels, Jodi Cornell, Holly Sigler, Eric Peterson, Dr. Jeanne 
Tschann, and 2 anonymous reviewers. We also thank Dr. Gary Giovino and 
Dr. Michael Cummings for kindly sharing their data on the prevalence of 
light cigarette use in the United States and Jun Yang for performing 
the analyses of the National Household Survey on Drug Abuse data. We 
are also grateful to all of the study participants and their parents, 
as well as the schoolteachers and school administrators who contributed 
to this study.
References
    \1\ National Cancer Institute. The FTC Cigarette Test Method for 
Determining Tar, Nicotine, and Carbon Monoxide Yields of U.S. 
Cigarettes: Report of the NCI Expert Committee. Bethesda, MD: National 
Institutes of Health; 1996. National Institutes of Health Publication 
96-4028
    \2\ National Cancer Institute. Risks Associated With Smoking 
Cigarettes With Low Machine-Measured Yields of Tar and Nicotine. 
Available at: http://cancercontrol.cancer.gov/tcrb/nci_monographs. 
Accessed October 30, 2003
    \3\ Hughes, J.R. Do ``light'' cigarettes undermine cessation? Tob 
Control. 2001; 10 (suppl. 1):i41-i42
    \4\ Hyland, A., Hughes, J.R., Farrelly, M., Cummings, K.M. 
Switching to lower tar cigarettes does not increase or decrease the 
likelihood of future quit attempts or cessation. Nicotine Tob Res. 
2003; 5:665-671
    \5\ Sweeney, C.T., Kozlowski, L.T. Blocking filter vents increases 
carbon monoxide levels from ultra light, but not light cigarettes. 
Pharmacol Biochem Behav. 1998; 59:767-773
    \6\ Groman, E., Blauensteiner, D., Kunze, U., Schoberberger, R. 
Carbon monoxide in the expired air of smokers who smoke so-called 
``light'' brands of cigarettes. Tob Control. 2000; 9:352
    \7\ Thun, M.J., Burns, D.M. Health impact of ``reduced yield'' 
cigarettes: a critical assessment of the epidemiological evidence. Tob 
Control. 2001; 10(suppl. 1):i4-i11
    \8\ Cummings, K.M., Giovino, G.A. Selling the ``quit'' brand to 
young adult smokers. J Gen Intern Med. 2004; 19:481-482
    \9\ Cohen, J.B. Smokers' knowledge and understanding of advertised 
tar numbers: health policy implications. Am J Public Health. 1996; 
86:18-24
    \10\ Kozlowski, L.T., Goldberg, M.E., Yost, B.A., White, E.L., 
Sweeney, C.T., Pillitter, J.L. Smokers' misperceptions of light and 
ultra-light cigarettes may keep them smoking. Am J Prev Med. 1998; 
15:9-16
    \11\ Shiffman, S., Pillitteri, J.L., Burton, S.L., Rohay, J.M., 
Gitchell, J.G. Smokers' beliefs about ``light'' and ``ultra light'' 
cigarettes. Tob Control. 2001; 10(suppl. 1):i17-i23
    \12\ Kozlowski, L.T., Pillitteri, J.L. Beliefs about ``light'' and 
``ultra light'' cigarettes and efforts to change those beliefs: an 
overview of early efforts and published research. Tob Control. 2001; 
10(suppl. 1):i12-i16
    \13\ Etter, J.F., Kozlowski, L.T., Perneger, T.V. What smokers 
believe about light and ultra light cigarettes. Prev Med. 2003; 36:92-
98
    \14\ Arnett, J.J. Optimistic bias in adolescent and adult smokers 
and nonsmokers. Addict Behav. 2000; 25:625-632
    \15\ Covington, M.V., Omelich, C.L. Perceived costs and benefits of 
cigarette smoking among adolescents: need instrumentality, self-anger, 
and anxiety factors. In: Forgays D.G., Sosnowski T, Wrzesiniewski, K., 
eds. Anxiety: Recent Developments in Cognitive, Psychophysiological, 
and Health Research. Washington, DC: Hemisphere Publishing Corp; 
1992:245-261
    \16\ Eiser, J.R., Harding, C.M. Smoking, seat-belt use and 
perception of health risks. Addict Behav. 1983; 8:466-474
    \17\ Hansen, W.B., Malotte, C.K. Perceived personal immunity: the 
development of beliefs about susceptibility to the consequences of 
smoking. Prev Med. 1986; 15:363-372
    \18\ Leventhal, H., Glynn, K., Fleming, R. Is the smoking decision 
an ``informed choice''? Effect of smoking risk factors on smoking 
beliefs. JAMA. 1987; 257:3373 093376
    \19\ Urberg, K., Robbins, R.L. Adolescents' perceptions of the 
costs and benefits associated with cigarette smoking: sex differences 
and peer influence. J Youth Adolesc. 1981; 10:353-361
    \20\ Urberg, K., Robbins, R.L. Perceived vulnerability in 
adolescents to the health consequences of cigarette smoking. Prev Med. 
1984; 13:367-376
    \21\ Virgili, M., Owen, N., Severson, H.H. Adolescents' smoking 
behavior and risk perceptions. J Subst Abuse. 1991; 3:315-324
    \22\ Halpern-Felsher, B.L., Biehl, M., Kropp, R.Y., Rubinstein, 
M.L. Perceived risks and benefits of smoking: differences among 
adolescents with different smoking experiences and intentions. Prev 
Med. In press.
    \23\ Biehl, M., Halper-Felsher, B.L. Adolescents' and adults' 
understanding of probability expressions. J Adolesc Health. 2001; 
28:30-35
    \24\ Cohn, L., Macfarlane, S., Yanez, C., Imai, W. Risk-perception: 
differences between adolescents and adults. Health Psychol. 1995; 
14:217-222
    \25\ Fischoff, B., Bostrom, A., Quadrel, M.J. Risk perception and 
communication. Annu Rev Public Health. 1993; 14:183-203
    \26\ Cohen, J. Statistical Power Analysis for the Behavioral 
Sciences. San Francisco, CA: Academic Press; 1977
    \27\ Slovic, P., ed. Smoking: Risk, Perception, and Policy. 
Thousand Oaks, CA: Sage Press; 2001
    \28\ Straub, D.M., Hills, N.K., Thompson, P.J., Moscicki, A.B. 
Effects of pro- and anti-tobacco advertising on nonsmoking adolescents' 
intentions to smoke. J Adolesc Health. 2003; 32:36-43
    \29\ Wakefield, M., Flay, B., Nichter, M., Giovino, G. Role of the 
media in influencing trajectories of youth smoking. Addiction. 2003; 
98(suppl. 1):79-103
    \30\ Kozlowski, L.T., Yost, B.A., Stine, M.M., Celebucki, C. 
Massachusetts' advertising against light cigarettes appears to change 
beliefs and behavior. Am J Prev Med. 2000; 18:339-342
    \31\ Kozlowski, L.T., Goldberg, M.E., Sweeney, C.T., et al., Smoker 
reactions to a ``radio message'' that light cigarettes are as dangerous 
as regular cigarettes. Nicotine Tob Res. 1999; 1:67-76
    \32\ Shiffman, S., Burton, S.L., Pillitteri, J.L., et al., Test of 
``light'' cigarette counter-advertising using a standard test of 
advertising effectiveness. Tob Control. 2001; 10(suppl. 1):i33-i40
    \33\ Shiffman, S., Pillitteri, J.L., Surton, S.L., Rohay, J.M., 
Gitchell, J.G. Effect of health messages about ``light'' and ``ultra 
light'' cigarettes on beliefs and quitting intent. Tob Control. 2001; 
10(suppl. 1):i24-i32
                                 ______
                                 
            Prepared Statement of R.J. Reynolds Tobacco Co.
    R.J. Reynolds Tobacco Co. is pleased to provide comments for the 
Committee's hearing on the accuracy of the Federal Trade Commission's 
(FTC) ``tar'' and nicotine rating system for cigarettes.
    R.J. Reynolds, the FTC and the public health community agree that 
the FTC test does not and cannot predict the actual amount of ``tar'' 
and nicotine an individual smoker receives. It is widely accepted that 
machine test yields based upon a single smoking regime, like that 
prescribed by the FTC Method, do not equate to what an average consumer 
obtains from smoking.
    According to the 1967 press release announcing adoption of the FTC 
Method, the testing determines ``the amount of tar and nicotine 
generated when a cigarette is smoked by a machine in accordance with 
the prescribed method.'' The same FTC press release stated that the 
method was not intended to ``duplicate conditions of actual humans 
smoking,'' or gauge ``the amount of smoke, or tar and nicotine, which 
the `average' smoker will draw from any particular cigarette. . . .''
    While the fundamental limitations of the FTC Method have not 
changed since adopted some forty years ago, the relevance of machine 
yields to actual or average consumer yields has been extensively and 
publicly examined. Expert panels have been convened by the National 
Cancer Institute and the World Health Organization. A range of studies 
identifying the deficiencies of existing methods as well as potential 
alternative testing regimes have been published. A paper reviewing the 
recent advances and better understanding of these issues, authored in 
part by a R.J. Reynolds Tobacco Co. scientist, is attached * and made 
part of this testimony. (Attachment: Dixon, M. and Borgerding, M.F. 
(2006) Recent advances in the application and understanding of 
alternative smoking regimes. Rec. Adv. Tob. Sci. 32, 3-83.)
---------------------------------------------------------------------------
    * This paper is retained in the Committee's files.
---------------------------------------------------------------------------
    While no machine-test can mimic all human behaviors, the key to 
progress in this area should be development of a standard, smoking 
machine-based test method for cigarettes that more closely models the 
variability of smoke yields under conditions of consumer use. Clearly, 
this should begin with the body of scientific work that has already 
been completed. As active participants in this debate and process, we 
would welcome the opportunity to participate in the Committee's efforts 
to establish a robust and realistic testing standard that can be widely 
applied.
    R.J. Reynolds Tobacco Co. has a keen interest in advancing the 
testing methodology for cigarettes. We have been an active participant 
in the world-wide debate over the emerging issues. We welcome an open, 
scientifically-based discussion on these issues as part of a broader 
discussion of the methods of potential harm reduction of tobacco 
products. We believe decreasing the health risks and harm directly 
associated with the use of tobacco products is in the best interests of 
our society.

                                  <all>

</pre></body></html>
